<html>
<title> - BORDER SECURITY - 2013</title>
<body><pre>[Senate Hearing 113-254]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-254
 
                        BORDER SECURITY -- 2013

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             FIRST SESSION

                               ----------                              

                             MARCH 14, 2013
          MEASURING THE PROGRESS AND ADDRESSING THE CHALLENGES

                             APRIL 10, 2013
       FRONTLINE PERSPECTIVE ON PROGRESS AND REMAINING CHALLENGES

                              MAY 7, 2013
EXAMINING PROVISIONS IN THE BORDER SECURITY, ECONOMIC OPPORTUNITY, AND 
                 IMMIGRATION MODERNIZATION ACT (S. 744)

                               ----------                              

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]















                                                        S. Hrg. 113-254

                        BORDER SECURITY -- 2013

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             FIRST SESSION

                               __________

                             MARCH 14, 2013
          MEASURING THE PROGRESS AND ADDRESSING THE CHALLENGES

                             APRIL 10, 2013
       FRONTLINE PERSPECTIVE ON PROGRESS AND REMAINING CHALLENGES

                              MAY 7, 2013
EXAMINING PROVISIONS IN THE BORDER SECURITY, ECONOMIC OPPORTUNITY, AND 
                 IMMIGRATION MODERNIZATION ACT (S. 744)

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                  U.S. GOVERNMENT PRINTING OFFICE

80-221 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
           Blas Nunez-Neto, Senior Professional Staff Member
                    Holly A. Idelson, Senior Counsel
      Stephen R. Vina, Deputy Chief Counsel for Homeland Security
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
        Daniel P. Lips, Minority Director for Homeland Security
                     Trina D. Shiffman, Chief Clerk
                    Laura W. Kilbride, Hearing Clerk


























                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper..........................................1, 131, 263
    Senator McCain.........................................15, 134, 284
    Senator Landrieu.............................................   135
    Senator Tester...............................................   151
    Senator Ayotte...............................................   154
    Senator Baldwin............................................157, 283
    Senator Coburn.............................................159, 266
    Senator Johnson..............................................   280
    Senator Heitkamp.............................................   287
Prepared statements:
    Senator Carper.........................................33, 171, 315
    Senator Coburn.........................................36, 174, 318
    Senator Landrieu.............................................   319

                               WITNESSES
                        Thursday, March 14, 2013

Hon. Doris Meissner, Senior Fellow and Director, U.S. Immigration 
  Policy Program, Migration Policy Institute.....................     4
Edward Alden, Bernard L. Schwartz Senior Fellow, Council on 
  Foreign Relations..............................................     6
David A. Shirk, Ph.D., Director, Trans-Border Institute, 
  University of San Diego........................................     9

                     Alphabetical List of Witnesses

Alden, Edward:
    Testimony....................................................     6
    Prepared statement...........................................    50
Meissner, Hon. Doris:
    Testimony....................................................     4
    Prepared statement...........................................    37
Shirk, David A., Ph.D.:
    Testimony....................................................     9
    Prepared statement...........................................    62

                                APPENDIX

American Civil Liberties Union (ACLU), statement for the Record..    94
Government Accountability Office, statement for the Record.......   102
National Immigration Forum, statement for the Record.............   121
Colleen M. Kelley, National President, National Treasury 
  Employees Union (NTEU), statement for the Record...............   124

                       Wednesday, April 10, 2013

Kevin K. McAleenan, Acting Deputy Commissioner, U.S. Customs and 
  Border Protection, U.S. Department of Homeland Security........   136
Michael J. Fisher, Chief, U.S. Border Patrol, U.S. Customs and 
  Border Protection, U.S. Department of Homeland Security........   139
Randolph D. Alles, Assistant Commissioner, Office of Air and 
  Marine, U.S. Customs and Border Protection, U.S. Department of 
  Homeland Security..............................................   140
James A. Dinkins, Executive Associate Director, Homeland Security 
  Investigations, U.S. Immigration and Customs Enforcement, U.S. 
  Department of Homeland Security................................   142

                     Alphabetical List of Witnesses

Alles, Randolph D.:
    Testimony....................................................   140
    Prepared statement...........................................   176
Dinkins, James A:
    Testimony....................................................   142
    Prepared statement...........................................   189
Fisher, Michael J.:
    Testimony....................................................   139
    Prepared statement...........................................   176
McAleenan, Kevin K.:
    Testimony....................................................   136
    Prepared statement...........................................   176

                                APPENDIX

Photo submitted by Mr. Fisher....................................   185
Photo submitted by Mr. Fisher....................................   186
Photo submitted by Mr. Fisher....................................   187
Photo submitted by Mr. Fisher....................................   188
Colleen M. Kelley, National President, National Treasury 
  Employees Union (NTEU), statement for the Record...............   198
Responses to post-hearing questions for the Record from:
    Mr. McAleenan, Mr. Fisher and Mr. Alles......................   204
    Mr. Dinkins..................................................   243

                          Tuesday, May 7, 2013

Hon. David F. Heyman, Assistant Secretary for Policy, U.S. 
  Department of Homeland Security................................   268
Kevin K. McAleenan, Acting Deputy Commissioner, U.S. Customs and 
  Border Protection, U.S. Department of Homeland Security, 
  accompanied by Michael J. Fisher, Chief, U.S. Border Patrol, 
  U.S. Customs and Border Protection, U.S. Department of Homeland 
  Security.......................................................   270
Daniel H. Ragsdale, Deputy Director, U.S. Immigration and Customs 
  Enforcement, U.S. Department of Homeland Security..............   272
Anne L. Richards, Assistant Inspector General for Audits, Office 
  of Inspector General, U.S. Department of Homeland Security.....   274

                     Alphabetical List of Witnesses

Heyman, Hon. David F.:
    Testimony....................................................   268
    Prepared statement...........................................   322
McAleenan, Kevin K.:
    Testimony....................................................   270
    Prepared statement...........................................   322
Ragsdale, Daniel H:
    Testimony....................................................   272
    Prepared statement...........................................   322
Richards, Anne L.:
    Testimony....................................................   274
    Prepared statement...........................................   328

                                APPENDIX

Responses to post-hearing questions for the Record from:
    Mr. Heyman and Mr. McAleenan.................................   343
    Ms. Richards.................................................   456


                            BORDER SECURITY:
                                 ______


          MEASURING THE PROGRESS AND ADDRESSING THE CHALLENGES

                              ----------                              


                        THURSDAY, MARCH 14, 2012

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, presiding.
    Present: Senators Carper and McCain.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. Well, I am tempted to say the Committee 
will come to order, but the Committee is in order and so is the 
audience and our witnesses. We are glad you are here arrayed 
before us today and thank you for joining us. We are looking 
forward to your testimony and the hearing. I think we are going 
to have some votes today. We are working on some important 
legislation. So we will probably be interrupted a time or two, 
but we are going to get started and just roll with the punches. 
It is nice to see all of you.
    As Congress wrestles anew with immigration reform this 
year, the security of our borders will be closely examined. 
This conversation is likely to be quite different from the one 
we had 7 years ago when we last debated immigration reform. 
That is largely due to the substantial investments we have made 
to secure our borders over the past decade, particularly our 
Southern border with Mexico.
    Despite all of the money and attention we have poured into 
these efforts, we are still facing what I believe is a lag 
between perception and reality, much like what happened with 
the American auto industry. By the beginning of this current 
century, the quality of the vehicles that Detroit was making 
had begun to markedly improve, greatly narrowing and then 
eliminating the quality gap between our vehicles and those 
produced in Japan and Europe. However, it was only in the last 
few years that the public really recognized and accepted this 
fact, allowing the perception of the quality of American 
vehicles to catch up with the reality of the quality of those 
vehicles.
    Likewise, despite the tremendous improvements that have 
been made in border security over the past decade, the public's 
perception of these improvements has lagged at times behind 
reality. According to one of our witnesses today, Doris 
Meissner, we will spend $18 billion this year enforcing our 
immigration and customs laws. That is more than we will spend 
on all other Federal law enforcement, the Federal Bureau of 
Investigation (FBI), Drug Enforcement Administration (DEA), the 
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the 
U.S. Marshals, and the Secret Service combined. Just think 
about that. And since 2000, the Border Patrol alone has more 
than doubled in size, and its funding has almost quadrupled. 
This enormous investment reflects just how important effective 
border security is to our Nation.
    Last month, I was able to visit portions of the U.S.-Mexico 
border in Arizona with one of our colleagues, Senator John 
McCain. We were joined there by Congressman Mike McCaul of 
Texas, who chairs the House Committee on Homeland Security. 
Later that same week, I toured other parts of that border in 
Arizona with their former Governor, now Secretary of Homeland 
Security, Janet Napolitano. Based on what I saw there, I 
believe that our efforts, and especially those of the dedicated 
men and women who work along the border, are paying off for the 
American taxpayers, and they need to.
    As it turns out, illegal immigration has dramatically 
decreased. Some experts estimate that more undocumented 
immigrants now leave the United States each year than enter 
unlawfully. Border Patrol apprehensions of undocumented 
immigrants, our best current measure, albeit an imperfect one, 
are at their lowest levels in decades.
    Now, some parts of these decreases may be due to the great 
recession we have endured, which reduced the number of jobs 
available for immigrants. But I believe that we could attribute 
a lot of this success to the security gains that we have made 
which deter people from crossing the border, whether there are 
jobs here for them or not.
    Having said all that, I returned from the border wondering 
if apprehensions is the metric we should be using to measure 
our program and our progress in border security and to guide 
our future investments there. I am not convinced that it is. I 
am convinced, however, of the wisdom of the old adage, you 
cannot manage what you cannot measure. And the truth is that we 
need to refine and strengthen the metrics that we use to 
determine how secure our borders and our ports of entry (POE) 
are to ensure that our security efforts are both effective and 
as cost efficient as possible.
    This is especially necessary when the budgets are tight--
and they are, and we are literally debating that here today in 
the U.S. Senate. We simply cannot afford to keep ramping up 
resources for the border at the rate we have in the past. We 
must be strategic with our investments, and we can be.
    When I was in Arizona with my colleagues, I heard a number 
of frontline agents say that we need to focus our efforts on 
giving them technologies and tools that can serve as force 
multipliers. That includes a wide range of cameras, sensors, 
and radars that can be mounted on trucks or put on fixed towers 
to help the Border Patrol deploy its agents more effectively. 
More aerial surveillance assets, including blimps and aircraft 
such as the C206, are also needed, and that is not a real 
exotic airplane. It is a pretty basic airplane, but it is a 
good platform. But C206 are also needed to help the Border 
Patrol identify people crossing the border illegally and track 
them until agents can catch them.
    We also need to ensure that the investments we have already 
made are fully utilized and not wasted. I was surprised and, 
frankly, disappointed to learn that the Border Patrol has four 
drones deployed in Arizona but only has the resources to fly 
two of them, and even then, they cannot fly them every day of 
the week. We can do better than that.
    Another critical issue is the growing sophistication of 
drug smuggling networks along the border and the problems that 
they create for the Border Patrol and for our country. Agents 
in Arizona told me that the cartels actually put spotters with 
encrypted radios on top of mountains in our country to help 
smugglers on the ground avoid law enforcement. We need to do a 
better job of using our resources, including our drones and 
other aircraft, to find these spotters and to send agents to 
arrest them.
    Stopping these criminal networks must be a high priority. 
Finding the criminals that guide drugs and immigrants across 
the border can be like finding a needle in the haystack. If we 
can reform our broken immigration system to open up more 
effective legal channels for those looking to come to our 
country for economic or family reasons, I believe we can make 
that haystack smaller. This will allow law enforcement to focus 
on the truly bad guys.
    Finally, I would also like to note that a lot of the 
smuggling seen on the Southern borders is being pushed to the 
ports of entry. These border crossings have received far less 
attention and resources than the Border Patrol over the past 
decade, but they are just as important to our security and to 
our economy.
    Additionally, local mayors that I met with all told me that 
the lack of investments in border crossings is causing long 
wait times, which hurts their communities and our country as a 
whole. We must make sure that our ports of entry are secure, 
but we also need to ensure that they are effective conduits for 
the legal travel and trade that are essential to our national 
well-being and, frankly, that of the Mexicans.
    Ultimately, I hope that we can help the Department of 
Homeland Security (DHS) be so effective at securing our border 
that we can begin to shift some of our resources toward 
staffing and modernizing our ports of entry. We need to.
    In closing, I hope that today's hearing facilitates a frank 
conversation about how border security has improved since the 
last time immigration reform was debated and helps us to 
identify what more needs to be done. I support the efforts 
underway to reform our immigration laws. Looking ahead, I 
believe that this Committee can contribute significantly to the 
conversations that are taking place now by informing them and 
ultimately enabling the Congress and our President to hammer 
out a thoughtful and effective immigration policy for America 
in the 21st Century.
    And we are going to be joined by some of our colleagues 
here. Dr. Coburn is going to be offering a couple of amendments 
on the floor today, and I know he is tied up with that right 
now. I know he will be joining us, and some of my other 
colleagues will, too.
    I want to introduce our witnesses. As they say about the 
President, he does not really need an introduction, and Doris, 
I am not sure that you do, either, but I am going to give you a 
short one anyway. Doris Meissner, Senior Fellow and Director of 
the U.S. Immigration Policy Program at the Migration Policy 
Institute (MPI). From 1993, Ms. Meissner served in the Clinton 
Administration as the Commissioner of the Immigration and 
Naturalization Service (INS). Welcome.
    Our second witness is Mr. Edward Alden. He goes by ``Ted.'' 
Mr. Alden is the Bernard Schwartz Senior Fellow at the Council 
on Foreign Relations. Bernard Schwartz, that is a good name. 
Give him my best. He specializes in U.S. economic 
competitiveness. Mr. Alden has done extensive work on border 
security metrics and is the author of the book, The Closing of 
the American Border, which examines U.S. efforts to strengthen 
border security in the aftermath of the September 11, 2001, 
terrorist attacks.
    Our final witness is Dr. David A. Shirk, Director of the 
Trans-Border Institute and Assistant Professor in the Political 
Science Department at the University of San Diego. Dr. Shirk 
conducts research on Mexican politics and U.S.-Mexican 
relations and security along the U.S.-Mexican border and has 
many publications focused on these issues.
    We are delighted that you all are here. This is going to be 
a great hearing. The vote is at 11:15. Let us try to stick 
close to seven minutes each. If you run a little bit over, that 
is OK. If you run way over it, that is not.
    Doris, you are our lead-off hitter. Take it away. Thank 
you. Welcome.

    TESTIMONY OF HON. DORIS MEISSNER,\1\ SENIOR FELLOW AND 
  DIRECTOR, U.S. IMMIGRATION POLICY PROGRAM, MIGRATION POLICY 
                           INSTITUTE

    Ms. Meissner. Thank you very much, Mr. Chairman, and thank 
you for the opportunity to be here this morning.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Meissner appears in the Appendix 
on page 37.
---------------------------------------------------------------------------
    Chairman Carper. Our pleasure.
    Ms. Meissner. My statement is based on my personal 
experience with border and immigration enforcement when I 
served as Commissioner of INS. It is also based on a recent MPI 
report that I and colleagues coauthored called ``Immigration 
Enforcement in the United States: The Rise of a Formidable 
Machinery.'' The report describes for the first time the 
totality and evolution since the mid-1980s of the Nation's 
modern day immigration enforcement machinery. My written 
statement focuses on the border enforcement element of that, 
which I will summarize as follows.
    For more than 25 years, there has been strong and sustained 
bipartisan support for strengthened immigration enforcement. As 
a result, the level of immigration enforcement spending in the 
United States now stands at a record high. You just summarized 
the key points on that spending.
    It has now reached $17.9 billion, larger than the other law 
enforcement agencies combined that you recounted. That amount 
is 24 percent higher than the amount spent for those other law 
enforcement agencies, and, of course, the lion's share of that 
funding has been for border security.
    Since fiscal year 2005, the budget of Customs and Border 
Protection (CBP) rose from $6.3 billion to $11.7 billion. That 
is an increase of about 85 percent. The agency's staffing grew 
by 50 percent, from 41,000 to 61,000-plus. That includes a 
doubling in the size of the Border Patrol to 21,000-plus agents 
since just 2004.
    Border enforcement encompasses a broad sweep of 
responsibilities at and between air, land, and sea ports of 
entry. Enforcement along the Southwest land border with Mexico 
represents the most heavily funded and publicized element of 
border enforcement. Resource infusions there have led to 
notable results. Historic highs in staffing, technology, and 
infrastructure have combined with historic 40-year lows in 
apprehensions. Border Patrol apprehensions fell by 78 percent 
between fiscal year 2000 and 2012, from more than 1.6 million 
to just 365,000. The greatest drop, 53 percent, has occurred 
since just 2008. Beyond significantly fewer apprehensions and 
individuals arrested, net new migration from Mexico has fallen 
to zero.
    These are dramatic numbers. They represent a top-line story 
of changes that have been years in the making. To me, two 
aspects of the changes stand out as particularly significant.
    The first is a new strategic plan that the Border Patrol 
announced last spring that has received little notice. It calls 
for risk-based enforcement to supplant its earlier goal of 
building adequate staffing, technology, and infrastructure that 
began in 1994, when I was Commissioner. The plan says that the 
Border Patrol's resource base has now been built, allowing for 
targeted enforcement responses to be carried out through 
information, integration of effort, and rapid response. It 
depicts steady State funding and refining of programs alongside 
increased cooperation with other law enforcement entities, 
especially Mexico. This is entirely new and unprecedented.
    Second, these sustained resource infusions have allowed for 
significant changes in border enforcement practices. Instead of 
the storied revolving door along the border, the Border Patrol 
is employing enforcement tactics that impose consequences 
beyond simple voluntary return on those it arrests. According 
to the Border Patrol, the purpose of its new tactics is to 
break the smuggling cycles and the networks by separating 
migrants from smugglers and increasing deterrence of repeat 
entries. As a result, whereas 90 percent of border enforcement 
had been voluntary return, the reverse is now true and the 
large majority of those apprehended face a consequence, such as 
lateral repatriation, expedited removal, or Operation 
Streamline, for example. Remarkably, CBP refers more cases to 
the United States for prosecution in district courts than does 
the FBI.
    Now, this is not to say that border enforcement must not 
continue to be improved. Technology initiatives that have 
played a major role in transforming the border have also often 
been disappointing. The story of Secure Border Initiative 
(SBInet) is a case in point. Meeting the physical 
infrastructure needs at land ports of entry has not kept pace 
with advances in documentation and screening developments. 
Space limitations prevent important new technologies from being 
fully utilized. Thus, the potential for land port of entry 
inspections to be a weak link is a continuing enforcement 
challenge.
    There is much disagreement over how to measure what 
constitutes a secure border. Current measures rely primarily on 
inputs, such as resource increases, not on outcomes and 
impacts, such as the size of illegal flows, the share of the 
flow apprehended, or recidivism rates. CBP and DHS must do 
better in demonstrating border enforcement effectiveness.
    At the same time, the combination of increased border 
enforcement, shifting trends in Mexico, and job loss in the 
U.S. economy has led to new facts on the ground that have 
important policy and political implications for immigration 
debates. Today's border enforcement is a multifaceted, 
sophisticated enterprise. It has become institutionalized 
through its national security links and resource investments in 
vital capabilities that demonstrate the Federal Government's 
ability and will to vigorously enforce the Nation's immigration 
laws.
    While imperfect, border security has been significantly 
strengthened in all key dimensions. It would be strengthened 
even further by enactment of immigration laws that both address 
inherent weaknesses in enforcement beyond border security, such 
as employer enforcement, and that better rationalize 
immigration policy to align with the Nation's economic needs 
and future growth and well-being. The dramatic strides that 
have been made in border security constitute a sound platform 
from which to address broader immigration policy changes suited 
to the larger needs and challenges that immigration represents 
for the United States in the 21st century.
    Thank you, Mr. Chairman.
    Chairman Carper. Thank you. Great testimony. I wish all of 
my colleagues were here to hear it, but a lot of people are 
watching on television and a lot of staffers are here, so we 
thank you for that. Thank you for all your work over the years, 
as well.
    Ms. Meissner. Thank you.
    Chairman Carper. Mr. Alden, we are happy you are here. 
Please proceed.

   TESTIMONY OF EDWARD ALDEN,\1\ BERNARD L. SCHWARTZ SENIOR 
              FELLOW, COUNCIL ON FOREIGN RELATIONS

    Mr. Alden. Thank you, Chairman Carper. I am delighted to 
have been invited to testify today and it is great to be here 
with Doris Meissner and David Shirk.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Alden appears in the Appendix on 
page 50.
---------------------------------------------------------------------------
    Chairman Carper. Do you all know each other?
    Mr. Alden. We do.
    Ms. Meissner. Yes, we do.
    Mr. Alden. Yes. It is a group of people who I think have 
worked on these issues for a while, Doris longer than I have, 
but----
    Chairman Carper. Really? [Laughter.]
    Have you all testified together before?
    Ms. Meissner. No.
    Mr. Alden. No.
    Chairman Carper. OK. This is your debut, so this is good. 
Thank you.
    Mr. Alden. The testimony that follows, as I was saying, is 
drawn from research I have conducted with two distinguished 
economists, Bryan Roberts, who is here with me today, and John 
Whitley, on measuring the effectiveness of border enforcement. 
Dr. Whitley is a Senior Fellow at the Institute for Defense 
Analyses and the former Director of Program Analysis and 
Evaluation (PA&E) at the Department of Homeland Security. Dr. 
Roberts is Senior Economist at Econometrica and was formerly 
Assistant Director of Borders and Immigration for Program 
Analysis and Evaluation at DHS. I appreciate your generous 
introduction.
    In a 2011 article in Foreign Affairs which was entitled, 
``Are U.S. Borders Secure: Why We Do Not Know and How to Find 
Out,'' Dr. Roberts and I noted that by every conceivable input 
measure, as Doris' testimony went over, the number of Border 
Patrol agents, miles of fencing, and drone and surveillance 
coverage, the border is far more secure today than it has ever 
been. And yet according to a new poll by the Hill Newspaper, 
nearly two-thirds of Americans still believe the border is not 
secure.
    One reason for public skepticism is that the U.S. 
Government actually releases very little information about 
unauthorized border crossings. Currently, DHS makes public only 
a single relevant number, which is the total arrests or 
apprehensions made by Border Patrol in the vicinity of the 
border, numbers we are all familiar with. Multiple arrests of 
the same individual, it should be noted, are counted multiple 
times. And as Doris testified, apprehensions at the Southwest 
border have indeed dropped dramatically over the past decade, 
from more than 1.65 million in fiscal year 2000 to 357,000 at 
the Southern border in fiscal year 2012. This is lower than any 
year since the early 1970s, which is really before illegal 
immigration became a big policy issue. But other enforcement 
metrics related to illegal entry at the ports or between the 
ports or through visa overstays are not reported.
    DHS has recognized the inadequacy of the apprehensions 
number and has said it considers it, ``an interim performance 
measure.'' Yet despite promising to produce and report 
alternative measures, it has failed to do so, leaving this 
Congress to assess the current State of border security in the 
absence of data that would greatly assist that effort.
    The outcome that is of most concern to the U.S. public is 
the gross inflow of unauthorized migrants, or in other words, 
how many people escape detection, enter and remain in the 
United States successfully. While economic conditions in the 
United States and in the major sending countries of Mexico and 
Central America are obviously the biggest drivers of illegal 
migration, the two primary enforcement variables that affect 
gross inflow are the chances of being caught, that is, the 
apprehension rate, and the consequences of being caught.
    If we look between the land ports of entry, where much of 
the focus has been, there are three low-cost methods available 
that can be used to measure gross inflow and apprehension 
rates: Migrant surveys, recidivism analysis, and what is called 
known flow data.
    Migrant surveys, which have been carried out for several 
decades by academic groups, ask those who have attempted 
illegal entry how many times they were arrested on a particular 
trip and whether they were ultimately successful in entering 
the United States or gave up their attempt. The survey data, 
however, unfortunately, is not available in a particularly 
timely fashion. It tends to be backward looking.
    Recidivism analysis is possible because Border Patrol has 
captured fingerprints of those it apprehends for more than a 
decade now so that it can identify accurately those caught 
multiple times. Under certain assumptions, this analysis allows 
for accurate estimates of the apprehension rate. The difficulty 
is accounting for those who are arrested, sent back across the 
border to Mexico, and are deterred and do not make subsequent 
attempts. I explain that more in my written testimony.
    Finally, known flow data is based on sector-by-sector 
observations by the Border Patrol. Each sector has long kept 
such records, which include estimates of the number of people 
who successfully evaded the Border Patrol, so called ``got-
aways,'' or are observed to retreat back into Mexico, so-called 
``turnbacks.'' The difficulty here is that some percentage of 
illegal migrants will enter successfully without any 
observation by the Border Patrol.
    As our research shows in greater detail, each of these 
methods suggests considerable progress has been made in 
improving the effectiveness of border enforcement over the past 
decade. Migrant surveys suggest that the apprehension rate has 
trended upwards from a low of about 20 percent in 1990 to a 
current rate of somewhere between 40 and 50 percent.
    The recidivist method, depending on the assumptions one 
makes about deterrence, similarly suggests an apprehension rate 
in the 40 to 50 percent range. It could be higher than this. As 
Doris mentioned, Border Patrol's current strategy calls for 
consequence delivery to replace the historic practice of 
voluntary return of those arrested back to Mexico. We are 
talking about Mexicans here, who are the bulk of those trying 
to enter. These consequence programs are intended to discourage 
multiple reentry attempts. That is their whole purpose. But DHS 
has yet to release any data to evaluate their effectiveness.
    Finally, the known flow methodology, which was the subject 
of an extremely important Government Accountability Office 
(GAO) report in December, suggests that as many as 80 percent 
of those crossing illegally are apprehended. Evidence on 
illegal entry through the ports is scarce. In theory, it should 
be possible to measure and report apprehension rates and gross 
inflow through the ports. DHS implements a program of 
randomized secondary inspection, where certain vehicles are 
pulled aside on a random basis, that could be used to generate 
data on the probability that vehicle passengers attempting 
unauthorized entry succeed in getting through primary 
inspection. It is not known if DHS has made such estimates. 
They certainly have not released them publicly.
    Another relevant measure, though it does not directly 
related to the Southwest border, is the issue of visa 
overstays. A commonly accepted estimate is that more than 40 
percent of unauthorized migrants arrived on a lawful visa and 
then overstayed. DHS currently has the capability to provide a 
reasonably accurate estimate of the number of visa overstays 
from each country, but again has not released this information 
to Congress.
    The key outcome performance measures for any law 
enforcement organization are the rate at which the laws under 
their jurisdiction are broken. For U.S. immigration law, this 
means the numbers and rate at which individuals enter illegally 
and/or reside in this country unlawfully. Such data are crucial 
for designing more successful policies in the future. The U.S. 
Government is currently incapable of giving data-informed 
answers to some of the most basic policy questions in 
immigration management, such as would new legal programs for 
lower-skilled migrants reduce the incentive to migrate 
illegally to the United States? Would increased workplace 
enforcement do more to deter illegal immigration than increased 
border enforcement? Where would expenditures be more effective? 
Where are the vulnerabilities for increased illegal migration 
the greatest? At the ports of entry? Between ports? Visa 
overstays? We do not have good evidence.
    In an effort to produce more policy-relevant data and 
improve ongoing oversight, Congress should require at least the 
following as part of any forthcoming immigration legislation. 
First, that the Administration develop a full set of outcome 
performance measures for enforcement of immigration laws. There 
is a table in our written testimony that suggests what those 
should be. Congress should make the development and reporting 
of such measures mandatory for the Administration and tie this 
to future appropriations.
    Second, performance data should be used in the ongoing 
management of illegal immigration. DHS should establish an 
early warning system that monitors all unauthorized inflows, 
along with economic, demographic, law enforcement, and other 
trends that may affect these outcomes. This is a critical part 
of a risk management strategy as the Border Patrol has adopted.
    And then, finally, oversight must be strengthened. Relevant 
Committees in Congress should hold regular hearings to review 
the early warning system data and forecasts, examine trends and 
outcome performance measures, and assess DHS proposals for 
adjustments to its strategies as conditions on the ground 
change.
    Thank you. I appreciate your indulgence in going over time 
and I would be happy to respond to questions.
    Chairman Carper. That was well worth the time it took. 
Thank you.
    Dr. Shirk, please proceed.

 TESTIMONY OF DAVID A. SHIRK, PH.D.,\1\ DIRECTOR, TRANS-BORDER 
               INSTITUTE, UNIVERSITY OF SAN DIEGO

    Mr. Shirk. Thank you very much, Mr. Chairman. Thanks to you 
and the Committee for allowing me to speak to you today. I have 
been studying security issues on both sides of the border for 
the last 10 years at the Trans-Border Institute based at the 
University of San Diego's Joan B. Kroc School of Peace Studies, 
and also, I have been a long-time resident of the border region 
and I am personally affected on a daily basis by the choices 
made here in Washington about our border with Mexico, so I am 
very pleased to speak in that regard.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Shirk appears in the Appendix on 
page 62.
---------------------------------------------------------------------------
    I have been studying security issues on both sides of the 
border for the last 10 years at the Trans-Border Institute 
based at the University of San Diego's Joan B. Kroc School of 
Peace Studies, and also, I have been a long-time resident of 
the border region and I am personally affected on a daily basis 
by the choices made here in Washington about our border with 
Mexico, so I am very pleased to speak in that regard.
    Living in San Diego for most of the last two decades, I 
have witnessed the dramatic transformation of the border region 
that my two colleagues have described as a result of more 
concentrated enforcement measures to prevent unauthorized 
migration, smuggling, and terrorism. The dramatic increases in 
the number of Border Patrol agents on the ground has already 
been mentioned. But I would simply underscore that this 
arguably makes the U.S.-Mexico border the heaviest guarded 
border between two peaceful, interdependent trading countries 
in the world. The border itself has been physically 
transformed, especially in major populated areas where multi-
billion-dollar high-tech equipment and fencing are used to 
detect and deter both immigrants and criminals.
    By some measure, as has been mentioned, these efforts have 
resulted in real security improvements along the border, 
particularly when looking at inputs. But also, I want to speak 
to some of the consequences for us living in the border region.
    Even amid the economically and demographically driven 
decline of Mexican outbound migration in recent years, we have 
seen more effective deterrence, detection, detention, and 
deportation of unauthorized immigrants than at any other point 
in our history. We have produced safer conditions in terms of 
roads, lighting, communications systems, and emergency back-up 
for Border Patrol and Customs agents working in these zones, as 
well as lower crime rates for border communities, businesses, 
and residents like me.
    In many places, this has improved the quality of life for 
people living along the border insofar as it has resulted in 
less fear and property damage for businesses, ranchers, and 
residents, and greater protection for our parks and 
recreational areas located near the border.
    However, this border security buildup has come at a 
significant cost, as has been noted. The operational costs of 
border enforcement have increased greatly, from billions to 
tens of billions of dollars annually. More sophisticated border 
controls have resulted actually in more sophisticated criminal 
organizations, greater threats for immigrants, residents, and 
Government agents working in border zones. We have also 
produced more dangerous conditions for unauthorized immigrants 
crossing the border, contributing to more than 6,000 migrant 
deaths since 1995.
    In weighing the cost of border security, we should also 
consider the lengthy delays resulting from slow procedures and 
inadequate infrastructure, which results in lost economic 
opportunities for both countries. Last year, commercial, 
vehicular, and pedestrian crossers at the border accounted for 
over a half-a-trillion dollars in business with Mexico, our 
second-largest trading partner. Border wait times, solely in 
the San Diego-Tijuana region, which is in urgent need of 
further funding to complete infrastructure upgrades, cost both 
countries around $6 billion each year, according to the San 
Diego Association of Governments.
    Impacts on Mexican border cities, where tens of thousands 
of immigrants are returned without coordination with Mexican 
authorities, include greater crime and violence as those 
individuals try to struggle to adapt to their deportation 
conditions.
    Astonishingly, as has been noted, despite all the effort 
and cost, we have few reliable indicators to determine whether 
these border security measures are effective in deterring 
undocumented immigration. Almost all of the most commonly used 
metrics of border security effectiveness are proxy indicators. 
Analysts measure the number of unauthorized immigrants living 
in the United States based on surveys and approximations. 
Analysts measure the flow of illegal immigrants into the 
country by the number of arrests made by Border Patrol agents. 
Ultimately, we do not have accurate, up-to-date estimates of 
the size and composition of the U.S. unauthorized immigrant 
population or the number of unauthorized immigrants coming into 
the United States.
    These estimates need to be more regularly updated and 
publicly disseminated to give a clear picture of the overall 
effectiveness of immigration control measures, including those 
that go beyond the border. Greater research and analysis is 
also needed to approximate the proportion of visa overstays 
compared to unauthorized border crossers that comprise our 
undocumented population, as well as the countries of origin, so 
we can get a sense of how important Mexican and Central 
American migration is as a phenomenon overall.
    The U.S. Government, I think, should also work more closely 
with the Government of Mexico and Mexican research agencies to 
examine statistics on Mexican outbound migration and returnees, 
repatriacion, as they say in Mexico, as well as surveys of 
migrants, as has been mentioned, that provide a better 
understanding of their motivations and experiences.
    Authorities do have some measures that can be used, as 
well, to evaluate the performance of U.S. border control 
agencies in terms of process. For example, border officials 
collect data on the likelihood of detention after detection, 
again, this idea of got-aways or turnbacks. But the methodology 
for gathering these data varies from sector to sector, so 
developing a standardized methodology for the collection of 
these and similar performance metrics would help officials to 
identify areas in need of improvement along different sectors 
of the border and redeploy resources accordingly to those 
zones.
    On a final note, my colleague at the Wilson Center, Eric 
Olson, and I have argued for better security through wider 
gates. This may seem counterintuitive, but if Congress can 
achieve a long overdue reform of our immigration system, this 
would reduce the incentives to violate our immigration laws and 
thereby increase our ability to control the border, because it 
would reduce the size of the haystack that our Border Patrol 
agents have to sort through. In that sense, conditioning 
immigration reform on tougher border security may be the wrong 
sequence of policies.
    Thank you very much.
    Chairman Carper. Well, thank you. That was really excellent 
testimony. We appreciate each of your statements.
    We have been joined by Senator McCain, and I mentioned, 
Senator McCain, before you got here how valuable our visit to 
your border, your State's border with Mexico, was for me.
    I am reminded as I prepared for this hearing and listened 
to testimony today of a couple of thoughts. One, is the border 
more secure? Can we do better? Everything I do, I know I could 
do better. It is one of my core values. I think that is true 
for all of us. Everything we all do, every Government program 
we have, I suspect we can do better. And while real progress 
has been made along our border with Mexico, can we do better? 
Sure, we can do better. I like to say, the road to improvement 
is always under construction, and it is in this case, as well.
    One of my take-aways from the time I spent with Senator 
McCain and Congressman McCaul and later that week with 
Secretary Napolitano was that you look at the areas between the 
ports of entry, where you have deployed large numbers of ground 
forces, Border Patrol, but also a lot of emphasis there on a 
fair amount of technology, fencing and other things, we are 
doing a better job. We are clearly doing a better job. If you 
look at the ports of entry, especially the ports of entry where 
we have some new technology, and we visited at least one of 
those, very impressive operations, but there are also huge 
back-ups, impeding trade going North and going South.
    One of the take-aways for me from that visit was if some of 
the technology that we are using is being used effectively to 
help direct our troops on the ground, our Border Patrol on the 
ground to the places they need to go and to better deploy those 
assets and deploy them in a more timely way, but I was down 
there looking for force multipliers. And one of the great 
examples is the drones. We have four drones on the border. Two 
operate at any time. They can operate for about 16 hours. They 
operate 5 days a week. What happens the other 2 days? What 
happens with the other two drones? What happens when the wind 
is blowing more than 15 knots? What happens when maintenance 
brings down the drones and they cannot fly? We have to figure 
out how to resource all four drones. If we are going to have 
four drones there, we need to be able to resource them.
    We have pretty good technology with, some people call them 
aerostats, but they are really blimps, the kind of sensors that 
we can mount on these blimps. Put them up in the air, they can 
be there whether the wind is 15 knots or 35 knots. They can 
survey what is going on. They can help us better direct our 
resources.
    Ideally, what I would like to do--and the C206, an aircraft 
that, frankly, I had not heard of. It is an older plane, small 
plane, but it is one that is a great platform and a very cost 
effective platform compared to the drones. You can fly for 
extended periods of time. It would be a great way to help 
better deploy our assets on the ground. It is a force 
multiplier.
    But those are the kinds of investments I think we need to 
be making, and if we make those investments, we will make the--
how many thousand troops or Border Patrol do we have on the 
ground? It is not 18,000. What is it?
    Ms. Meissner. Twenty-one-thousand.
    Chairman Carper. Twenty-one-thousand, to help make them 
more effective.
    The other thing we have to do, we have these folks who are 
sitting up--the bad guys sitting up on the mountains up in our 
country really spying and being able to talk to other bad guys 
who are trying to bring either drugs or people into the country 
illegally. We ought to take them out. We ought to be smart 
enough to find out where they are and to be able to go take 
them out. If we could do that, that would make our efforts, I 
think, a whole lot more successful. It is probably a lot more 
difficult than it sounds, but that is part of what we need to 
do.
    I am going to ask a question or two and then turn it over 
to Senator McCain for--he has a number of questions--for at 
least 10 minutes, and then we will bounce back and forth. But, 
Mr. Alden, you spent a whole lot of time on the metrics and how 
do we measure, actually measure success. It is not easy. It is 
not an easy thing to measure.
    But I want to ask the three of you to just have a 
conversation with us about what might be a consensus about a 
metric or a series of metrics that are more reasonable, more 
effective, more appropriate. And, Doris, Dr. Shirk, I do not 
care who goes first, but react to what Ted Alden has said to 
us. What do you agree with? What do you maybe not agree with, 
and what----
    Ms. Meissner. I would endorse every one of Ted's 
statements. You asked us at the outset, if we know each other, 
or if we have worked together. Certainly Ted and I have, along 
with others that are in the university community as well as 
analysts that Ted mentioned.
    This issue of metrics is absolutely paramount at this point 
and DHS has been far too cautious. CBP has been very risk 
averse where measures that already are available are concerned. 
I understand the caution. We all recognize what the issues are 
surrounding them. But one of the things with measures and one 
of the things with data is that it has to be used. It has to be 
tested. It has to be validated, both inside closed circles 
within Government agencies but also by the external community. 
And it is past time where that should be done more fully.
    I think we would all agree that if there was one measure 
that we could have that would make all the difference, it would 
be the measure of the flow. It is what we in the trade call the 
magical denominator. We have the numerator. That is 
apprehensions. We need to know what those apprehensions 
represent as a percentage of the overall flow.
    We have that flow number in glances. The Congressional 
Research Service (CRS) has been able with select pieces of 
requests of data to get a sense of it. We know that the Border 
Patrol sector-by-sector has a reasonably good picture of it, 
lots of it because of the technology that you described and 
cited.
    The standardization of definitions on what is to be 
counted, et cetera, is not where it needs to be. That all needs 
to be done. But some of this can happen in an iterative way if 
things begin to be shared and this becomes a really sincere 
analytic effort to try to find out what the answers are.
    One of the most important things we learned from one piece 
of research that CRS did is that the apprehension numbers, 
365,000 a year ago, actually means just 269,000, or maybe it 
was 267,000, individuals. That is another very interesting 
subset of this. As compared to the arrest actions, how many 
real individuals does that represent? Just in those two things, 
the flow and how many individuals are represented by the 
apprehension numbers, we would know a great deal more about 
effectiveness than we do. Those, I would argue, are within 
reach.
    Chairman Carper. Oh, good. Thanks. Dr. Shirk.
    Mr. Shirk. I would agree, as well. I would just note that 
both Doris and I are on the advisory committee for the paper 
that Ted is working on for the Council on Foreign Relations 
precisely on this topic, and I think it is excellent work.
    I would say that one of the things that he noted, the fact 
that we can isolate with the apprehension data whether or not 
individuals are recidivists using the thumbprint identifier 
code that is available on that--that could be made available on 
that database is an example of how data should be made 
available to researchers so that we can do more sophisticated 
analysis and give you a better understanding of what the actual 
trends are using those data.
    I would also simply point out that if you--one metric, 
thinking about numerators and denominators, is in 1990, when we 
had about--late 1990s, when we had about 9,000 agents, they 
were making about 150-plus arrests per agent, on average, using 
the apprehension data that we have. If you flash forward to 
today, when we have 20,000-plus agents on the border, they are 
arresting about 15 undocumented immigrants per agent.
    So that is actually, ironically, a good thing. We want a 
low number of arrests to the number of agents that we have 
deployed. Ideally, we would like to have fewer Border Patrol 
agents and fewer arrests, meaning that flows would be low and 
there is a lot of deterrence. So if we can reduce manpower at 
the border while increasing some of those force multipliers 
that you mentioned, that would be the ideal.
    Chairman Carper. All right. Thanks very much.
    I am reminded, before I turn it over to you, Senator McCain 
and I spent a whole lot of time in the Navy. I admire his 
service--I know we all do--and salute him for it. The time that 
he spent in--and he was in much more difficult circumstances 
than I was. I flew in a Navy airplane called a P3. We used to 
hunt Russian submarines all over the world. We also flew a lot 
of missions off the coast of Vietnam and Cambodia, low levels 
trying to detect a little infiltrator probably trying to get 
into South Vietnam to resupply the Viet Kong. And in the South 
China Sea, there was a lot of surface traffic, and a lot of 
surface traffic going into Hong Gai Harbor. We flew a lot of 
missions down along the Straits of Majorca, between the Indian 
Ocean and the Pacific Ocean.
    And this was 40 years ago and we had the technology then to 
literally track scores of little boats electronically, to 
assign targets to them electronically, and to be able to track 
them, scores of them at the same time. This was 40 years ago. 
And if we could do that 40 years ago, I think we ought to have 
the technology today, whether it is on a drone or a C206 or an 
aerostat, to be able to do something with not just little boats 
trying to infiltrate into South Vietnam, but people and groups 
of people. We ought to have the technology to be able to do 
that.
    John, thank you very much.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Well, thank you, Mr. Chairman, and I want 
to thank you for taking the time from a very busy schedule to 
come down to the border, spend time with our agents, with our 
ranchers, with all of those who really live this issue on a 
day-to-day basis. I wish more of our colleagues could have the 
opportunity or seize the opportunity as you did, and I thank 
you for doing that. It is a long way from Delaware and I thank 
you for being there. It is obvious that you learned a lot, as I 
did, and I appreciate it very much.
    I thank the witnesses. Doris, it is nice to see you again, 
and thank you for your outstanding work, and thank you all for 
your continued contributions to this discussion we are having 
on comprehensive immigration reform.
    Doctor, I agree with you that we have to have comprehensive 
reform. You ended your remarks that the best way to relieve 
this pressure is probably through comprehensive reform. I know 
that all of our witnesses would agree with that. And part of it 
is--of any comprehensive immigration reform is verifiable 
identification of people who apply for jobs. When the magnet is 
not there anymore, then fewer people are going to come to this 
country illegally.
    But I also, Doris, want to emphasize that it is beyond my 
understanding why the Department of Homeland Security would not 
publicly disclose the information that is necessary to all 
Americans as to this issue of flow and how many we apprehend 
and how many are turned back and you have motivated me, if we 
pass comprehensive immigration reform, that will be one of the 
provisions of the legislation, that this information needs to 
be made public to all Americans.
    I guess for all three of our witnesses, that is probably 
the best way to--or do you know a better way of ascertaining 
the effectiveness rate than apprehensions and turnbacks? Is 
there a better way to achieve these metrics than that, or is 
that probably the best way to do that? Doris.
    Ms. Meissner. As far as I know, those are the key ideas, 
and David's addition of recidivism and repeated entries off of 
the Automated Biometric Identification System (IDENT) data is 
what we have. And that is what we need. I mean, it is not that 
what we have is too primitive. We have the wherewithal to get 
those numbers. Now, when we have them, they may raise other 
questions that one needs to dig further on. But having them 
would put us way far forward from where we are today in 
understanding.
    Mr. Alden. I would say, as I spelled out in the testimony, 
we really believe that the three methods you need, it is a 
place to start. There could be improvements to all of them. One 
is these Border Patrol observations, and you have had a very 
good picture of that in this GAO report in December, which is 
the first time all of that data has been made available widely 
to Congress and the public. A very important contribution.
    We need a similar kind of transparency with respect to the 
recidivist data, and DHS has this information on multiple 
arrests. They can use it, as I said, with certain assumptions 
to help make calculations of flow and apprehension rates.
    And then, finally, we need to make more serious use of 
these migrant surveys. Now, there are problems there in terms 
of who carries it out. It is done by academic groups. There 
would be concern if the Government got directly involved in 
that area. But the surveys are very valuable in helping us 
understand what the migrants themselves are doing, what 
motivates them, what deters them. It would be very interesting 
if we finally get serious workplace enforcement to have 
questions in surveys, were you deterred from coming to the 
United States by the fact that you did not think you could get 
a legitimate job? That is an important piece of information 
that we need to know as part of ongoing management.
    So I think we really are moving from this position of a big 
resource buildup to ongoing law enforcement and management of 
the problem, and I am hoping that this legislation will help 
facilitate that turn because I think that is where we are. Both 
for good objective reasons, because that is where we need to 
be, but, I think, also for budgetary reasons. There are just 
limits to how much we can continue to spend on enforcement.
    Senator McCain. Dr. Shirk.
    Mr. Shirk. I would only add, first of all, if the 
Government does not want to release the IDENT data, at a 
minimum, doing some analysis and presenting that through GAO or 
some other source would be an alternative. But it seems to me 
that there is no apparent reason for why this and similar data 
are not released.
    Another example that I would use on another security area 
would be seizure data. We do not have publicly available 
information about, say, drug seizures or drugs and cash on a 
port of entry level and in between port of entry level across 
the entire border. But that would be a useful metric, as well, 
as we think about border security's effectiveness on other 
measures, such as drug trafficking.
    On the scope of the problem, we have been using this number 
of 11 million undocumented immigrants, but that is an old 
number and it is a number that has not been backed up by new 
survey data. And so I would only underscore that the survey 
data is very important for getting a better understanding of 
the size and composition of what some researchers call lakes 
and streams, right, the population and the people moving into 
and out of that population. And, unfortunately, that is the 
kind of work that needs to be done by academics and think 
tanks, and funding is critical for that kind of research. It is 
often--academics seem like we are not doing a whole lot in the 
ivory tower, but ultimately, when funding is available to do 
this kind of research, policymakers get the kind of information 
that they need to make decisions.
    Senator McCain. In 1986, I was around here and we passed 
legislation that gave, ``amnesty'' to three million Americans. 
There is a bitter taste in a lot of people's mouths because 
there was a commitment at that time, an assurance that we would 
never have to address this issue again. So this obviously 
emphasizes the importance this time around of border security.
    And I agree with the witnesses. I am not sure we need 
additional people. But I also believe that we have learned a 
lot of lessons from Iraq and Afghanistan on detection, on 
surveillance capabilities, that have been a quantum leap. In 
2007, we did not use drones. We had dirigibles, you know, 
blimps. And so I agree with you. We need to use that additional 
technology to increase it.
    But I also think that we need to have a measurement, 
probably through effectiveness rate, so that we can assure the 
American people that we have about 90 percent effective control 
of the border and take steps that are necessary to achieve 
that. Now, because of the advances we have made, when you look 
at the nine sectors, except for the smallest sectors where less 
than 30,000 apprehensions are not that important, we are only 
looking at three sectors that are not at 90 percent 
effectiveness. So I do not think it is that hard to achieve 
that 90 percent.
    But at the same time, I think I have an obligation, not 
just to the people of Arizona, but to the people of this 
country, to assure them that not only will we enact 
comprehensive immigration reform, but we are not going to come 
back and face this same third wave again some years from now. I 
would appreciate your comments on that, maybe beginning with 
you, Doris.
    Ms. Meissner. Well, I certainly do not think that one wants 
to establish an effectiveness rate in statute. But it is 
absolutely important at this point to do what Ted suggests in 
his testimony: Establish in the statute expectations from DHS 
of the kind of data, and the managing of that data against 
circumstances on the ground that we want to see where border 
control is concerned.
    I also think that in terms of the 1986 experience and its 
lessons that although this debate is similar in that it is 
returning to the issues of border enforcement, employer 
enforcement, et cetera, it is also very different, not only 
because of what we have learned, but the way things have 
changed. And I would point to a couple of changes.
    The most important are changes that are taking place in 
Mexico. I mean, Mexico, of course, has been the source of the 
largest share of illegal immigration now for 40-plus years and 
there is actually a historic set of changes taking place in 
Mexico that is part of the new picture where illegal 
immigration to the United States is concerned. That has to do 
with dramatic reductions in the birth rate and fertility rate 
in Mexico, the age curve in the population, so that less people 
are actually working age, the growth of a middle class, and 
solid economic growth in Mexico because they got their 
fundamentals right in the 1990s in terms of the economy.
    So even though one does not want to say that there is not 
going to be illegal immigration from Mexico--there will be--it 
is a very different picture in terms of dynamics.
    Senator McCain. Well, it is very different in other ways, 
too. One is an increased flow from other parts of the 
hemisphere, not just from Mexico, and the dramatically 
increased sophistication of the drug dealers as they bring 
drugs across our border, so----
    Ms. Meissner. Well, and that is right----
    Senator McCain [continuing]. So I respectfully disagree 
with you that the problem is lessened. In fact, as far as drugs 
are concerned, it is greater. There are people sitting on 
mountaintops in Arizona today guiding drug cartel people 
bringing drugs across our border. There is a dramatic increase 
in other than Mexicans (OTMs) that are trying to come across 
our border, as well. So I respectfully disagree with your rosy 
assessment, and I believe it needs to be----
    Ms. Meissner. No, I----
    Senator McCain. Let me finish. And I believe that it needs 
to be written into law so that the American people can know 
whether there is an effective control of our border. I owe them 
that obligation, particularly the citizens of my State.
    And I am out of time, so could I go to you, Ted.
    Mr. Alden. I just wanted to caution against--and I can 
understand why for public assurance this is very important, but 
I want to caution against looking for a single number. I mean, 
Chief Michael Fisher of the Border Patrol put out this----
    Senator McCain. We have to have some measurement.
    Mr. Alden. But we can have multiple measures.
    Senator McCain. OK.
    Mr. Alden. We do not simply need one measure. I mean, Chief 
Fisher put out this 90 percent effectiveness ratio and that 
comes from this known flow methodology. The problem with that, 
as I said, is that known flow almost certainly underestimates 
the number of people coming in illegally because we simply do 
not know what it was that the Border Patrol did not observe.
    The second danger with focusing solely on that number is 
that in many ways, it is the most subjective of these different 
measures that I talked about because it depends on Border 
Patrol observations. And you want to be able to assure the 
public that these numbers are not being gamed by Border Patrol 
agents who are looking to hit a certain target in order to 
satisfy the Congress or satisfy the public.
    That is why we believe very strongly that multiple 
measures, including ones like the recidivist data that, for all 
of the challenges, are more objective--so we know when we have 
apprehended people multiple times--that you have to use these 
data together to try to come up with a complete picture.
    I would caution against establishing a target effectiveness 
ratio and then saying that is what we need to hit, because I 
think there is a real danger that effective long-run 
performance management will be jeopardized by focusing on a 
particular----
    Senator McCain. How do I assure the people of my State that 
the border is under effective control?
    Mr. Alden. You have to get them to understand that there 
are different ways to look at this. The data is all pointing in 
the same direction. The truth probably lies somewhere between 
these poles and we need to continue making it better. We are 
going to manage this on an ongoing basis. The Congress is going 
to do oversight. We are going to question the Administration 
and the Border Patrol aggressively. We are going to have a 
laser-like focus on continued improvement in the future, not on 
one particular magic number that we are going to try to hit.
    I think there is a real danger of that in terms of what you 
are trying to do in reassuring the public that this is not 
going to be 1986 all over again. I mean, people are smart about 
this, right? They understand----
    Senator McCain. No, they are not.
    Mr. Alden. Well, they should be, right? This is----
    Senator McCain. Well, maybe they should be.
    Mr. Alden. This is called----
    Senator McCain. Maybe they should be, but they are not.
    Mr. Alden. This is hard stuff, right.
    Senator McCain. Maybe they should be, but I can tell you, 
they are not.
    Mr. Alden. OK. Well, as my----
    Senator McCain. I have town hall meetings all over my 
State.
    Mr. Alden. Fair enough.
    Senator McCain. You may have seen some of them on 
television.
    Mr. Alden. I have. I understand the challenges.
    Senator McCain. We have spirited debate and discussion----
    Mr. Alden. I understand the challenges.
    Senator McCain [continuing]. And they want a secure border, 
and they have that right.
    Mr. Alden. Absolutely.
    Senator McCain. Dr. Shirk.
    Mr. Shirk. Senator, I have studied drug trafficking and 
drug-related violence in Mexico very carefully over the last 
several years and I agree with you that they are more dangerous 
and more deadly than at times in the past.
    I do think that that is all the more reason that we need to 
redirect flows of migrants to legal entry points so that we can 
reduce the size of the haystack and focus on the real threats 
that we face at the border, as you have tried to----
    Senator McCain. I have promised to. That is the intent of 
this legislation, and I appreciate that.
    Mr. Shirk. As you have tried to do, sir.
    I also would simply underscore that I also think we can 
help Mexico's economy continue to grow and benefit in the 
process. Mexico is our No. 2 most important destination for 
U.S. exports and I would like us to keep sending more iPods and 
more U.S. goods to Mexico as their economy improves and their 
purchasing power improves. Anything we can do to facilitate 
that, I think, would be a positive thing.
    But you are also right that we need to do more to work with 
Central America, which has been losing large numbers of its 
migrants, the OTMs, as you say, the other than Mexicans, who 
are coming North to the United States. And if we can work with 
them as we have worked with Mexico in the last few years, I 
think that would be positive. Thank you.
    Senator McCain. I thank you. I have to go, Mr. Chairman. I 
thank the witnesses. And again, Mr. Alden and Doris, I need to 
have something to assure people that they are not going to live 
in fear, as some of them are right now in the Southern part of 
my State, or believe they are. And so this is a very tough part 
of this issue. And I do not think we could ever return to 1986 
because of the dramatic improvement we have made in border 
security. But I can see a relaxation that might cause--and 
there is always--one of the problems with these Central 
American countries is their economies are terrible, as opposed 
to the Mexican economy. So we need to work with the Mexicans on 
improving their Southern border.
    But I need to assure the people of my State and this 
country that we are not going to revisit this issue again 10, 
15, or 20 years from now. So there has to be some assurance to 
them, no matter what parameters we use to secure our border.
    You have added a lot to this debate and you have been 
helpful to me as we are in these discussions and hopefully 
coming up with a product that Mr. Bismarck would not call laws 
and sausages. I thank the witnesses.
    Ms. Meissner. Senator, if I might just say very quickly, I 
am sure, on behalf of all of us, we would be very pleased to 
work with you on those issues.
    Senator McCain. Thank you very much. We have in the past, 
in the Coolidge Administration. Thank you. [Laughter.]
    Chairman Carper. Thank you.
    Mr. Alden, in your testimony, you note that the U.S. 
Government is incapable of giving data-informed answers to key 
questions that I think a number of us believe will be crucial 
when we try to figure out what more needs to be done.
    I want to go down the panel and ask each of you to help me 
address three questions that I am going to ask. They are short 
questions, and I am going to ask the question and then ask--we 
will start with you, Dr. Shirk--but ask you and then Mr. Alden 
and Doris to respond.
    But the first question is, would increased workplace 
enforcement do more to deter future illegal immigration than 
increased border enforcement?
    Mr. Shirk. I think, ultimately, yes. The data, however, I 
think as others will point out, does not make it possible for 
us to accurately determine exactly how significant the 
workplace enforcement effects are, but my personal leaning is 
that I think that that would be more of an effective measure, 
because the problem, I think, is that we always try to use the 
border as a solution to problems that do not originate at the 
border, whether that is with drugs or with undocumented 
immigration. We do not deal with the point of contact or the 
point of origin of the problem, the point of sale or the point 
of consumption.
    And in my mind, if we are not doing something to address 
the point of departure for undocumented immigrants, making 
their economic opportunities better at home, and we are not 
dealing with employers and making it easier for employers to 
ensure that the people that they hire have legal authorization 
to work in the United States, then anything we do in between is 
not going to be particularly effective.
    Chairman Carper. All right. Thank you. Mr. Alden.
    Mr. Alden. I would just like to note quickly that Dr. 
Whitley has joined us, as well. I am delighted to have him here 
with us.
    Chairman Carper. Do you think he would raise his hand and 
smile at us? How are you?
    Mr. Alden. Thank you. I think, logically, one would have to 
say yes, because border enforcement, beginning with the work 
that Doris did back when she was INS Commissioner, has 
developed substantially over the last two decades, as we have 
talked about today. Workplace enforcement is still really in 
its infant stages. I mean, e-Verify covers, what, 7 percent of 
employers now. There are identification problems. One has to 
believe that the potential gains are much bigger in that space 
than they would be for increased border enforcement. There has 
been some academic work that suggests that in a tentative way. 
It is hard to get a firm handle on.
    But one of the things that we would want to do if, as a 
result of this legislation, workplace enforcement becomes more 
and more stringent, is to begin to monitor that. I mean, in 
migrant surveys, for instance, you would want to ask people, 
were you deterred from coming to the United States by the fact 
that it was going to be difficult for you to find legitimate 
work? Currently, if you ask people that, the answer is, no, 
that is not a deterrent factor at all. And so that would be an 
important piece of data to try to get a sense of what kind of 
impact these measures have.
    I mean, there is no perfect workplace enforcement, either. 
One of the results will be more gray market work. More people 
will work for cash under the table. But there is no question 
that it could have a big impact in reducing the ease with which 
unauthorized migrants can find employment. But we would want 
to, again, as part of an ongoing process, monitor the impact of 
that as carefully as we can in terms of illegal migrant flows.
    Chairman Carper. All right. Thank you. Ms. Meissner.
    Ms. Meissner. Let me add one other element to what has 
already been said. I agree with what has been said. The other 
element here, of course, is that about 35, 40 percent of the 
people in the unauthorized population are probably there 
because they are overstaying visas. They have nothing to do 
with coming across the Southwest border with Mexico.
    Chairman Carper. So they started out on----
    Ms. Meissner. So they started out as a foreign student or 
as a visitor, or whatever, and they overstayed their visa. 
Again, we do not know the proportion because the Government 
does not put data out on it, so the research on that comes from 
the most recent Pew Hispanic Center, probably 5, 6 years ago. 
But let us just say it is 40 percent. That percentage is likely 
to go up the more that border enforcement on the Southwest 
border succeeds because less people, arguably, would be 
crossing the Southwest border and becoming part of the resident 
unauthorized population than would be overstaying visas.
    The best way to deal with the visa overstay is the 
employment point. That is the most logical intervention, 
because those people, too, are overstaying largely for purposes 
of working in the United States. So employer enforcement is the 
most direct way to get to a very large chunk, and possibly a 
growing chunk, of the unauthorized population, to the extent 
that it continues.
    Chairman Carper. All right. Thank you.
    My second question I want to ask of each of you, and maybe 
we will reverse the order here, reverse the flow, and Ms. 
Meissner, I am going to ask you to go first, but here is the 
question. Would new legal programs for lower-skilled migrants 
reduce the incentive to migrate illegally to the United States? 
We have had some discussion of this already, but I would like 
to just ask that directly and hear from each of you.
    Ms. Meissner. Yes, it would. I think that is one of the 
main lessons coming out of 1986 and the Immigration Reform and 
Control Act (IRCA) that we did not do. We thought of it as a 
closed box. We did not foresee that the issues of migration 
would be continuing issues in our labor market. That is far 
more acute now, however, than 25 years ago because of our own 
demographics, the aging of our society, the global labor market 
and global economy in which we live and compete. Immigration 
and immigration tied to our labor market needs is clearly a 
part of our future as an economy and as a competitive economy.
    Therefore, it is essential that we have ways of bringing 
those people to this country across all skill spectrums-- 
across the entire skill spectrum--in legal ways. And so we need 
to do that as part of immigration reform, but it does need to 
be combined with effective enforcement, because no matter what, 
there will be more demand to come to the United States than 
there will be legitimate opportunities. So good future flow 
provisions along with solid enforcement is the best we know of 
where to go with this.
    Chairman Carper. All right. Thank you. Mr. Alden.
    Mr. Alden. There is an interesting historical example, and 
credit Dr. Roberts for the research on this for our paper. If 
you look back in the 1950s, there had been a big spike in 
illegal migration in the early 1950s, actually, a million 
apprehensions, I think it was in 1953 or 1954. As a response, 
the Eisenhower Administration did two things. They expanded the 
quota of the Bracero Program dramatically, which was the farm 
worker program at the time. Now, I acknowledge all of the real 
human rights, labor rights issues with the Bracero Program. I 
am not advocating Bracero.
    But you look historically. A big expansion of the Bracero 
Program coupled with very tough enforcement, what was 
infamously known as Operation Wetback, which was rounding up 
lots of people living without status in the United States, 
either sending them back to Mexico or forcing them into the 
Bracero Program to work as authorized Bracero workers.
    What we see in the apprehensions data is it plunges in the 
years after, down to a level of roughly 80,000 annually. During 
this period of time, the Border Patrol is monitoring conditions 
in the agricultural economy very carefully to try to assess 
where might there be spikes in people coming over. That whole 
period through the end of the Bracero Program in 1964, we have 
very low levels of apprehensions. The numbers are typically 
fewer than 100,000 per year. After the elimination of the 
Bracero Program, those numbers start to spike again and we have 
the modern rise.
    So I think there is an interesting historical experiment, 
then, which for all the problems with Bracero, which for all of 
the problems with the way enforcement was done in the 1950s--
again, I am not advocating these--seems to indicate that a 
combination of legal paths for lower-skilled workers plus tough 
enforcement does, in fact, reduce illegal migration 
substantially.
    Chairman Carper. Dr. Shirk.
    Mr. Shirk. I agree with everything that has been said, for 
the most part. I just would point out that the challenge, I 
think, on workplace visas is that there is enormous complexity 
to the number of workplace visa types that we have. We have the 
A-1. We have high-skilled--I am sorry, the H-1. We have H-2A 
and H-2B. We have numerous different categories of visas and 
often there is a cost for the employer to contract workers to 
take them in as temporary workers.
    As a result of that, we tend to have larger firms taking 
advantage of workplace visa opportunities, bringing people in 
from Mexico or other places. But for smaller firms that have 
maybe one or two people that they need in the back of a kitchen 
or something like that, the cost of doing all the paperwork and 
paying the costs associated with those workplace visas are 
relatively high, which means that it is much easier to go to 
the black market or the gray market around the corner, hire 
some guy off the street. If workplace visas were made more 
flexible and accessible so that smaller companies could take 
advantage of them, I think that would be a huge benefit.
    In particular, with regard to the border region, I would 
like to point out that we have a category called the B-1 visa 
and iterations on that B-1 visa which allow border residents 
from Baja, California, and other border States in Mexico to 
cross over for the purposes of shopping and for visits with 
family, et cetera. They are not allowed to work. But the 
reality is that you have large numbers of people crossing the 
border with their B-1 visa and soliciting employment in the 
informal sector. In my mind, it would make much more sense and 
would greatly facilitate the border economy as a whole to 
actually make those B-1 visas also eligible for temporary labor 
in those border communities.
    Chairman Carper. OK. Good.
    Third question, and this, I am going to start with you, Mr. 
Alden, if we could, and ask our other two witnesses to respond, 
as well. But the third question is where are the 
vulnerabilities for increased illegal migration the largest? At 
the ports of entry? Between the ports? Or through visa 
overstays? Mr. Alden.
    Mr. Alden. I would say--I would agree with Doris on visa 
overstay. Let me start there. I think that is likely to become 
a bigger vulnerability in the future. I think we have good 
tools to deal with it. We have a reasonably functioning 
biometric entry and biographic exit system. The Department of 
Homeland Security knows pretty accurately on a country-by-
country basis how many people are overstaying. They, 
unfortunately, have not yet shared that information with the 
Congress, which is important. In fact, if you want to revise 
the Visa Waiver Program, which is a kind of separate issue, you 
need that data.
    We do not do simple things with visa holders advocated in a 
paper I wrote with an immigration attorney, Liam Schwartz, last 
year. We should send e-mail notifications. If you are here on a 
visa and your visa is going to expire, there should be an e-
mail notification from the U.S. Government 30 days or 15 days 
or whatever before your visa is going to expire warning you 
that you need to make arrangements to go home or to renew your 
visa to remain lawfully. There is a lot of social science 
evidence that people tend to obey the law when they think 
somebody is watching. We do nothing as a Government to let 
people know we actually expect them to abide by the terms of 
their visa. Easy stuff that we do not do on that front.
    Chairman Carper. Do you have research that indicates 
whether or not these folks that are here illegally or overstay 
their welcome, that they ever text?
    Mr. Alden. Whether they what? Sorry.
    Chairman Carper. Use texting.
    Mr. Alden. Are they---- [Laughter.]
    Chairman Carper. We have a great program called Text for 
Baby that Johnson and Johnson helped us develop. This is an 
aside, but I will just mention it to you. And a lot of mothers, 
young mothers included, who do not in some cases have all the 
information, the knowledge about how to raise a little baby and 
get them started in this world, we have a new program called 
Text for Baby and we can text a new mom every day or whenever 
their kids are due for a check-up or immunizations, all kinds 
of stuff. It seems to work. It is cost effective. We call it 
Text for Baby. I mean, we could have Text for----
    Mr. Alden. Text for Visas.
    Ms. Meissner. Text for Going Home.
    Mr. Alden. It is just, like, easy, simple stuff that we 
should be doing.
    Chairman Carper. Right.
    Mr. Alden. Ports of entry, I think, are a bigger 
vulnerability than we recognize. If you look at the migrant 
survey data, it suggests that anywhere between about 10 and 25 
percent of people say they actually got into the United States 
through the ports of entry. I think we are underestimating the 
vulnerability there.
    There is also a really good commercial argument. I mean, if 
you are improving staffing and efficiency at the ports of 
entry, you get a two-fer. You get better security, so you are 
identifying and apprehending more people that are trying to 
come illegally or trying to smuggle drugs. But you also get 
greater efficiency, because, generally, the ports are 
understaffed, at least the busiest ones. We have these long 
lines.
    So unlike increases in the number of Border Patrol, where, 
really, the only purpose it serves is to stop illegal activity, 
at the ports, you get both stopping illegal activity and 
facilitating legal activity. So I think a deeper analysis of 
that would show that money is better spent at the ports of 
entry than it would be on additional enforcement between the 
ports of entry.
    Chairman Carper. Thank you. Dr. Shirk.
    Mr. Shirk. I will just build on that point about the ports 
of entry. One of the reasons why you see such a significant 
proportion of migrants crossing through the ports of entry has 
to do with the fact that they frequently resort to using false 
IDs or IDs falsely, and that problem, I think, would be 
alleviated if we expanded the use of Trusted Traveler 
initiatives at ports of entry.
    In the San Diego-Tijuana region, we estimate that somewhere 
around 40,000 to 60,000 of people who are crossing at the ports 
of entry do so on a daily basis. They come up for their own 
purposes and they go back home across to Tijuana on a daily 
basis. That means that the new faces at the border and the 
scrutiny that is needed should really be focused on the folks 
who are coming maybe for the first time, who are often in the 
situation of maybe they are using some false ID that was 
provided to them by a migrant smuggler. And so expanding and 
encouraging greater use of Trusted Traveler programs at the 
ports of entry, I think, would be a way of getting at that 
problem.
    But on visa--sorry. I do think that the overstays is the 
main area, the one, as Doris said, that we have the greatest 
purchase to gain in terms of trying to find ways of limiting 
opportunities and preventing people from falling into the trap 
of overstay. Tracking incoming and outgoing people on a more 
regular and effective basis would, I think, do a lot to address 
that problem.
    Chairman Carper. OK. Doris, do you want to share a thought 
or two on this question?
    Ms. Meissner. I mean, my vote goes for the POEs, as well. I 
am very concerned about the ports of entry, and we talk about 
that a great deal in this report that we did a little while 
ago.
    And, really, the ports of entry on the land border--the air 
ports of entry are working reasonably well. The U.S. Visitor 
Immigrant Status Indicator Technology (VISIT) Program and the 
IDENT Program is fully deployed in airports and that has been 
an enormous advance since 9/11.
    But the land ports of entry just deal with these enormous 
volumes of people, the vast majority of which are properly 
coming in and out of the country. So, I mean, arguably, they 
have the most difficult job, because they are dealing with the 
full range of reasons that people are coming, whereas anybody 
that the Border Patrol sees is doing something wrong, by 
definition. It may be really wrong, like a drug smuggler. It 
may be less threatening if it is purely somebody coming across 
illegally. But the ports of entry are much tougher.
    So that is a major infrastructure job from the start, 
because you need to have space to handle these volumes of 
people that are coming in, largely for the right reasons. And 
that is a multi-year buildup. It is, I believe, money that 
would need to go to the General Services Administration (GSA), 
not to any of the immigration agencies. So you have a whole 
different set of players and planning and execution that needs 
to be put into place.
    But, I would also say, in the way that David points out 
when we started really working on the border in 1994, it was a 
very different place physically from what it is now. I mean, 
tons and tons of earth has been moved and lots and lots of 
brush has been cleared, and roads have been built, et cetera. 
So you have to just start at some point. And this 
infrastructure improvement, particularly on the Southwest 
border with Mexico, is essential to our economic future. It is 
not only an enforcement issue. It is an economic issue for the 
country, the United States, for Mexico, for the region. And if 
we begin down that path, we will do much, much better on 
enforcement because we have the technology. We just cannot 
deploy the technology.
    Chairman Carper. Good. Thank you.
    A couple more questions and we are going to start a vote 
and send you on your way.
    One of the goals of this hearing is to discuss what more 
needs to be done to secure our borders. Obviously, we are 
making progress. What more can be done? You all mentioned in 
your testimony we invest heavily in securing the border between 
the ports of entry. I said that in my opening statement.
    During my trip to Arizona with Senator McCain and 
Congressman McCaul and Secretary Napolitano, I heard a number 
of frontline agents say that what they really need is more 
technology and more air support. I talked about some of that 
earlier. They also said that the ports of entry really need our 
attention and our help, and I heard some of you say that here 
this morning, as well.
    So my question for each of you is this. Let us drill down 
on this a little bit. What more do you think we need to do 
along our borders? A simple question, probably not a simple 
answer. But what more do you think we need to do along our 
borders? Doris, would you like to go first?
    Ms. Meissner. Well, let me start with talking about the 
technology. I do not know myself what additional technology we 
need. But I do know, based on a lot of experience, that I place 
a high value on what the Border Patrol itself says it needs in 
technology. I think the Border Patrol has become very savvy 
about its understanding of how to use technology. I do think 
that they need outside encouragement, let us say, on some of 
the issues that we have talked about, where metrics 
measurement, et cetera, are concerned.
    But where the kind of technology that works for them is 
concerned, I would put a great deal of faith in what they say, 
particularly because they know the nature of the environment in 
which they are working. You talked about it in terms of the 
times the drones can and cannot be used, the weather 
conditions, the temperature, the winds. All of these sorts of 
things are reality that is difficult to put into the equation 
from the outside, but they know those realities.
    So the technology issues, I think, are always going to be 
there and we need to always be improving and investing in them.
    Beyond that, where the ports of entry are concerned, and to 
add to our earlier discussion and my earlier comments, the 
ports of entry also need to be far more rigorous in their 
management of what it is that they do. They are very 
individualistic, port to port, in the definitions that they use 
for their enforcement actions. They do not have nearly the kind 
of data gathering intensity that is the case with the Border 
Patrol. So on the ports of entry, it is not only an issue of 
their infrastructure. It is also an issue of their operations 
and their data gathering, which really do need to be more 
sophisticated and have a much better sense of standard norms 
and discipline.
    Chairman Carper. Thanks. Mr. Alden.
    Mr. Alden. This is one of those questions that I am a 
little reluctant to weigh in on because I cannot pretend to 
know more than the Border Patrol does about what technology 
will be effective in that environment.
    And I do think if you look over the history of legislation 
in the past, there is a tendency for Congress to micromanage at 
that level. I mean, it seems to me the right role is to say, we 
expect you to be able to carry out your law enforcement 
mission. We want the arrows to be moving in the right 
direction. We want to measure what is happening. We need you to 
tell us what you need to perform that mission, and then we as a 
Congress need to decide what we are willing to pay for it, I 
mean, how much are incremental improvements in apprehension 
rates or in reducing illegal--how much is that worth to us as a 
country?
    I think that is the right sort of discussion for Congress 
to be having, and obviously, you need to listen and the 
Administration needs to listen to what the needs of the agency 
are. But I really think the focus should be on results more 
than on inputs, and then let the experts, the guys who work in 
that region on the ground--and the girls, the people who are on 
the front line decide.
    Chairman Carper. Hold it right there. That is a great 
answer. Thank you. Dr. Shirk.
    Mr. Shirk. I would simply say that I think the more we can 
help the Border Patrol and Customs to focus on the harms rather 
than the known harmless, the more they will be effective.
    Chairman Carper. Say that again.
    Mr. Shirk. The more we help them to focus on the harms than 
the harmless, in other words, the large numbers of people who 
are crossing legally, for example, and who cross on a regular 
basis, we know--we see them every day. In many cases, the folks 
that I live with in my community say, yes, I see the same 
Border Patrol agent every day, but I have to go through the 
same 2-hour line or 3-hour line every morning to get across the 
border to come shop or study, et cetera, in San Diego. So 
helping to move those people through more efficiently will 
allow the Border Patrol and Customs to focus on those less-
familiar faces that need a second look.
    And so if I had an extra billion dollars to throw at this 
problem, I think I would first focus on alleviating legitimate 
flows by expanding the use of Trusted Travelers programs.
    Chairman Carper. Good. Thanks.
    During the recent trip I talked about earlier, we met with 
several Mayors from towns at or near the borders who said that 
their communities are being hurt by incorrect perceptions of 
the border. They say people hear about drug-related violence in 
Mexico and assume it is permeating nearby towns on the U.S. 
side. In fact, crime statistics show that those U.S. 
communities are among the safest in the country. It is a great 
irony, is it not?
    On the other side, we met with some ranchers who had a very 
different story to tell, and Senator McCain was there with us 
and he has met with them, I know, many times before. But they 
feel, understandably, still feel threatened by cross-border 
smuggling. Not all, but a number of them do.
    How can we assess the safety of communities near the 
Southwest border? And that would include the communities where 
people have the nice big ranches, hundreds of acres, thousands 
of acres, and those are some of the folks that say they still 
do not feel safe. Not everybody, but a number of them do not. 
How can we assess the safety of communities like--including 
those near the Southwest border? Mr. Alden.
    Mr. Alden. I am going to defer to Dr. Shirk on some of this 
because of his experience in the region. I do not think some of 
the metrics help you get at that. I mean, there are going to be 
particular places along the border where you have property 
owned by Americans and they feel under siege because their 
property has become an entry route for smuggling of drugs or of 
unauthorized migrants.
    I think that has to be dealt with locally. There has to be 
close cooperation between the Border Patrol and those 
individuals to try to address those problems. I do not think 
any of the really big picture stuff that we are talking about 
here today helps you solve that problem.
    The perception problem, I agree. I mean, I have spent a lot 
of time in the cities along the border. Those are very safe 
places. I have never felt nervous. I think the residents of 
those places do not feel nervous. I think that is a push back 
on the perception issue, and I know Secretary Napolitano talks 
about this a lot. I think that is important.
    But, you know, there is no perfect solution here. You are 
always going to have places where people feel vulnerable, that 
are preferred routes for whatever reason, and I think those 
need to be dealt with seriously but on a local basis. It is not 
a 30,000-foot view.
    Chairman Carper. OK. Thank you. Dr. Shirk.
    Mr. Shirk. Three of my graduate students--Marisol Martinez, 
Sara Nettleton, and Jamie Lenio--worked with me on a project 
funded by CRS to assess the problem of spillover violence a 
couple of years ago, and what we found--one of the things that 
we found is that, actually, the further you get away from the 
border, the less safe you are because of the very low crime 
rates we see in U.S. border cities. You are almost three times 
as likely to be murdered if you go away from the border toward 
any of the other top 300 largest cities in the United States.
    But I think one problem with dealing with some of those 
specific experiences of the ranchers and other folks that live 
along the border and do have to deal with very real problems 
and fears is that how we have discussed and measured spillover 
violence is not very intellectually honest. The official agency 
definitions for spillover violence that are used by the U.S. 
Government do not count drug trafficking organization (DTO)-on-
drug trafficking organization violence. So if there is a 
shootout between two drug traffickers in the San Diego Mall, 
that would not count as spillover violence as long as they did 
not hit an innocent civilian.
    So I think that we need to think carefully about what kinds 
of problems we are actually seeing. But the net data and what 
we have available through Uniform Crime Report (UCR) crime data 
suggests that border communities really are quite safe.
    The one metric on which I would like to see more data or be 
able to try to get at the problem a little bit better is 
kidnapping, which is not something that is measured in a 
uniform way throughout the United States and by the FBI. So 
that is an area where we could really do a better job of 
assessing some of the problems in Senator McCain's state.
    Chairman Carper. OK. Thank you. Doris.
    Ms. Meissner. I do not really have anything to add. I would 
subscribe to what Ted said about these being largely local 
issues. And I know that is not comforting to the people that 
are experiencing them, but I also do know that the Border 
Patrol has a very strong history and can work effectively 
locally, particularly with the kind of staffing it now has, on 
addressing some of those issues. So I think that we just have 
to recognize that, at the end of the day, this will always be 
imperfect, but the overall picture that has been painted here 
is the prevailing condition of the border. And it is a far cry 
from what it used to be.
    Chairman Carper. Well, we are just about at the finish line 
here. It has been illuminating and timely and helpful.
    When Senator McCain was here, he mentioned the OTMs, the 
other than Mexican folks who are trying to come to this country 
illegally. We are seeing, actually, I think, some encouraging 
developments in Mexico. Their economy continues to strengthen. 
They have a growing middle class. I think the leadership of the 
country is trying to do their best to quash the illegal drug 
cartels and to just restore the kind of safety in their own 
country and kind of lawful order that you would hope for in 
every country.
    One of the folks that we talked to down on the border in 
Arizona was one of the Mayors or sheriffs. He talked about a 
balloon. You squeeze it in one place and it pops out in 
another, and I think we may be seeing some of that with respect 
to the countries to the South of Mexico.
    But one of those countries is Colombia, way down South, and 
that was a country that a lot of people were ready to give up 
on 20 years ago. I heard a lot of people call it a failed 
nation, or very close to that. I think it was Colombia where, I 
do not know, 25 years ago, some criminals rounded up, I think, 
most of the Supreme Court, took them into a room, and killed 
them all, about 11 of them. If that is not a failed nation or 
close to it, I do not know what is.
    Colombia is a changed country today and it is a much safer 
country and a much more profitable and prosperous country 
today. And I think we are seeing some encouraging turn-around 
in Mexico, as well. There are a bunch of countries in between 
Mexico and Colombia, particularly just South of Mexico, that I 
think may need our help, not just in terms of law enforcement 
help, but just help to strengthen their economies so that their 
folks will want to stay there and work there and not feel the 
need to leave, and also to try to, as best we can from a 
distance, to promote more vibrant democracies and civil 
liberties.
    The other thing I want to mention is improvements in--we 
talked about force multipliers and we talked about being able 
to fully resource the drones and have better intelligence 
packages and sensor packages on the blimps or the dirigibles or 
the aerostats we use and have better radar on the ground in 
parts of the Arizona border and all. Those are all important, 
but also to continue to improve the intelligence that we are 
getting from Mexico and from other countries to the South of 
Mexico that will enable us to better deploy our resources is 
important.
    I am told by pretty knowledgeable people that we are better 
at that than we used to be and those countries are better at it 
than they used to be, as well. And the question is, can we do 
better? Sure, we could do better, and we need to do better in 
all these things that we are talking about.
    When I leave a hearing like this, I always take some take-
aways with me, and some of the best take-aways I get are right 
at the end of the hearing when I ask--you give an opening 
statement. Witnesses are always asked to give an opening 
statement. I usually like to ask my witnesses to give a closing 
statement, and especially in this case. I always look for 
consensus on difficult issues, and I think we have a fair 
amount of consensus with this panel.
    But just maybe give us a minute, about a minute take-away. 
You can reiterate or reemphasize, underline some of the things 
that you have said or heard, maybe something you have learned 
or that has been reinforced for you.
    But, Dr. Shirk, I will start with you. Give us sort of like 
a mini-benediction here, something to take home with us from 
church.
    Mr. Shirk. Well, I would simply reiterate, I think as the 
discussion has unfolded about immigration, there has been some 
talk about making border enforcement, border security, a 
precondition for immigration reform. And I want to caution 
against that, because as we have said multiple times during the 
hearing, it may be that reducing the pressure on the border by 
allowing for an expanded flow of legal migrants into the 
country by reforming our immigration system would actually make 
it easier for the Border Patrol to do their job and make us 
safer along the border.
    A couple of other very quick comments in response to what 
you just said. I mean, Colombia is much safer today, but it 
does still have a homicide rate that is 50 percent higher than 
Mexico's and the most internal refugees of any other country 
outside of Sudan. So one of the things I worry about for Mexico 
is that the legacy of the violence that we have seen in recent 
years will continue and we need to be alert to that problem.
    And to the extent that the situation in Mexico appears to 
be stabilizing, we need to be careful about how we interpret 
what is happening. It is not clear that less violence 
necessarily means more law enforcement, and the possibility 
that the drug cartels and drug markets are stabilizing under a 
new equilibrium could mean we will have continued challenges as 
we address the drug problem between our two countries in the 
future.
    Chairman Carper. Thank you. Mr. Alden.
    Mr. Alden. Thank you. I just have three concluding 
thoughts. One, I think that there is absolutely no question 
that border enforcement in all its facets is vastly better, 
vastly stronger, than it was 5 years ago, 10 years ago, 20 
years ago. No question, we have seen big improvement there. So 
I think that has to be the starting point.
    My second point would be effective border enforcement, 
border security, does not mean 100 percent. We are not going to 
stop everybody who wants to get in illegally. We are a big 
country. The great historical example here that, again, Bryan 
Roberts dug up, you can calculate roughly an apprehension rate 
for the cold war border between East Germany and West Germany. 
So this was a border with roughly----
    Chairman Carper. Say that again. Say that sentence again.
    Mr. Alden. The cold war border between East Germany and 
West Germany----
    Chairman Carper. OK.
    Mr. Alden [continuing]. This was a border with roughly 
three times the staffing we have on our border now, shoot to 
kill orders, barbed war, no man's land, floodlights. The 
apprehension rate on that border, roughly 95 percent. About a 
thousand people a year still managed to get across that border 
to freedom in the West.
    So if people are really determined to cross borders, you 
are not going to be able to stop them entirely. So we have to 
be realistic in what our goals are. Absolutely, we can do 
better. But perfection cannot be the goal here.
    And then the final point I would make is that I do not 
believe we are going to see the sort of big resurgence in 
unauthorized migration that we saw in the 1980s and the 1990s. 
The demographics do not lean that way. The economics do not 
lean that way. But we as a country are going to need to be 
serious in an ongoing way about managing the problem of illegal 
migration.
    There is going to be pressure going forward. There are 
always going to be people in the world wanting to come here. 
And we just were not serious about that as a country in the 
1980s and until well into the 1990s. And so that means 
seriousness about enforcement and real legal options for people 
to come to take the pressure off of the Border Patrol and other 
people who are aiming to keep people from coming illegally. So 
this is an ongoing issue we are going to have to deal with as a 
Nation.
    Chairman Carper. That was a very nice summary. That was a 
good benediction. Two of them, in fact.
    All right, Doris. The pressure is on.
    Ms. Meissner. The pressure is on.
    Chairman Carper. They are tough acts to follow.
    Ms. Meissner. I think where the Southwest border is 
concerned--all of our borders, but the focus is always on the 
Southwest border in this debate--we simply have to recognize 
that this is a very dynamic place and it will be so into the 
foreseeable future. So we cannot be complacent about what we 
have achieved. But at the same time, we have a very strong new 
reality, and set of improvements on which to build.
    And so recognizing that it is always going to be dynamic, 
we will have to react in different ways. We will have to be 
measuring, be adjusting our operations in response, et cetera, 
et cetera. That has to be a given. But at the end of the day, 
right now, that ability to enforce the laws on the Southwest 
border--as well as border enforcement more generally--would be 
most fully strengthened by taking some of the other steps in 
the immigration reform debate that are now on the table. This 
includes better employer enforcement, a better way of bringing 
people into the country legally, and dealing with the illegal 
status of the unauthorized population that is in the country 
right now. All of these things would contribute importantly to 
improved border enforcement. We are asking border enforcement 
to do more today than it is equipped to do, even if it were 
perfect, and it will not be perfect.
    So we have to recognize that enforcement deals with 
symptoms. We have to go more fully to the real causes of 
illegal immigration and align our laws with our economic 
reality, with our future needs, and then continue to have a 
strong enforcement presence and be committed to adjusting that 
as we go.
    Chairman Carper. Well, I asked for a benediction, so I 
should probably offer an amen. Last year, we did a lot of 
political advertisements, and you would hear at the end of each 
of the ads, you would hear someone say, ``I approve this 
message.'' And we have three good closing messages there and I 
approve them all.
    Thank you. This has been a great hearing and we appreciate 
your preparation and your years of work in this area and your 
efforts today to try to better inform us on our decisionmaking. 
It is just enormously helpful and we are grateful. Nice to see 
you all. Thanks so much.
    The hearing record will remain open for 15 days for the 
submission of statements and questions for the record.
    And with that, this hearing is adjourned and we are going 
to go vote. Thank you.
    [Whereupon, at 11:45 a.m., the Committee was adjourned.]






                            A P P E N D I X

                              ----------                              




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                       BORDER SECURITY: FRONTLINE


           PERSPECTIVES ON PROGRESS AND REMAINING CHALLENGES

                              ----------                              


                       WEDNESDAY, APRIL 10, 2013

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:34 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, presiding.
    Present: Senators Carper, Levin, Landrieu, Baldwin, Tester, 
Coburn, McCain, Johnson, and Ayotte.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. Well, I have three glasses of water here 
set up before me. Somebody must think this is going to be a 
long hearing, or at least that I am going to need a lot of 
nourishment.
    But I just want to bring us to order. It is not a very 
unruly group, but we are grateful for your presence here and 
thanks for your willingness to testify and to respond to the 
questions we have.
    Dr. Coburn and I had a breakfast meeting with Secretary 
Napolitano. He had to run over to the House for a little bit 
for a meeting over there and he will be joining us probably 
during the course of your testimonies.
    I think this is the second in a series of hearings that our 
Committee is holding to review the progress that has been made 
in securing our borders and to identify what challenges remain 
to be addressed.
    Normally, I go home at night to Delaware. I stayed down to 
have a meeting last night and an early breakfast meeting this 
morning, as I mentioned, and so I stayed down last night. I 
like to start most of my days by working out. Usually, it is in 
the YMCA back home or I run back in Delaware before I catch the 
train, but this morning, I stopped off at the Senate gym, the 
little Senate gym that we have. It seems like most of the 
Senators that have been working on immigration reform were 
there and trying to figure out, are our borders more secure and 
how do we measure that.
    So today's hearing is probably even more germane than you 
think. It is something we talked about a lot over breakfast 
this morning with the Secretary and Dr. Coburn, as well.
    In the last 2 months, I have had the real privilege of 
visiting with some of our frontline border security personnel. 
Most recently along our Northern borders--it turns out I am a 
huge Detroit Tigers fan, and for no really good reason, but to 
be in Detroit during the first week of baseball season--and to 
spend some time with Senator Levin up along the water border 
with Canada, which, as you know, is enormous. But I was 
privileged to go with Senator McCain down along the border 
between Arizona and Mexico and to spend some time down there 
with Congressman McCaul and Secretary Napolitano.
    And during my trip to Arizona in February, I saw a border 
that appears to me to be--and to a lot of other people--more 
secure than it has ever been, or has been in a long time--by 
any measure that we have available to us at this moment. In 
addition, I spoke with, along with Senator McCain, a bunch of 
his local mayors and law enforcement officers who told me that 
the crime rates in their communities were at the lowest level 
in decades and were continuing to decline.
    I saw parts of the border that were overrun with 
unauthorized immigration as recently as 2006, when the Border 
Patrol agents I met with told me they used to arrest more than 
1,000 people every single today. And today, those agents tell 
me that they have a busy day if they arrest even 50 people. 
That is a remarkable development and clearly a significant 
change for the better. It is also consistent with the dramatic 
reductions that we see nationwide, in the United States, of 
people trying to cross our borders illegally, which have 
reached their lowest level since the early 1970s.
    I also saw advanced surveillance technology, such as the 
cameras and radars that we are deploying to serve as force 
multipliers for our folks on the ground. The men and women I 
spoke with told me that these technologies help them quickly 
pinpoint where people are trying to cross the border illegally 
so that their agents can be deployed in time to make an arrest 
or turn them back.
    We heard about a remarkable new radar being tested on a 
drone called the VADER, that is providing the Border Patrol 
with an unprecedented view of the people coming across the 
border. Another new radar system being tested allows agents to 
detect physical changes to the ground, such as footsteps, to 
identify where illegal traffic is heading.
    And while some of these technologies are expensive, I also 
saw an inexpensive and versatile aircraft called a C-206, a 
small plane, which is easy to fly and maintain. It can be used 
to provide an efficient surveillance platform for agents on the 
ground. We also heard about inexpensive blimps or dirigibles 
that can be deployed to help agents detect illegal activities.
    What I have seen gives me great hope that we have made 
tangible and measurable gains in securing our Nation's borders 
over the past decade and have a good sense of what we need to 
do to build on that progress. We have to rely on intelligence 
and advanced technology, to identify when and where the threats 
are crossing our borders and to empower the frontline officers 
on the ground.
    Despite the gains that we have made, we still face 
significant challenges. First is the fact that arrests cannot 
be the only metric available to measure the performance of our 
efforts at the border. Without knowing how many people are 
actually trying to cross the border, we will never know how 
effective our efforts truly are to date. That is a hard thing 
to come up with; is it not?
    Our witnesses at the Committee's first border security 
hearing, while noting the significant progress that has been 
made over the years in securing our borders, also pointed out 
the Department of Homeland Security (DHS) keeps a variety of 
internal statistics on illegal activities at and between the 
ports of entry that it does not make public. I just do not 
think that is acceptable.
    It is critical that the Department of Homeland Security do 
a better job of educating the public and Congress on how it 
measures its effectiveness at the borders, and it must include 
estimates for the number of people trying to cross the border 
without proper documentation.
    Another one of the challenges that most concerns me is the 
growing sophistication of the smuggling networks operating 
along our borders, particularly with respect to illegal drugs. 
Drug cartels are using tunnels, ultralight aircraft, and even 
submarines to avoid detection along our borders and along our 
coasts. They place spotters on the tops of our mountains to 
help them avoid law enforcement. On top of our mountains. It 
blows my mind. I have said this to Senator McCain--that we have 
these folks out there sitting on our mountains, on our 
mountaintops, and we somehow are unable to take them out. If 
they are sitting on a mountaintop in Iraq, I think we would 
have taken them out. And one of the things we can talk about 
here today is our inability to replicate that kind of success 
here.
    There are troubling links between organized crime in Mexico 
and terrorist groups overseas.
    In order to meet these new challenges and to continue to 
improve our security efforts, we have to evolve our approach to 
securing our borders. We have to become smarter in how we 
deploy our limited resources and focus on deploying these force 
multipliers that we witnessed in Arizona.
    In addition, it is important to note that while most of the 
security debate is focused on the issues between our ports of 
entry, much of the illegal traffic comes through our actual 
ports. Since 
9/11, we have made tremendous improvements in screening people 
who are attempting to enter our country. Today, all travelers 
must present a secure ID at the border. They are automatically 
screened against all of our government's law enforcement, 
immigration, and terrorism databases in order to ensure that 
dangerous people are not allowed to enter our country.
    But we continue to be faced with significant infrastructure 
challenges. After declining after 9/11, travel and trade have 
ramped up in recent years, and that is a good thing. 
International arrivals to the United States have been 
increasing by some 6 percent a year over the past several 
years. But staffing at our air, land, and sea ports has not 
kept up. Our ports of entry need to be modernized, and staffed 
appropriately, to keep pace with these increases in travel and 
trade that we are seeing, which is encouraging.
    We also need to make our ports of entry work more 
efficiently, so we can focus our inspections on potential 
threats rather than on legitimate travelers. This includes 
expanding trusted traveler membership, creating public-private 
partnerships, and working with the public to better identify 
wrong-doers. It could also include modernizing our fee so that 
importers and travelers are fully paying for the costs of 
inspecting travelers and goods. We expect to hear from the 
Administration later this morning on that subject when the 
President's budget is released.
    Last, as organized crime continues to evolve and become 
more sophisticated, we need our criminal investigators to do 
the same. We must continue to focus our efforts working in 
integrated multi-agency teams, such as the Border Enforcement 
Security Task Forces. These task forces allow investigators to 
collaborate across agency lines, sharing information about 
known and suspected smugglers in order to generate intelligence 
about their operations that can be used to attack criminal 
networks.
    There is no doubt that we have more work to do, but I 
believe that any honest assessment of where things stand today 
will conclude that we have made tremendous gains in securing 
our border over the past decade. As the Senate begins to 
consider comprehensive immigration reform this month, I believe 
that the conversation will be different from the ones we had in 
2006. In 2006, the perception that the border was out of 
control was grounded in historically high rates of illegal 
immigration. Today, illegal immigration is at historic lows, 
and as I have seen firsthand in Arizona, more recently in 
Michigan this last week, and in California a couple of years 
ago, the unprecedented taxpayer-funded investments that we have 
made to secure our borders are working.
    In fact, yesterday, I met with the former Commissioner of 
Customs and Border Protection, Alan Bersin, and he told me 
that, in his views, the increase in border security has been 
one of the greatest bipartisan accomplishments over the past 25 
years because it has spanned three Administrations, Presidents 
from both parties, and has had strong support from members, 
both Democrat and Republican. And frankly, I agree with him.
    I support the efforts to modernize our immigration laws. I 
applaud the efforts, particularly of Senator McCain and others 
that he is working with, to make the United States more 
competitive and more secure in the 21st Century. I look forward 
to working with my colleagues to ensure that any additional 
investments made to continue to secure our borders are targeted 
to the kinds of force multipliers that are proven to be 
effective, and that represent good investment.
    Normally, I would turn it over to Dr. Coburn, who, as I 
said earlier, is over in the House meeting with some folks. He 
will be here shortly. Normally, I do not turn to other Members 
of the Committee to make opening statements. We have a couple 
of key players here, and Senator McCain spent a whole lot of 
time, to good effect, working with seven of our colleagues to 
try to find a path forward on immigration reform. He was good 
enough to take me down along the border. John, if there is 
something you would like to say before, I maybe ask the 
Chairman of our appropriations Subcommittee who is here today? 
John, please feel free to go ahead.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you, Mr. Chairman. I think your 
opening statement covered the issue. I welcome the witnesses 
and I look forward to some interesting comments and testimony 
on this issue. It comes at a very opportune time, as we are 
hopefully concluding our negotiations.
    And I want to thank you, Mr. Chairman, for taking the time 
from your schedule to come and visit our border and the people 
who live there. I know all of us are appreciative of your 
continued intense interest in this issue.
    Chairman Carper. Happy to be your partner.
    Senator Landrieu, anything you would like to add? Please.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Yes. Mr. Chairman, again, thank you for 
taking the leadership to do this very important overview as we 
enter into one of the most important debates for our Nation. 
And I really particularly want to underscore the importance of 
understanding the financial requirements that will be behind 
such an important undertaking.
    We have in the last 10 years almost tripled from--well, 
more than tripled, from $1 billion to $3.5 billion, the 
resources going in to protect the borders of Arizona, 
California, Texas, I mean, borders of our country, but really 
impacting these States primarily along the Mexican border. I am 
sure that we can find some resources to do more, but Mr. 
Chairman, it has been a real push in our budget to actually 
fund the outline of what this Committee and others put forward. 
So it is going to be a real challenge for us in these very 
tough times, so I just wanted to let people know we are doing 
the best we can in a $42 billion budget, but there are lots of 
pulls and pushes on the Homeland Security budget right now.
    Thank you.
    Chairman Carper. Thank you, Madam Chairman.
    I think we are lucky that Senator Landrieu serves on this 
Committee and also is the principal appropriator. It has the 
potential for a great partnership and I think this potential is 
going to be fully realized, and one that we all can be part of, 
as well.
    I want to say good morning to Senator Tester. How are you, 
Jon.
    Senator Tester. Very well.
    Chairman Carper. Nice to see you, partner.
    I am going to go through just a brief introduction of our 
witnesses. I am going to stumble on the first last name. Is it 
McAleenan? How do you pronounce it?
    Mr. McAleenan. That is perfect, Chairman.
    Chairman Carper. All right. It is not often I am perfect.
    Our first witness is Kevin McAleenan, Acting Deputy 
Commissioner of U.S. Customs and Border Protection (CBP). In 
this capacity, the Deputy Commissioner is the chief operating 
official of Customs and Border Protection. He looks pretty 
young to have that kind of responsibility. Previously, Mr. 
McAleenan served as the Acting Assistant Commissioner of CBP's 
Office of Field Operations, leading the agency's port security 
and facilitation operations. Welcome.
    Our second witness is Michael Fisher. Mr. Fisher is the 
Chief of the U.S. Border Patrol, and in this position, Chief 
Fisher has responsibility for planning, coordinating, and 
directing enforcement efforts to secure our Nation's borders. 
Prior to his current position, Chief Fisher served in a number 
of leadership positions within the Border Patrol. Chief Fisher 
joined the Border Patrol as a child, in 1987.
    Our third witness is Randolph Alles? How is it pronounced?
    Mr. Alles. Yes, sir. Close enough.
    Chairman Carper. OK. Assistant Commissioner for U.S. 
Customs and Border Protection, Office of Air and Marine. Mr. 
Alles--do you really pronounce it that way? How do you really 
pronounce it?
    Mr. Alles. ``Alles,'' if you want to be really technical.
    Chairman Carper. ``Alles''?
    Mr. Alles. ``Alles,'' long A.
    Chairman Carper. OK. Good. Thank you. Mr. Alles joined the 
Office of Air and Marine as the Deputy Assistant Commissioner 
in March 2012. And before joining CBP, Mr. Alles served in the 
U.S. Marine Corps for 35 years, retiring in 2011 as a Major 
General. Semper Fi. Ready to go. As we say in the Navy, Bravo 
Zulu.
    Mr. Alles was designated as a naval aviator in 1978 and 
attained more than 5,000 flight hours--that is pretty 
impressive, John--more than 5,000 flight hours in multiple 
aircraft types. What kind of aircraft?
    Mr. Alles. A-4, F-18, F-4, sir.
    Chairman Carper. All right. Including over 300 combat 
hours. Did you serve in Southeast Asia?
    Mr. Alles. No, sir. Before my time. Iraq.
    Chairman Carper. OK. Thank you. Thanks for all that 
service, too.
    Our final witness is James A. Dinkins, Executive Associate 
Director of Homeland Security Investigations for the U.S. 
Immigration and Customs Enforcement (ICE). As the Director, Mr. 
Dinkins has direct oversight of ICE's investigative and 
enforcement initiatives and operations. Prior to assuming his 
current position, Mr. Dinkins held a number of key leadership 
positions within ICE, including Special Agent in Charge for 
Washington, D.C. and Baltimore. Mr. Dinkins began his law 
enforcement career with the U.S. Customs Service in 1986.
    Your entire statements will be made part of the record. 
Feel free to summarize. I will ask you to keep your statements 
to about 7 minutes, and if you go beyond that, I may have to 
rein you in. Your full statements will be made part of the 
record and once we finish, we will do some questions. We are 
delighted that you are here, grateful for your service, 
encouraged by the progress that is being made. Now, we can 
always do better, and part of our job is to help you and the 
folks that you lead to do better. Welcome. Please proceed.

TESTIMONY OF KEVIN K. MCALEENAN,\1\ ACTING DEPUTY COMMISSIONER, 
U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. McAleenan. Thank you, and good morning, Chairman Carper 
and distinguished Members of the Committee. Thank you for the 
opportunity to be here today to discuss these important issues 
with you. We appreciate the Committee's leadership and 
commitment to ensuring the security of the American people and 
look forward to discussing some of the progress we have made 
that you outlined in securing the border, how we measure that 
progress, and the key areas we need to continue to address.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McAleenan appears in the Appendix 
on page 176.
---------------------------------------------------------------------------
    I am representing CBP's Office of Field Operations today, 
and we carry out our border security activities in all 50 
States and 330 ports of entry and globally at 70 locations in 
40 countries abroad. Our priority mission is preventing 
terrorists and terrorist weapons from entering the country, 
while we also interdict inadmissible persons, illicit drugs, 
agricultural pests and animal diseases, unsafe imports, and 
goods that violate trade laws.
    At our ports of entry, security is defined not only by our 
ability to prevent dangerous goods and people from entering the 
country, but also how well we support economic security through 
the expeditious movement of travelers and cargo. In other 
words, at our ports of entry, a secure border is a well managed 
border where mission risks are effectively identified and 
addressed and legitimate trade and travel is expedited.
    With this Committee's support, CBP is more capable than 
ever before, but we remain committed to continuous improvement 
and we strive to develop programs and operations to make our 
border security efforts increasingly effective. As part of 
that, the process of measuring and addressing our progress is a 
constant focus.
    CBP uses a number of different types of metrics to assess 
our performance in managing our security risk and facilitation 
responsibilities. These metrics are both qualitative and 
quantitative, include both effectiveness and efficiency 
measures, and are assessed at the national, programmatic, 
regional, and port levels. We use these key indicators to 
assess our performance and evaluate trends and developments 
over time.
    It is important to emphasize that there is no single number 
or target level that can effectively capture the full scope of 
our security or facilitation efforts at ports of entry. 
Instead, there are a series of important indicators that we use 
to assess and refine our operations.
    Qualitatively, we look at measures we have in place to 
address specific risks, whether they are comprehensive, and 
whether they can be improved. Quantitatively, we use random 
baseline examinations of both people and goods to assess how 
effective our efforts to identify and address threats are and 
we use efficiency measures to determine whether our security 
operations are properly targeted.
    Last, at the ports, we use facilitation measures, such as 
traveler and vehicle wait times, to assess whether we are 
pursuing our security requirements and deploying our resources 
in a manner that expeditiously moves legitimate cross-border 
traffic.
    In this vein, I would like to highlight some of the 
progress we have made in some key mission areas.
    In our anti-terrorism mission, our priority mission, we 
measure our success by how effectively we identify potential 
risks and how early we take action to address them. In the last 
fiscal year, through our National Targeting Center, overseas 
programs, in coordination with the interagency, international, 
and private sector partners, CBP prevented 4,200 inadmissible 
and high-risk travelers from boarding flights to the United 
States, almost a tenfold increase from 2009, and identified and 
mitigated risks in over 100,000 ocean cargo containers and 
2,000 air cargo shipments before they could be laden on a 
vessel or loaded on an aircraft destined for the United States.
    Similarly, our ability to identify and deny admission to 
inadmissible persons seeking entry into the United States is a 
core mission where we have seen marked improvement with the 
implementation of new technology solutions. United States 
Visitor and Immigration Status Indicator Technology (US VISIT) 
and the Western Hemisphere Travel Initiative have allowed us to 
reduce the number of acceptable documents and enhance 
biographic and biometric checks, serving as a significant 
deterrent to attempted illegal entries and the use of 
fraudulent documents. And overall, at the ports of entry, our 
arrests have increased while attempts by inadmissibles to enter 
have diminished.
    With regard to our counterdrug efforts, we are continually 
assessing how our border security activities have challenged or 
changed drug smugglers' ability to move illicit drugs into the 
United States through ports of entry. The significant increase 
in deployment of large-scale non-intrusive inspection equipment 
over the past 5 years has driven improvements in the 
effectiveness of our examinations. As a result, smugglers have 
changed their tactics, moving to smaller loads and much deeper 
and more sophisticated concealment methods, and some of the 
avoidance measures that you outlined, Chairman. Accordingly, 
larger marijuana seizures are trending down, while hard 
narcotic seizures have increased significantly, especially 
heroin and methamphetamine.
    We have also enhanced our efforts in both agriculture and 
trade protection to focus on those threats that present the 
greatest risk to the U.S. economy and public. We measure our 
success in this mission area using three key types of metrics: 
First, our total examinations; second, the interceptions and 
seizures they produce; and third, our effectiveness rate in 
undertaking those exams. All three show positive trends.
    In 2009 and 2010, we focused our agriculture protection 
efforts on increasing interceptions of the highest-risk 
agricultural pests that, if undetected, could result in 
millions of dollars of economic damage to U.S. agriculture. As 
a result, we have seen a more than 400 percent increase in 
interceptions of these most serious pests.
    These core border security missions are pursued in the 
context of significant growth in international trade and 
travel. Last year, CBP welcomed more than 350 million travelers 
at our air, land, and sea ports of entry and processed 25.3 
million cargo containers and over 100 million air cargo 
shipments, with a trade value of $2.3 trillion. Air travel is 
up more than 12 percent over the last 3 years and is expected 
to grow at 4 percent annually over the next several. Land 
border traffic is also increasing and our trade volumes are at 
record levels in all environments and continuing to grow.
    As a result, we have seen increased wait times in some 
environments. Securing these growing traffic levels without 
impeding them is our core challenge and we are tackling it head 
on through a series of innovative efforts to deploy new 
technology and transform our business processes. We are 
increasing enrollment in our Trusted Traveler Programs, like 
Global Entry, automated anachronistic paper forms, and 
deploying mobile technology to support our officers where the 
work is happening. We envision border processes that are 
seamless, paperless, and traveler directed, and we are pursuing 
them.
    In sum, we have increased our mission effectiveness and 
security across all threats and environments while facing 
increasing demands from growing passenger and trade volume, and 
we continue to seek ways to improve.
    Chairman Carper and Members of the Committee, thank you for 
this opportunity to testify. I look forward to answering your 
questions.
    Chairman Carper. OK. Thanks so much for that statement and 
for joining us today.
    Mr. Fisher, please proceed.

 TESTIMONY OF MICHAEL J. FISHER,\1\ CHIEF, U.S. BORDER PATROL, 
U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Fisher. Chairman Carper and other distinguished Members 
of the Committee, it is indeed an honor to appear before you 
today to discuss progress and remaining challenges facing the 
men and women of the United States Border Patrol.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fisher appears in the Appendix on 
page 176.
---------------------------------------------------------------------------
    In assessing border security progress, one only needs to 
travel the border and talk with front-line agents to witness 
and fully appreciate the investments made over the last decade 
or two. New roads and access to the immediate border have 
increased. Numerous technological advancements, both in static 
and mobile systems, have provided critical situational 
awareness and intelligence collection capabilities, while at 
the same time supporting agents during ground operations. 
Primary fence and vehicle barricades have fundamentally changed 
the way smuggling organizations operate, and aerial platforms 
with advanced technology have substantially increased the way 
we deploy on the ground and have led to increased effectiveness 
throughout the corridors along the Southwest border.
    Thanks in large part to this Committee's support, 
substantial investment in personnel, technology, and 
infrastructure along the Southwest border during the past 
several years has led to the reduction of illegal cross-border 
activity. This reduction in traffic is now enabling us to 
better respond to threats and managing risk.
    Over the past 2 years, advanced analytics and data 
assessments produced programs such as the Consequence Delivery 
System (CDS). CDS has allowed us to reduce the percentage of 
apprehensions that result in a voluntary return, from 41 
percent in 2011 to 22 percent in 2012. Moreover, the 
Consequence Delivery System has contributed to the reduction in 
the overall rate of recidivism, from a 6-year average of 24 
percent to 12 percent today.
    But as I have articulated in prior testimony, I will work 
to reduce the likelihood of attack against the Nation and to 
provide safety and security to our citizens as an ongoing 
mission. Our focus now is to expand our operation by taking an 
integrated approach that includes our partners at the Federal, 
State, local, and Tribal level, applying a risk-based strategy 
while moving toward a mobile and flexible workforce that can 
rapidly respond to emerging threats.
    Our challenges are many, not the least of which is our 
ongoing requirement for information and intelligence, which 
provides front-line agents critical insights about those that 
would seek illegal entry into the country. In addition, 
detection capability continues to be a critical need in our 
implementation plan, detection to queue response to an 
immediate threat and detection to provide strategic situational 
awareness.
    I am often asked the question, when will the border be 
secure? My general response is when there are no more dangerous 
people seeking entry into the country to do us harm. The extent 
to which the border is secure has more to do with known and 
evolving threats and our ability to respond to those threats 
and less to do with fluctuations in things like apprehension 
numbers.
    Although our progress has historically been described in 
terms of technology and infrastructure enhancements, the true 
value of our collective achievement rests with the agents and 
mission support personnel. Their selfless sacrifice and 
commitment to excellence exhibited every day nationwide is 
unmatched in law enforcement. What our agents continue to 
achieve in the face of adversity is no less than exemplary. I 
am proud to represent them here today.
    I look forward to working with the Committee to identify 
measures that adequately assess the state of the border and 
explain the return on the investment for the American people. 
Thank you, sir.
    Chairman Carper. Thank you, Mr. Fisher.
    General Alles, please proceed. Welcome.

  TESTIMONY OF RANDOLPH D. ALLES,\1\ ASSISTANT COMMISSIONER, 
 OFFICE OF AIR AND MARINE, U.S. CUSTOMS AND BORDER PROTECTION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Alles. Thank you, sir. Good morning, Chairman Carper 
and distinguished Members of the Committee. It is an honor to 
appear before you today with my colleagues to discuss the 
critical role of U.S. Customs and Border Protection in securing 
our Nation's borders. I appreciate the Committee's leadership 
and commitment to ensuring the security of the American people.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Alles appears in the Appendix on 
page 176.
---------------------------------------------------------------------------
    The Office of Air and Marine (OAM), as I will refer to them 
during my comments here, is the world's largest aviation and 
maritime law enforcement organization. It is a critical 
component of CBP's layered enforcement strategy for border 
security. We are composed of 1,200 Federal agents, 267 
aircraft, and 289 marine vessels, and we operate from 84 
locations throughout the United States.
    OAM protects the American people and the Nation's critical 
infrastructure through the coordinated use of integrated air 
and marine forces to detect, interdict, and prevent acts of 
terrorism and the unlawful movement of people, illegal drugs, 
and other contraband toward or across the land and sea borders 
of the United States. At the borders, OAM's tactical support of 
CBP's antiterrorism and border security mission includes 
intercepting people and contraband crossing the land borders, 
intercepting aircraft and transportation vessels. To accomplish 
this, OAM develops information and partners with the Federal, 
State, local, and Tribal law enforcement agencies to ensure our 
assets are in the right place at the right time and to effect a 
successful resolution to stopping illegal activities.
    Additionally, OAM utilizes its unique air and marine 
capabilities to provide support for law enforcement along with 
disaster recovery, emergency response operations. Over the past 
years, and consistent with our air and marine strategic plan, 
OAM has delivered an advanced array of new and upgraded 
aviation assets, some of which you saw, extremely capable of 
sensors, information integration and distribution capabilities 
in a variety of marine vessels.
    OAM recently delivered its seventh P-3 Orion aircraft with 
an additional 18 to 20 years of service life at a fraction of 
the cost of the new aircraft. Additionally, over the past seven 
years, we have added 70 new or upgraded medium-lift 
helicopters, light- or medium-lift helicopters, 18 new or 
upgraded fixed-wing aircraft, 10 Predator B unmanned aerial 
systems, 56 interceptor and riverine-type marine vessels, and 
other maritime and aviation sensors. We also stripped the first 
Processing, Exploitation, and Dissemination (PED) cell, at the 
Air and Marine Operations Center in California and North 
Dakota.
    Two of our most impressive recent capabilities have been 
the Multi-role Enforcement Aircraft (MEA) and broad area 
electronic sensors, which were referred to by the Chairman at 
the start of this session. The MEA provides CBP with a single 
aircraft to support border security missions and medium-range 
maritime patrol missions. The broad area electronic sensors, 
termed VADER, provide unparalleled situational awareness across 
the land borders and give Border agents near real-time actual 
information without the limitations of ground radars or optical 
sensors.
    Another key component of our security capabilities is the 
unmanned aircraft systems, the Predator. They provide critical 
aerial surveillance to personnel on the ground. We own 10 of 
those systems and its maritime variant, the Guardian, which 
composes 3 of the 10 systems. The Predator can monitor large 
areas of land efficiently, enhance situational awareness, and 
increase officer safety. They are particularly useful for 
detecting and targeting locations susceptible to border 
incursions.
    From June to July 2012, we deployed one of our assets to 
the Dominican Republican, flew 237 hours with that unmanned 
aerial vehicle (UAV), and we netted a total of 3,900 pounds of 
cocaine valued at over $300 million street value.
    Recently, and in conjunction with local authorities, OAM 
assisted California State and local enforcement in their search 
for Christopher Dorner, a former L.A. police officer who was 
suspected in multiple homicides and eluded capture for more 
than a week. On February 12, our riverside air unit launched an 
AS-350 helicopter to assist local authorities in their search 
after they traced Dorner to the San Bernadino Mountains, where 
he barricaded himself inside a cabin. We launched a PC-12 
Pilatus aircraft to provide ground support. An AS-350 
helicopter delivered one of Mr. Dinkins' agents, an ICE agent, 
to the command and control center along with equipment that 
allowed the Special Weapons and Tactics (SWAT) commander to see 
the video feed from the PC-12, very helpful to that 
apprehension.
    Mr. Chairman, I know you are familiar with our P-3 aircraft 
and its effectiveness. CBP P-3 aircraft have been instrumental 
in reducing the flow of contraband from reaching the United 
States by detecting suspect vessels while they are still 
thousands of miles away from the U.S. border. In fiscal year 
2012, P-3 crews were involved in the seizure of more than 
117,000 pounds of cocaine valued at $8.8 billion. And in the 
first quarter of this year, they have been involved in the 
seizure of over $2.4 billion of cocaine.
    Working in conjunction with aviation assets, OAM's coastal 
interceptor vessels operate in offshore coastal waters to 
combat maritime smuggling and protect U.S. ports from acts of 
terrorism. These interceptor vessels are the most powerful 
vessels used in law enforcement and are an integral part of 
OAM's efforts to stop maritime smuggling.
    Further integrating security efforts, our Air and Marine 
Operations Center utilizes surveillance capabilities of Federal 
and international partners to provide air domain awareness for 
agents at the border and within the interior of the United 
States.
    Because of the continual support of Congress, OAM has been 
a significant contributor to CBP's progress in securing the 
border. OAM will continue to transform our aviation and 
maritime fleet to enhance our detection, interdiction 
capabilities, and work with our international and Federal 
partners to combat the risk that exists today and be prepared 
for tomorrow.
    Chairman Carper and distinguished Members, thank you for 
this opportunity to discuss our role and CBP's role in securing 
our borders. I look forward to answering your questions.
    Chairman Carper. General Alles, thank you so much for that 
testimony.
    I am tempted to say, the P-3, the mighty P-3, as my sons 
used to call it, is amazing. It was not a new airplane when I 
was starting to fly. It is amazing that they are still going. 
It served in Iraq, Gulf drug interdiction for years down in the 
Caribbean, and now in this role. It is really pretty amazing. 
And, I presume, cost effective. That is good. Mr. Dinkins.

TESTIMONY OF JAMES A. DINKINS,\1\ EXECUTIVE ASSOCIATE DIRECTOR, 
HOMELAND SECURITY INVESTIGATIONS, U.S. IMMIGRATION AND CUSTOMS 
       ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Dinkins. Good morning, Chairman Carper and 
distinguished Members of the Committee. Thank you for the 
opportunity to be here today to discuss the significant 
contributions ICE has made over the past decade in securing the 
border and our investigative work to disrupt and dismantle 
transnational criminal organizations.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dinkins appears in the Appendix 
on page 189.
---------------------------------------------------------------------------
    Over 26 years ago, I began my career in the Federal 
Government, and since that time, I have seen some watershed 
moments in border security, but as we all know, none more 
defining than 
9/11. At that moment in time, when the plane hit the World 
Trade Center at 8:46 a.m., border security changed forever. At 
that moment in time, I was a Supervisory Special Agent with 
U.S. Customs in Detroit, Michigan. My office sat just blocks 
away from the U.S.-Canadian border and there was a complete new 
urgency to securing our Northern border as well as our Southern 
border.
    Since that time, and with the creation of the Department of 
Homeland Security, we have made great strides and realized 
considerable enforcement achievements. For example, over the 
past 3 years, ICE Homeland Security Investigations (HSI), has 
achieved a record number of criminal arrests, with an increase 
of nearly 25 percent in fiscal year 2012 over fiscal year 2010.
    As the Department's principal investigative agency, and as 
Customs and Border Protection's investigative arm, ICE Homeland 
Security Investigations has deployed nearly 50 percent of our 
resources to the Northern and Southern border, with the 
remaining resources strategically placed along our coastal 
borders and near ports of entry throughout the United States. 
In addition, we have special agents assigned to 75 offices in 
48 countries around the globe.
    This global footprint is imperative to address the entire 
criminal continuum of cross-border crimes that we face in 
today's global society. This includes at the border where 
criminal organizations, as you have heard, seek to smuggle 
people, contraband, and money into and out of the United 
States--as well as throughout the United States where the 
criminal organizations distribute their contraband and earn 
significant profits--and then, finally, internationally, where 
many of the criminal organizations base their command and 
control structures.
    In 2006, we made a great step forward, as you had mentioned 
in your remarks, with establishing the first Border Enforcement 
Security Task Force (BEST). Today, we have 35 BESTs located 
across 16 States and in Puerto Rico which leverage over 765 
Federal, State, local, Tribal, and international law 
enforcement officers representing over 100 different agencies.
    To assist in addressing the threats abroad, we also created 
Transnational Criminal Investigative Units (TCIUs), which are 
bilateral, multi-disciplined investigative units comprised of 
vetted international law enforcement partners. Currently, we 
have 12 units operating in 10 countries that are dedicated to 
investigating the foreign-based criminal organizations who 
threaten our Nation.
    In an effort to prioritize our investigations, with the 
increased resources that we have been granted over the last few 
years, ICE Homeland Security Investigations launched the 
Significant Case Review Process (SCR), in fiscal year 2011. 
This process focuses our investigative resources to disrupt and 
dismantle the most prolific criminal organizations. As a result 
of our work, over 175 of the most dangerous individuals and 
transnational criminal organizations have been disrupted or 
completely dismantled. These are criminal organizations that, 
at one time, had the capacity to smuggle thousands of illegal 
aliens and immigrants, tons of drugs, launder millions of 
proceeds, and smuggle weapons into and out of the United 
States, but no more.
    This past year, ICE also developed the Illicit Pathways 
Attack Strategy (IPAS). IPAS is a whole government approach, 
both domestically and internationally, to address not only the 
most significant criminal organizations, but also the smuggling 
pathways, and the methods they use. They use these methods and 
pathways for a reason, and we take a whole government approach 
to identify what is the underlying reason they are utilizing 
and exploiting that pathway. Experience has shown that if we 
simply tried to disrupt criminal activity by focusing law 
enforcement efforts in one area, criminal organizations will 
quickly adapt and shift to another area or method. The goal of 
our criminal investigations is to not only stop the individual 
criminals, but also to disrupt and dismantle the entire 
criminal enterprise and do everything we can to mitigate and 
eliminate the vulnerabilities they seek to exploit.
    Thank you again for the opportunity to be here. There is no 
question, as you mentioned, that we have collectively made 
great strides and progress in enhancing border security over 
the past decade, and it would be my pleasure to answer any 
questions.
    Chairman Carper. Mr. Dinkins, thanks for that testimony, 
and again to all of you for your testimonies and for joining us 
today.
    I am going to ask some questions and then kick it over to 
Senator McCain, Senator Tester, Senator Landrieu, Senator 
Ayotte, Senator Johnson. Welcome. We are glad you all are able 
to join us today.
    I am going to telegraph a pitch and then I am going to ask 
somebody, maybe Mr. Fisher, to go over and talk us through some 
of these charts. But one of the questions I am going to ask is, 
do you think the borders are more secure, yes or no? And I am 
going to ask, to the extent that this is still a work in 
progress, and while improvements have been made, what are the 
one or two additional critical things that we need to do? What 
do we need to do more of? What do we need to do less of? Just 
be very specific, if you will, on that. And then we will drill 
down from there.
    But why do we not start with the charts?\1\ Mr. Fisher, 
would you just walk us through this first chart? It looks a 
little bit like the U.S.-Mexican border.
---------------------------------------------------------------------------
    \1\ The photo submitted by Mr. Fisher appears in the Appendix on 
page 185.
---------------------------------------------------------------------------
    Mr. Fisher. Yes, Chairman. Thank you. I will be happy to. 
And I will be succinct and as brief as possible. If you need 
further clarification, please stop me while I am explaining it.
    Chairman Carper. OK.
    Mr. Fisher. The first chart is, as you identified, the 
Southwest border. It is a comparative on apprehensions. So if 
you look at the very top, in the blue numbers are the 
apprehension numbers by sectors, and as you recall, the 
Southwest border is broken down into nine sectors. And so the 
blue numbers represent the apprehensions at the end of fiscal 
year 2012 corresponding to each one of those sectors.
    Below that, in the lower numbers in red are the 
apprehension numbers at a point in time of the highest 
apprehension in that corresponding sector. And as a reference, 
if you look just above the red number, you will see a black 
number, which is the year in which what we call the high-water 
mark was established. So, generally what we do is we compare 
apprehensions with the previous year. That is kind of one of 
the default metrics that we typically report, both in our 
Government Performance and Results Act (GPRA) measures and 
others, and----
    Chairman Carper. So what you are saying is apprehensions 
are generally down along the border, down substantially 
compared to where they were how many years ago? A half-dozen? 
Twelve?
    Mr. Fisher. Yes. The earliest one recorded is in 1992 in 
San Diego.
    Chairman Carper. All right.
    Mr. Fisher. So from 1992 through, it looks like about 2005, 
during that period of time, the Border Patrol historically was 
averaging millions of apprehensions per year.
    Chairman Carper. OK.
    Mr. Fisher. And so what we look at now in the comparative 
in 2012, in each one of our sectors, we are seeing continued 
decreased activity level, to include apprehensions.
    Chairman Carper. Yes. One could argue the reason why the 
apprehensions are going down is because we are not as effective 
in apprehending people. But having been there with Senator 
McCain and others, actually, we are a whole lot better at doing 
the job. They are far more effective on the ground, in the air, 
in the water. So it is sort of counterintuitive that we would 
use apprehensions. I think we struggle with this as a metric--
that is the way we are going to measure progress and making the 
border more secure. How do you respond to that? Why is this one 
of the key measures for us to use? I know there are others, but 
why is this one of the key measures to use?
    Mr. Fisher. Right, and Mr. Chairman, I agree with you. As a 
matter of fact, if we just talk about apprehensions, I think it 
is misleading, because whether it goes up or it goes down, one 
could make the case that we are doing a better job. And that 
was about 3 years ago, we looked at apprehensions only as the 
start of metrics that we would try to describe the State at the 
border at any given point in time.
    What apprehensions does give us, and the reason why we like 
using them and have historically used them, is because it is a 
solid number. Those represent people that we have apprehended. 
So we can show you their biometrics. We can tell you who they 
are. We can give a whole host of demographics, where they were 
from. And so we are very confident about that number.
    But it just does not tell the whole story in terms of what 
is happening. It is a good starting spot, but not the end.
    Chairman Carper. Good. And as time goes by, do we have the 
ability, as we apprehend people, to know if they are being 
apprehended for the second, third, fourth time? Do we have the 
ability to do that with some certainty?
    Mr. Fisher. We do, Mr. Chairman.
    Chairman Carper. And what are we seeing in terms of those 
numbers as a percentage of those that are being apprehended?
    Mr. Fisher. Well, as a percentage, there are less people 
that are being apprehended multiple times.
    Chairman Carper. OK.
    Mr. Fisher. So as a general statement, we can do that, and 
we can do that through their fingerprint identification number, 
which is a unique identifier based on biometrics. We are able 
to do a lot more analytical work in terms of who these people 
are, where they are showing up, either at the ports of entry, 
between the ports of entry, and we can study that over time, 
not just the individuals, but it helps inform our agents in 
terms of the networks that are operating these smuggling routes 
and it gives us a lot of information about their capabilities 
and their vulnerabilities.
    Chairman Carper. All right. Good. Do you have anything else 
you want to say on this chart before we look at some of the 
photos?
    Mr. Fisher. No, Mr. Chairman.
    Chairman Carper. OK. Can somebody help us with the charts, 
please. Thank you. And I see some photos.\1\ A picture is worth 
a thousand words. What do we have here? Can we put that one up? 
Very good. Just put it up on the end, if you would. Thanks a 
lot. And what are we looking at here?
---------------------------------------------------------------------------
    \1\ The photo submitted by Mr. Fisher appears in the Appendix on 
page 186.
---------------------------------------------------------------------------
    Mr. Fisher. This is a before and after photo of an area 
within the Tucson sector in the State of Arizona. We have, over 
the last few years captured, and we have asked the field to 
send us, literally hundreds of photos which help us understand, 
not just within our headquarters, but certainly those that, 
unlike yourself, would not have the opportunity to go to the 
border or perhaps have not been to the border recently, in the 
late 1990s or early 2000s.
    And the picture up top was taken in 2006. As you can see, 
there is a lot of debris. Typically, what was happening, you 
would have thousands of people on any given shift going across 
the desert. In some areas, it took them hours. In some areas, 
it took them days to get from the point of entry across the 
border to either a stash house or into a vehicle. And along the 
way, in a typical area like this, would be what we call a load-
out area. So as they were getting ready to transition into a 
vehicle, they would dump a lot of either old clothes and water 
bottles, things that they would take during their trip, and 
just leave it in the desert and continue on.
    The lower picture basically is a depiction of the same area 
as of present, whenever that photo was taken, which I assume 
was probably within the last year or so.
    Chairman Carper. A member of my staff said, with tongue in 
cheek, maybe they are just better recyclers now and we have 
these recycling containers and folks are being better human 
beings. That is not true, though, is it?
    Mr. Fisher. Well, that is certainly an argument, but then I 
would be able to show you what the Border Patrol agents are 
tracking each shift in terms of how many people are actually 
going through there, and they are getting very good in terms of 
individuals utilizing technology and their own innate skills in 
tracking, being able to--not a complete science, but be able to 
depict levels of traffic and people that are coming through 
areas like this.
    Chairman Carper. OK. All right. Can we look at the next 
chart,\2\ please? Would you describe it for us?
---------------------------------------------------------------------------
    \2\ The photo submitted by Mr. Fisher appears in the Appendix on 
page 187.
---------------------------------------------------------------------------
    Mr. Fisher. Certainly. This is just a depiction of before 
and after in terms of the type of technology that we would 
utilize along the border. To the left, you see an old 
generation night vision. I was mentioning to the General before 
the hearing, I said, it looks like one of the AMPBS 7-Bravo 
night vision equipments that, when I was a young agent working 
in the Arizona area, was given from the military. And back 
then, being able to see three feet in front of you with ambient 
light was a big deal, because absent that, we did not have any 
ability to do that. But then you fast forward and the type of 
technology that is available to the agents today, both in terms 
of their ability to see further and with more clarity, helps 
them really differentiate the types of threats that they are 
seeing out there in the desert. So this depiction just captures 
one piece of technology over the course of the last few years 
that has really enhanced our ability to protect this country.
    Chairman Carper. That is pretty dramatic. One more 
chart,\1\ and then I will yield to Senator McCain.
---------------------------------------------------------------------------
    \1\ The photo submitted by Mr. Fisher appears in the Appendix on 
page 188.
---------------------------------------------------------------------------
    Mr. Fisher. Again, this is a snapshot, a before and after 
picture, and if memory serves, this is the Douglas area within 
Tucson sector. The top photo depicts a section of the border 
many years ago. We referred to it--appropriately, perhaps, 
looking at the photograph--as the ditch. And the picture below 
it is the same area with a level of infrastructure. The 
infrastructure includes primary fence. It includes an all-
weather road, which allows the Border Patrol agents access 
laterally from one area to the other to respond to different 
threats. You will see a secondary fence and then in the 
background you will see some integrated fixed towers that 
provide the Border Patrol agents advance information in terms 
of on the approach of anybody seeking entry, either over or 
through the primary fence.
    And one interesting piece when you just look at this type 
of technology, what it does for us, it frees up the amount of 
Border Patrol agents that, absent that type of technology and 
infrastructure, would require a lot more Border Patrol agents 
on every shift to patrol those areas.
    Chairman Carper. All right. Well, thank you for that 
testimony. Thanks for sharing these photographs with all of us. 
Senator McCain.
    Senator McCain. Thank you, Mr. Chairman, and I thank the 
witnesses.
    Mr. Fisher, I agree with you. I think all of us are in 
agreement. I have been down on the border for the last 30 years 
and there have been significant improvements, but we really do 
not know how significant they are. As you said, you cannot rely 
on apprehensions as the only measurement. But the fact is, we 
have no measurements. We have no measurements now.
    Let me read to you a quote from the Government 
Accountability Office (GAO) report of last December. Quote, 
``Border Patrol is developing key elements of its 2012-2016 
strategic plan needed to define border security and the 
resources necessary to achieve it, but has not identified 
milestones and timeframes for developing and implementing 
performance goals and measures in accordance with standard 
practices in program management. Border Patrol officials stated 
that performance goals and measures are in development for 
assessing the progress of agency efforts to secure the border 
between the ports of entry, and since fiscal year 2011, DHS has 
used the number of apprehensions on the Southwest border as an 
interim goal and measure. However, as GAO previously testified, 
this interim measure does not inform program results and, 
therefore, limits DHS and congressional oversight and 
accountability.''
    My question to you is, I agree with you that apprehensions 
are not the only measurement, but we have no other measurement 
right now. In fact, incredibly, in testimony before the House, 
Mr. Borkowski told Republican Representative Candice Miller, 
quote, ``I do not believe that we intend that the Border 
Conditions Index (BCI) will be a tool for the measurement that 
you are suggesting.''
    When are we going to have these measurements of 
effectiveness as the Government Accountability Office says that 
we need, because if you do not believe that apprehensions are 
the answer, then what is the answer that we have right now at 
our disposal in order for Congress to make a judgment?
    Mr. Fisher. Thank you, Senator. I will list two things in 
particular. The first thing is what we call the effectiveness 
ratio. At the end of the day, one of the things that is really 
important to us is not just the apprehensions. We want to know, 
to the extent that we are able through technology and agent 
observations, we want to know how many people come across the 
border, and of that number, how many people do we either 
apprehend or turn back. That allows us to understand flow----
    Senator McCain. So have you developed the metrics and the 
standards or not?
    Mr. Fisher. We have, sir.
    Senator McCain. You have?
    Mr. Fisher. Yes, sir.
    Senator McCain. You have?
    Mr. Fisher. Yes, sir.
    Senator McCain. And we are using them?
    Mr. Fisher. We are at the tactical and the strategic level 
trying to understand where it makes sense to capture that, 
because not in all areas----
    Senator McCain. I am not asking where it makes sense. What 
can I, what can the Members of this Committee have as a basis 
to determine the level of border security?
    Mr. Fisher. Well, one of the things that we are doing and 
rolling up at the strategic level is----
    Senator McCain. Are you sharing that with Congress?
    Mr. Fisher. We are just starting to, sir.
    Senator McCain. Oh, you are starting to.
    Mr. Fisher. Yes, sir.
    Senator McCain. OK. Well, that is----
    Mr. Fisher. This has been an evolution over----
    Senator McCain. That is good to know.
    Mr. Fisher. Since Rebecca Gambler's report in GAO, this was 
something since that report and during their study, things that 
we have been working within the headquarters and in the field, 
quite frankly, on doing better.
    Senator McCain. That is fine, that you are doing that. You 
are not informing Congress. This Member has certainly not been 
informed. Certainly no Member of this Committee has been 
informed, that I know of. And we have to make judgments, 
particularly since we have pending an incredibly important 
piece of legislation before the Congress of the United States. 
I hope that you can get that information. I hope you can 
establish those metrics. And I would be more than happy to hear 
from the Government Accountability Office that you have done 
so. As short a time ago as last week when I talked to them, 
that has not happened.
    Mr. Fisher. Well, it is in the final stages of development, 
Senator. I can tell you that.
    Senator McCain. Well, it is certainly gratifying to know, 
because that is certainly not what was testified before the 
House by Mr. Borkowski, whoever he is. In fact, I think the 
Arizona Republic had a very interesting article, I mean 
editorial, that basically we do not have the metrics and we 
need the metrics and we need them very badly if we are going to 
consider overall immigration reform. And when the Secretary of 
Homeland Security says, well, we do not need a trigger, that 
gives us a degree of skepticism as to how forthcoming we are 
going to be.
    Apprehensions are up this year around the border, right?
    Mr. Fisher. Approximately 13 percent compared to last year, 
sir.
    Senator McCain. Thirteen percent up. That may have 
something to do with an improving economy and a perception 
south of the border of two things, one, that there is a job 
market, and two, that sequestration is having an effect on your 
operations, and that is my next question. Is sequestration 
harming to some degree your ability to carry out your assigned 
duties?
    Mr. Fisher. It is, sir, in some degree, yes.
    Senator McCain. Mr. Dinkins.
    Mr. Dinkins. Absolutely.
    Senator McCain. It would be helpful if we could get from 
you for the record the specific areas where your ability to 
carry out the border security mission has been impaired, 
because, obviously, that is of incredible importance and 
significance.
    Mr. Dinkins, on March 7, I sent a letter to Secretary 
Napolitano asking about what was reported to be 3,000 detainees 
who were released from ICE detention facilities around the 
country. I have received no answer. Can you tell me how many 
were released?
    Mr. Dinkins. Sir, I cannot tell you because it is outside 
of my chain of command and so forth. I am over the 
investigations portfolio and not the detention or removal----
    Senator McCain. Whose jurisdiction does that fall under?
    Mr. Dinkins. That would be my counterparts. So, within ICE, 
we have the Director and Deputy Director; and then myself who 
is over Homeland Security Investigations; and Gary Mead, who is 
actually----
    Senator McCain. So you do not know the answer to the 
question?
    Mr. Dinkins. I do not know the answer, sir.
    Senator McCain. General Alles, you are familiar with VADER 
radar.
    Mr. Alles. Yes, sir.
    Senator McCain. You have seen it in operation in Iraq.
    Mr. Alles. Yes. I have seen it in operation in Arizona. I 
am familiar with some of its Department of Defense (DOD)----
    Senator McCain. I have seen it in operation in Iraq. It 
seems to me that this is an incredible technology tool. Do we 
have plans to acquire more of that?
    Mr. Alles. Sir, currently, in the current appropriation 
bill, there is money for two more systems. We do have plans to 
get two more. We would like to get to an objective of six of 
those systems.
    Senator McCain. Would you supply for the record what is 
necessary to have VADER coverage for the border?
    Mr. Alles. For the entire border, sir?
    Senator McCain. For the entire border.
    Mr. Alles. I would have to calculate it and get back to 
you.
    Senator McCain. That is why I said, would you submit for 
the record.
    Mr. Alles. All right, sir.
    Senator McCain. Now, what is preventing the use of UAVs 
along the Southern border to be used in high-traffic areas 24 
hours a day?
    Mr. Alles. Part of that, as all things, is funding, sir. We 
need to do some things inside of my organization, Air and 
Marine, to get more operational utility out of the systems. The 
other part of it, of course, is I have to have more VADER 
systems. What I have right now is a lone system from the Army.
    Senator McCain. Given your experience and background, do 
you not believe that VADER plus drones could be absolute vital 
tools in attaining effective control of our border?
    Mr. Alles. I think, sir, it will help us characterize what 
the border looks like. The end piece of this is quite 
complicated and large, so actually getting full operational 
control of the border is difficult. This will help us see what 
the movement looks like in a more comprehensive way.
    Senator McCain. Well, seeing is the first step in getting 
border control, please. And I have seen both UAVs and VADER 
radar in action, including the Battle of Sadr City and other 
places, where it has been extremely effective. Detection is the 
first step that we need. So would you supply for the record the 
requirements that would be necessary for VADER and UAV, VADER 
across the border and UAVs that would be necessary in high-
traffic areas.
    Finally, Mr. Chairman, if you will indulge me 1 second, in 
Arizona today, High Intensity Drug Trafficking Areas (HIDTA) 
will say that there are guides sitting on mountaintops in 
Arizona guiding the drug smugglers up all the way from the 
border up to Phoenix, where it is distributed through most of 
the country. Do you agree with that assessment? Mr. Fisher, or 
whoever wants----
    Mr. Fisher. Yes, Senator. I am aware of those networks and 
their capabilities in Arizona.
    Senator McCain. And the cost of an ounce of cocaine has not 
gone up a dollar in the last 5 years. That is the ultimate 
indicator of whether we are restricting the flow of drugs or 
not, and that is part of the equation as far as border security 
is concerned that I think we need to pay a lot more attention 
to.
    Mr. Chairman, I want to thank you again for your interest 
and involvement and your visit to the border out of your very 
busy schedule. We appreciate your understanding and 
appreciation of the challenge that we face in the Southwest. 
And I thank the witnesses.
    Chairman Carper. Thank you for letting me come down and for 
spending that much time with me.
    The point that Senator McCain is making here is apparent to 
all of us. If we want to be able to say that we have a more 
secure border, how do we measure that and be able to say not 
just that we are apprehending fewer people, that it means we 
have a more secure border? That is counterintuitive. So it is 
one of a number of measures we can use, but it cannot be the 
only one.
    I said this to some folks down in Arizona when I was there. 
I said, maybe if we had the ability to actually quantify the 
number of folks who are trying to get across the border. We 
will say it is 100. The number that go back, turn-backs, we 
will say maybe it is 10. Then to be able to measure, as we do, 
the number that are detained when they come across, and then do 
a little bit of arithmetic--as Bill Clinton would say, a little 
arithmetic--and figure out how many came across but got away.
    What I hope we can do is work toward a system. Not just 
folks on the ground. Not just in the air. Not just ground 
support radar. Not just intelligence. But an approach--this is 
an oversimplification--but an approach that actually enables us 
to measure that so that we can say with some certainty that the 
borders are more secure. Not just we have the pictures you are 
showing, and they are pretty compelling, but to actually have 
the numbers to back that up. All right. That is an 
oversimplification, but I think that is where we need to go. 
And with the kind of technology that Senator McCain is talking 
about, maybe we can get there. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Yes. Thank you, Mr. Chairman. I want to 
thank all the folks who testified for their testimony.
    Since before 9/11, I have been aware--a change of focus to 
the Northern border now for a second. Since before 9/11, I have 
been aware of opportunities for smuggling drugs across the 
Northern border with low-flying aircraft. I have long thought 
that deployment of military-grade radar would be very positive 
along the Northern border. I was encouraged--to intercept the 
low-flying aircraft.
    I was encouraged that DHS entered into an agreement with 
the Canadian Government in 2011 to begin receiving Canadian 
radar feeds. Can you provide me, and whoever, it may be you, 
Mr. Alles, but can you provide me an update on how this 
initiative is going, the effectiveness of those feeds as far as 
your ability to determine what is going on, on the Northern 
border?
    Mr. Alles. Those feeds are fully integrated now into our 
Air and Marine Operations Center in Riverside, California, and 
those are combined with the hundreds of Federal Aviation 
Administration (FAA) radar feeds we receive from across the 
United States and military radar feeds. So those are 
integrated. They very much give us a much better picture of 
what the air flow looks like across the Canadian border. So, it 
has been a great advantage to us in terms of air security, sir.
    Senator Tester. And is that air flow able to be monitored 
24/7?
    Mr. Alles. Yes, sir. That is able to be monitored 24/7. I 
should qualify. In the low-altitude arena, you are going to 
have areas that have gaps.
    Senator Tester. How low is low?
    Mr. Alles. Low would be something down 5,000, 2,000, 1,000 
feet.
    Senator Tester. OK. So that is not--to be honest with you, 
some of the area where there are mountains, that is low, but 
truthfully, a lot of the area that I am talking about, the 
rising elevation of the ground is not much. So you can be right 
on the deck with a 182 Cessna, for example.
    So the question becomes, from your analysis, are we still 
talking about anything under 500 feet we cannot determine?
    Mr. Alles. If they are at low altitude, sir, we are going 
to have a difficult time picking them out.
    Senator Tester. OK. So we are not where we need to be, are 
we?
    Mr. Alles. Well, I think in terms of risk reduction, we 
certainly have reduced the risk to ourselves on the Northern 
border by integrating the feeds that we currently have. Nowhere 
across the United States do we have coverage that probably 
extends all the way down to the ground.
    Senator Tester. OK. Well, I mean, I just think that--and I 
will say this again--I hope that there are opportunities to 
expand this, whether it is done through cooperative agreements 
with the Canadian Government or whether it is done by 
ourselves. But the bottom line is that--and I live 75 miles 
from that border on very flat ground that you could probably 
flood irrigate without moving much dirt, to be honest with you. 
That is how flat it is. And these planes can come across the 
border. They can land in these little airports, put in a credit 
card, fill up their plane, and they can go anywhere they want, 
and that is a concern to me.
    If it is a concern to me, I hope it is a concern to you, 
and I hope there are proposals to be put forth to deal with 
that situation, whether we are talking about drugs or weapons 
of mass destruction, whatever we might be talking about. So I 
just put that forth as an opportunity to move forward in a 
positive way.
    Mr. Dinkins or maybe Mr. Fisher, or maybe both, or Mr. 
McAleenan, maybe all of you, on a recent trip to the Northern 
border, I spoke with some Customs and Border Protection agents 
who were frustrated by some jurisdictional issues with the 
folks at ICE. In one case, the CBP had actionable intelligence 
to make a number of arrests and was ready to move forward, but 
ultimately they had to defer to ICE because the matter was 
qualified as an interior enforcement. At the end of the day, as 
we talk about immigration reform here--at the end of the day, 
nothing was done, and the folks who could have been arrested 
and sent back to their country because of being unpapered were 
not.
    Can you clarify how CBP and ICE are currently handling 
overlapping jurisdictions or even gaps in regard to the arrests 
of undocumented individuals?
    Mr. Fisher. I would be happy to, Senator. In a couple of 
locations we are getting better at that. I will tell you--a 
place like South Texas--we, along with ICE and law enforcement 
partners are sitting down in advance of an operation and doing 
what is called joint targeting.
    Senator Tester. OK.
    Mr. Fisher. We will bring all the intelligence components 
in and all the law enforcement components, including the U.S. 
Attorney, and we will understand better about those networks 
and those organizations than we ever would individually. And 
then we are identifying what is the best enforcement approach. 
In some cases, it is going to be an investigation. In some 
cases, it is going to be an interdiction. And we need to get 
better at that as we move forward.
    Senator Tester. But what about the issue--and you can jump 
in if you would like, Mr. Dinkins--what about the issue of, and 
I do not remember what the mile is, whether it is 50 miles or 
100 miles or 75 or something, but what about the issue where 
there is actionable intelligence to move forward. ICE does not 
have the manpower to deal with it and Customs and Border 
Protection is saying, ``That is not your jurisdiction. I do not 
want you fooling around with this.''
    What are we doing with that, because, quite frankly, if 
that is happening with any sort of--I mean, it is a problem and 
we have to fix it. And so what are we doing, agency to agency? 
The President always talks about, we have to quit working in 
silos, and I agree, we need to work more as a team. What are 
you doing when there is a problem like that? Is there an 
opportunity for agents to make you aware of it, or the 
supervisors aware of it, and are the supervisors instructed to, 
you know what, if there is actionable intelligence, go after it 
and do it. If it is out of our gourd, get hold of ICE and tell 
them we are doing it, or vice-versa?
    Mr. Dinkins. Senator, I can tell you, Mr. Fisher and I have 
established some very good communications all the way down to 
the field level. So an incident like you just mentioned----
    Senator Tester. Yes.
    Mr. Dinkins [continuing]. I have not heard about in, quite 
frankly, years.
    Senator Tester. OK.
    Mr. Dinkins. So I am not sure if they are referring back 
to, maybe, the old days or recent----
    Senator Tester. No. I am aware of the situation. I am aware 
of the facility that was being built and it is relatively 
recent. It is within the last year.
    Mr. Dinkins. OK. But I will say that--we have 
communications not only at the field level, between the chief 
and the special agent in charge, but also, we have an advisory 
group that comes together to make sure that those issues do not 
come about. Because, from an ICE perspective, if I do not have 
the agents and resources to do it, we are not telling people 
not to do it. What we are asking for--is that we are making 
sure we are coordinating, and we are having a seamless 
communication between what gets done.
    Senator Tester. OK, and I appreciate that. I think that, in 
the end, when it comes to these things--and it was not a 
Customs and Border Protection issue because it was far enough 
away from the border where they could say, ``No, it is not my 
job.'' But on the other side of the coin, if ICE cannot do it, 
and there are other issues with manpower and money with ICE, 
because Montana is a big State and we have a 550-mile border 
with Canada in Montana alone, there has to be some ability--and 
I guess this is a question for the folks on the ground, whether 
they are working in ICE or whether they are working in CBP--to 
be able to say, look, this is what is going on and we are not 
doing anything about it without being reprimanded. Is that 
there?
    Mr. Fisher. Sir, I will tell you that I have instructed all 
the field commanders and the supervisors that make those day-
to-day judgments and decisions about deployments and managing 
risk, and ultimately, I leave it up to them in terms of being 
able to respond----
    Senator Tester. OK.
    Mr. Fisher [continuing]. And Border Patrol agents generally 
will not say, ``It is not my job.'' What they will do is try to 
understand what their priority mission is, and without 
degrading the priority mission and border protection, in cases, 
we will be able to respond.
    Senator Tester. Super.
    Mr. Fisher. In other cases, we will not, sir.
    Senator Tester. And I just appreciate that, and I would 
just say--and my time is long gone, but I would just say that 
this really is an issue, from my perspective, that deals with 
leadership, and if you guys make it known to your leaders, mid-
level management folks, that this is important to you, my guess 
is that it will work out a lot better.
    I am concerned about sequester, too, and overtime, and I 
have several other questions I want to introduce for the 
record.
    Once again, thank you guys for your service. I very much 
appreciate it. We have more work to do, but I think you guys 
are fully capable of meeting our needs. Thank you.
    Thank you, Mr. Chairman.
    Chairman Carper. Thank you, Senator Tester.
    Senator Ayotte, you are next, and if Senator Landrieu does 
not show up or Senator Johnson does not return, Senator 
Baldwin, you are right after Senator Ayotte. Thanks for joining 
us. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank the witnesses for what you do to protect 
our country. We really appreciate it.
    General Alles, I had a question for you. What is the 
current protocol for CBP to inspect cargo ships arriving at a 
seaport? The reason I raise it is because I understand right 
now in New Hampshire, and, obviously, we have a seaport in the 
Portsmouth area, that ships arriving during the night are being 
held at sea as CBP agents are unable to board them to inspect 
the cargo for hazardous materials as they would customarily do. 
So you get there at night, you wait, and they are not boarding 
until the morning.
    And one of the concerns I have and the concerns I have on 
the ground there is that this delay in inspecting the ships 
could create an unnecessary risk. And, obviously, if somebody 
has contraband on board or they even have people that should 
not be on board because they are there illegally, that gives 
them an opportunity to sneak off during the night, until the 
inspectors come in the morning.
    So can you help me understand what the policy is, why this 
is happening, and get your thoughts on it.
    Mr. McAleenan. Senator, that will be my area of 
responsibility.
    Senator Ayotte. OK. Sure.
    Mr. McAleenan. Thank you for the question. We have 
extensive protocols for arriving vessels into our seaports. In 
terms of the crew and passengers on board, we are aware of who 
they are up to 96 hours before arrival and will have vetted 
them through all of our targeting databases prior to arrival. 
We also have mechanisms to receive information on the cargo 
coming in on these vessels that has been addressed prior to 
arrival.
    I can look into this specific question in New Hampshire and 
get back to you. The hours of operation, generally, we have 
core hours and we have regular expectations for the vessels 
that call on our ports in terms of when we will be able to be 
there. If they are being held, that was probably an effort to 
ensure the security of the crew. As you noted, any potential 
contraband in cargo before it was offloaded.
    Senator Ayotte. I would appreciate your looking into this 
issue for me, because when I was over there visiting, what I 
heard is this is a change in policy, so it has not been done 
this way in the past. And that is why on the ground level, what 
I am hearing is a lot of concerns about it being done 
differently and a belief that it gives opportunity for criminal 
activity to flourish or to undermine what we are all trying to 
accomplish. So if you can followup with me, I would really 
appreciate that, so I can understand, because from the 
perspective on the ground, it is a change in policy of what has 
happened in the past.
    Now, obviously, if this is an issue of resources because of 
sequester or whatever the issue is, I just need to understand 
and what your thoughts are on it. So I appreciate the followup 
on that. Thank you.
    And also to followup, Senator Tester asked you about the 
Northern border, and so whomever is the most appropriate to 
answer this question, and I certainly appreciate the slides 
that we saw that focus very much on the Southern border and the 
challenges that we have there. My State, of course, borders 58 
miles with Canada, in addition to our seaport that we just 
talked about as a port of entry. And we also have a port of 
entry on the Manchester-Boston Regional Airport. So a lot of 
places that certainly we focus on in New Hampshire.
    Can you help me understand what the biggest threats are 
with respect to the security along the border with Canada? 
Particularly, I think about the border. We have a 58-mile 
border, but there are obviously other portions of the border 
that border Canada, and what are our challenges there?
    Mr. Fisher. Senator, thank you for the question. In general 
terms, when we look at our borders and compare it North and 
South, one of the things that is different in terms of how we 
identify a general threat on the Northern border really stems 
from the fact that approximately 90 percent of the population 
in Canada lives within 100 air miles of the border. And 
differentiating that threat versus hundreds of people coming 
across the border to the South, we have to look at it a lot 
differently.
    One of the things that we do with our law enforcement 
counterparts in the region and with the Royal Canadian Mounted 
Police and Canada Border Services Agency (CBSA) and others 
within Canada is we have over the years worked jointly in terms 
of the Integrated Border Enforcement Teams (IBETs). They are 
called the IBETs. And what we do is we come together 
frequently. As a matter of fact, in many cases along the 
border, it is steady State operations, where we are constantly 
sharing information, bringing all of our resources together and 
trying to understand what the broader picture is in terms of 
threats in the region. And we have very good working 
relationships with our counterparts in Canada.
    And what we then try to establish is what are the emerging 
threats and what is the best way to approach those from a joint 
international standpoint, and then working with Jim and the 
investigators and trying to fulfill either intelligence gaps or 
identifying what additional resources that we may need to bring 
into the particular area at any given point in time.
    Senator Ayotte. So what are the biggest threats right now 
with respect to the Northern border?
    Mr. Dinkins. I think that goes back to, measuring border 
security, and I can tell you what we are seeing is continued 
persistence, interdictions and investigations; and what we find 
is the Transnational Criminal Organizations (TCOs) are involved 
in the Northern border between Canada and the United States. 
Hydroponic marijuana continues to be persistent, and the 
laundering of those illegal proceeds from the United States 
back into Canada. We have often seen drug trafficking 
organizations, that predominately used to be involved in just 
smuggling cocaine, and marijuana into the United States, but 
now often engage with trafficking organizations from Canada 
that then route it to the United States, ultimately for 
distribution in Canada. And, there are intellectual property 
crimes, as well.
    So many of the same threats that we face as a Nation 
everywhere, to some different degree and extent are seen along 
the Northern border, depending on the type of situation.
    Senator Ayotte. Can you tell me, on the apprehension 
measure that you were all talking about, how has that changed 
on the Northern border? Where are we if you look at historical 
average on apprehensions? And so whatever metrics we are going 
to establish on the Southern border, presumably, those metrics 
would apply to the Northern border, as well, but can you tell 
me about the apprehension one that you mentioned earlier?
    Mr. Fisher. Senator, over the years, there has been very 
little fluctuation in terms of apprehension numbers, and I 
think you hit it right. The metrics utilized on the Southwest 
border would not necessarily make sense in a Northern border 
construct.
    For instance, if you are looking at, as the Chairman 
indicated, effectiveness ratios, we want to know how many 
people came in and how many people did we apprehend or turn 
back. Well, that makes sense in areas where that threat has 
been established as high levels of activity. It would not 
necessarily, in my judgment, be a good value measure in areas 
where we do not see a lot of that type of activity. But 
nonetheless, there are metrics that we would need to establish 
to be able to baseline the extent to which our border is secure 
in those areas.
    For instance, it would be known and likely criminal 
activity that is coming in between the ports of entry and how, 
then, do we work as an international force to be able to 
disrupt and dismantle those networks along the way. That would 
make sense in an area in the Northeast, perhaps.
    Senator Ayotte. And I know that my time is up, but I 
appreciate your all being here and for your testimony. Thank 
you.
    Chairman Carper. Thanks for those questions and for you 
being here.
    Senator Ayotte. Thank you.
    Chairman Carper. All right. Senator Baldwin, good to see 
you, another State with a Canadian border, as I recall.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Lake Superior, so international waters.
    Chairman Carper. There you go.
    Senator Baldwin. Thank you, Mr. Chairman, Ranking Member 
Coburn.
    I want to thank all of you for your service to our country 
and for being here today, and I hope that you will convey to 
your hard-working agents our indebtedness for what they do to 
focus on territorial integrity and our economic security, too.
    I thought I might be the only Senator who was deviating 
from the focus on the Southern border, but I guess all politics 
is local and so my questions actually focus on a couple of 
issues that are of particular concern to the people of the 
State of Wisconsin.
    We have a large manufacturing base in the State of 
Wisconsin and we have several major shipping ports in 
Milwaukee, Green Bay and Superior. And so I wanted to take this 
moment to inquire about the relevant Customs and Border 
Protection responsibilities in these areas. And if I do have 
time after that conversation, I do want to ask a question about 
potential effects of border surveillance on constitutional 
civil liberties of American citizens.
    But, first, manufacturing represents a large share of 
Wisconsin's economy and many jobs in my State are supported by 
manufacturing, and my constituents and I are very concerned 
about unfair trade practices, dumping practices by other 
countries, and particularly China. I have heard concerns about 
two techniques that are regularly used to avoid import tariffs, 
mislabeling goods and falsification of country of origin 
through transshipment.
    And so I wonder if you can address for me CBP's views on, 
first, how great of a problem are these and other such tariff 
evasion schemes? Second, what is CBP doing to detect these 
efforts and how effective have you been and how can you improve 
even more? And third, I recognize that the Department of 
Commerce and International Trade Commission play in this same 
arena, so I am curious to hear how CBP is integrating its 
efforts with those other key players to ensure full 
enforcement, such as real time information sharing.
    I think I will throw this out to you, Deputy Commissioner 
McAleenan, and then others can pitch in if you have other 
points to make.
    Mr. McAleenan. Thank you, Senator. An important question, 
and really one of the critical responsibilities of CBP is to 
protect the trade and the U.S. businesses that rely on it.
    In terms of the problem of trade fraud and 
misclassification or mislabeling, that can be done for several 
reasons, as you noted, to avoid dumping and countervailing duty 
regulations, to just seek a lower charge on a duty, and to try 
to increase a market share. This is a problem that we are very 
focused on. As you noted, it is one that is interagency in 
nature. We partner very closely with ICE, and I will ask my 
colleague, Mr. Dinkins, to chime in on our joint efforts there, 
because we really reinvigorated our trade fraud efforts with 
the investigative partners.
    But in terms of what we do day to day at the ports of entry 
we rely a lot on our targeting systems, our advanced data and 
our ability to detect suspect trade practices and validate 
those through examination. We have what we call our compliance 
measurement efforts, which include verifying a sampling of 
trade from a variety of sources to make sure it is compliant, 
and compliance rates are very high nationally, but we maintain 
that effort to make sure we are not missing anything. And we 
also try to focus our examinations on those higher-risk source 
countries and higher-risk importers to take action.
    But I think we have had some significant successes in the 
past 2 years as we have built our efforts with ICE, and I think 
Mr. Dinkins can talk about the Intellectual Property Rights 
Center, which is really doing commercial fraud more broadly, 
and how we are coordinating with them.
    Mr. Dinkins. Yes, ma'am. And this is something, an area 
that over the last few years, especially with the economy the 
way that it has been and the struggles that we have had, to 
ensure that we are doing everything we can to protect the U.S. 
businesses that are playing by the rules.
    I could go on and on, because we have done so much in the 
last 2 years, but I think that one measure that will tell you 
the level of seriousness that we are taking on this, not only 
from Customs and Border Protection but also from ICE Homeland 
Security Investigations--is that this past year, in fiscal year 
2012, we dedicated more resources and spent more time on 
criminal investigations in commercial fraud than we did any 
time in my 26-year career, which started with 16 of those 26 
years being with U.S. Customs. So as for investigative hours 
and resources--we have spent a lot of time.
    We are using our best practices and experience that we are 
getting from our criminal investigations, and sitting down with 
Kevin's folks in his Office of Trade to actually say, ``OK, 
well, what are the criminal organizations trying to do and what 
loopholes and vulnerabilities are they trying to exploit? '' 
Then we share that information so we can generate additional 
targets and so forth.
    One of the big cases is ``Honeygate,'' we called it. It 
involved honey coming out of China. We changed, really, 
collectively, between our two agencies, the way that industry 
operates to this day.
    Senator Baldwin. Tell me a little bit about your metrics. 
Obviously, you do not inspect 100 percent, so how do we know 
how we are doing?
    Mr. McAleenan. In this area, I mentioned our compliance 
measurement effort, which does do that random sampling of trade 
coming across, looks for any violations in that, whether it was 
a mislabeling issue, fraud issue, improper classification, and 
so forth. And so we know from those assessments that we have 
well over 95 percent compliance across all trade. And also, 
those assessments help inform areas that are of higher risk.
    The other key metric we utilize is the number of 
participants in our Trusted Trade Program, the Customs Trade 
Partnership Against Terrorism (CTPAT), and an interrelated 
smaller program for those very large high-volume importers that 
have accounting practices that they have aligned with our 
collection process, called the Importer Self-Assessment 
Program. The CTPAT now account for 55 percent of the total 
trade. These are companies that we have validated their supply 
chain. We are very familiar with their security measures. We 
are very familiar with how they interact with Customs and the 
trusted relationship they have with CBP.
    So I think those are the two key metrics that we use to 
assess our trade fraud efforts and how compliant the trade 
community is.
    Senator Baldwin. Thank you.
    Mr. Chairman, I would like to submit two additional 
questions for the record, but I have run out of time.
    Chairman Carper. I will be happy to have you do that and 
ask our witnesses to respond promptly, if they would.
    Dr. Coburn has joined us. Please, Dr. Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Well, I apologize for not being here for 
your opening testimony and the questions that were there.
    First of all, let me personally thank you for your service. 
You do not get a lot of kudos. You get a lot of complaints but 
not a lot of kudos, and I just want to formally recognize your 
service and dedication to what you do.
    And I may ask some questions that have been asked. If they 
have been asked, just tell me and we will stop.
    One of the things I have heard is since we have had the 
discussions ongoing on immigration reform, the attempts at 
border crossings have increased--non-border crossings have 
increased. Is that accurate?
    Mr. Fisher. I am sorry, Senator. Could you repeat that, 
please?
    Senator Coburn. Yes. Since the last 3 months, since we have 
had a discussion ongoing in Congress about immigration reform, 
the reports I have from some of my contacts have said that the 
number of attempted crossings has increased. Is that accurate?
    Mr. Fisher. This particular year, yes, sir. We have seen an 
increase in attempted entries between the ports of entry. We 
are actually up in terms of apprehensions about 13 percent. The 
reasons and modus behind that are varied, some of which is 
hearing sequestration, some of which is hearing immigration 
reform, and some of it is hearing they just want to come and be 
joined with their families. There is a whole host of reasons 
behind that, sir.
    Senator Coburn. And I know you have had a lot of questions 
on metrics, and according to the testimony that 90 percent is 
what you are looking at in terms of control. What happens to 
the other 10 percent? Who we are seeing crossing the border now 
illegally, what percentage is non-Mexican, and other-than-
Mexican?
    Mr. Fisher. Senator, I will answer the second one first. It 
is approximately 30 percent. So when you look at the 
individuals that we are apprehending, approximately 30 percent 
of those individuals are from a country other than Mexico.
    Chairman Carper. Say that percent again. What percent?
    Mr. Fisher. It is approximately 30 percent, sir. About one-
third of individuals that we are apprehending this year are 
from a country other than Mexico.
    Senator Coburn. And of that 30 percent, what percentage are 
Latino but not Mexican? In other words, what percentage of 
people coming across the border are not from South America, 
indigent South Americans?
    Mr. Fisher. I do not have the exact number, Senator, but it 
would be very small. In other words, the vast majority of that 
30 percent are from three primary countries in Central America, 
Guatemala, Honduras, and El Salvador.
    Senator Coburn. Right. So will you get back to me on that 
number?
    Mr. Fisher. Yes, sir.
    Senator Coburn. OK. Thank you.
    The other question I have for you, you all each know more 
about your area than any Member of Congress. You are 
responsible for it. The ins and outs. If you were given the 
flexibility under the sequester to manage your areas of 
responsibility by prioritizing what is most important down to 
what is least important, would any of you have any difficulty 
doing that?
    Mr. Fisher. No, Senator.
    Senator Coburn. Anybody else?
    Mr. Alles. No, sir. I think we are working through the 
issues.
    Senator Coburn. Right. But the point is, regardless of what 
we have said in the past, you are the key people. What is most 
important, what is second most important, what is third most 
important. If we were to give you that flexibility, would that 
not make your job easier with sequester?
    Mr. McAleenan. Yes, sir. I think, unequivocally. The one 
area that we should note, at the office level, much of our 
budgets are made up of salaries and expenses.
    Senator Coburn. Right.
    Mr. McAleenan. So the flexibility is kind of diminished 
just by the percentage and the composition of the budget.
    Senator Coburn. But as a whole, you actually could be more 
effective under this sequester if we gave you the flexibility 
to manage your operations the way people in the private sector 
get to manage theirs when they are held responsible for an 
outcome. You would agree with that?
    Mr. McAleenan. That is a fair statement, Senator.
    Mr. Alles. Yes, sir. I would agree, too.
    Senator Coburn. Nobody disagrees with that.
    How many of you are familiar with what the GAO has done 
over the last 4 years in terms of looking at duplication and 
combining all the reports the Inspector Generals (IGs) have 
done and looking at duplication and waste and lack of metrics? 
Have you all read that?
    Mr. Fisher. Senator, I am generally aware of the effort, 
but I could not speak to it in any depth.
    Senator Coburn. Well, what I would suggest is you take 
those last three reports--they have now finished the entire 
Federal Government, each of your agencies are in there--and 
look at it. And what I would like for you to do is look at that 
and say, here is where we agree with them. Here is where we 
disagree. Here are the things we think they have made in terms 
of recommendations that are positive and we are going to act on 
it. Here are the things we think are a waste of our time. They 
may have some little savings, but it is not a good expenditure 
of dollars to go after those savings.
    If you all would do that for me, that actually puts a check 
for me back on GAO. They are not always right. They are pretty 
good, but they are not always right. So one of the things my 
staff and I get to learn is when we get feedback from you based 
on what their assessments are in your particular areas. And if 
you would do that for me, I think it would prove very 
beneficial for our Committee in terms of helping you.
    Our job, and I think Senator Carper has led exceptionally 
well on this, our job is to help you. It is not just to be 
critical. Our job is to say, what are our goals? Where is the 
money? How effectively are we doing it? And can we make any 
difference on this Committee in terms of streamlining, making 
you more efficient, and making you more effective?
    With that, I will submit some questions to the record that 
I would appreciate that you get back to me on. Thank you.
    Chairman Carper. Let me ask some questions, and initially, 
I am just going to ask you to raise your hand or not. How many 
think the border is far more secure than it was a half-dozen 
years ago? Raise your hand. [All raising hands.]
    Far more secure. How many think that we can do a whole lot 
more to improve it--a whole lot more? [All raising hands.]
    OK. How many think that we can do a good deal more? [All 
raising hands.]
    That is different than a whole lot.
    Senator Coburn. What is the difference between a good deal 
and a whole lot?
    Chairman Carper. There is a difference. A whole lot is a 
whole lot.
    Senator Coburn and I were once at a hearing on the Finance 
Committee and we had before us a bunch of witnesses who were 
talking about deficit reduction, something that he and I care a 
lot about. One of the guys who was testifying was the former 
Vice Chairman of the Federal Reserve, Alan Blinder. He was Vice 
Chairman when Alan Greenspan was the Chairman, and he talked 
about health care costs as the 800-pound gorilla in the room on 
deficit reduction. Unless we get our arms around health care 
costs rising, we are never going to really do a good enough job 
on deficit reduction.
    I asked him in the Q and A, what do we need to do in order 
to get health care costs under control? And he said, I am not a 
health economist. I am not an expert on this. Here is my 
recommendation. Find out what works and do more of that. Find 
out what works and do more of that. And later on, I suggested, 
well, maybe find out what does not work and do less of that, 
and he said, yes.
    We need to find out what works, and it has led to the 
improvement that you all have shown us today and talked about 
today. We find out what works and what we need to do more of. 
We need to understand, as well, what does not work so well, 
what has marginal value, and maybe do a little bit less of that 
in the budget-constrained world.
    I am told that we now spend more money on Border Patrol 
and, I think, on the folks at Customs and Border Protection, 
than we spend as a government on the Federal Bureau of 
Investigations (FBI), Secret Service, the Drug Enforcement 
Agency (DEA), Alcohol, Tobacco and Firearms (ATF), all 
combined. It is a huge amount of money, a huge investment that 
we are making. And we need to make sure that we are getting our 
money's worth out of those forces on the ground. What can we do 
as force multipliers in the air, on the sea, in terms of 
intelligence? So here is what I want to ask.
    Going back to what Alan Blinder told us, find out what 
works, do more of that, what else do we need to do? These VADER 
systems that we talked about, we have one of them. It is on 
loan. DHS does not even own it. It is on loan by, I think not 
by the DOD, but I think maybe by the company that developed it. 
I am told they cost about $8 million apiece. Can somebody 
confirm that for us?
    Mr. Alles. That is roughly correct, sir, yes.
    Chairman Carper. And can they be used--just talk about the 
number of platforms they can be used on.
    Mr. Alles. Well, the only platform we have it integrated on 
right now is the Predator. We are looking at manned platforms 
that would give us more flexibility. We have not done that work 
yet. The Army actually is doing some work on that right now. We 
are going to piggyback on that work, because they are doing it 
on an aircraft that is similar in type to ours. So when they 
finish that, we will try to piggyback on that same work.
    Chairman Carper. OK. Well, if I were a bad guy trying to 
get through with, whether it was drugs or trying to get through 
with people, I would certainly try to find out what the drone 
schedule is and the days that you are up, the days that they 
are not. Try to find out which one the VADER is on and the ones 
that are not.
    And one of the lessons that I took back with me is we need 
to resource the drones so that they can fly almost throughout 
the week, 24/7.
    The second thing, we need to figure out how the C-206-- a 
smaller airplane, older airplane--how can that be used 
effectively in this effort? Can the VADER be mounted on a C-
206? Does that make sense? Can a VADER or some other system be 
mounted on the lighter-than-air units that we have and we 
deploy in Afghanistan and other places along the border?
    Talk with us about which of those applications of 
technology actually make sense, could be cost effective, and 
enhance the effectiveness of the thousands and thousands of men 
and women that we have arrayed across our borders, from one end 
of the Mexican border to the other. General?
    Mr. Alles. So, from my standpoint on the VADER system, sir, 
as you noted, it is a lone system, so we would like to procure 
more of those systems and also integrate them on manned 
platforms.
    And then the other piece of this, too and I think you 
obviously saw the Cessna 206 when you were out there, is a low-
cost platform. The actual sensor on it costs probably five 
times as much as the aircraft. But we are looking at putting 
more of those sensors on lower-cost airplanes because it gives 
us better efficiencies and helps us in terms of our flying hour 
program. So it is a money saver for us.
    Chairman Carper. Let us just drill down on that, the C-206. 
I did not ask the cost of the drones, the cost of acquiring and 
operating them; we will leave that to another day. But you 
mentioned the VADER mounted on the drone might be about $8 
million.
    Mr. Alles. Yes, sir.
    Chairman Carper. The system that the surveillance system is 
on, the C-206 aircraft----
    Mr. Alles. That was about a million-dollar ball that is on 
the aircraft.
    Chairman Carper. All right. And the cost of the aircraft?
    Mr. Alles. I would have to get back to you----
    Chairman Carper. Just roughly. Under a million?
    Mr. Alles. Maybe a hundred-thousand.
    Chairman Carper. It is peanuts compared to what we spend 
around here.
    Mr. Alles. Yes.
    Chairman Carper. How do we figure out how to use the 206 in 
a way that complements the use of the drones and the lighter-
than-air?
    Mr. Alles. I think that also gets back to the operational 
integration piece, which is what we are really working on with 
VADER. That is the one we have to get right in the Arizona 
area. The Joint Field Command we have out there now is working 
very hard on that particular operational integration and 
starting to enjoy some success with it.
    Chairman Carper. All right. One of the things we have not 
talked about is intelligence, and I want to take maybe a minute 
on that. Before I do, you have over here Senator Landrieu, who 
chairs the Appropriations Subcommittee that deals with Homeland 
Security. This is the Committee of jurisdiction. We have a guy 
here who chairs Armed Services and has led that Committee, 
along with Senator McCain, for a long time. You have literally 
in this Committee, those who serve on this Committee and in 
other areas, some of the folks who can actually make sure that 
the additional resources that are needed can be provided.
    I do not know that we are ever going to get to that simple 
example that I cited earlier, where you figure out, do we have 
100 people approaching the border? Yes. Be able to say, yes, 
with some certainty, we do. Did 10 of them turn back? To have 
some certainty, yes, we can do that. We know how many people we 
apprehend out of that 100. And if it is 80, then it means 10 
got away. My real question is, is it a fool's errand to think 
that we can develop the technology, combine that with our 
ground resources, a multi-layered effort in technology, and 
actually be able to make those kinds of calculations? I think 
that is the metric that we would all say, I believe in that.
    And the other stuff that I think the Department is working 
on that I know just a little bit about--we talked about it here 
today and I have talked about it with my staff--I am not sure 
that is going to convince anybody that the border is really 
more secure.
    So is it a fool's errand to think that we can actually put 
together this multi-layered technology, human resources and so 
forth on the ground, in the air, lighter-than-air, different 
aircraft, different platforms, different kinds of sensors? Is 
it just not realistic, or is it realistic?
    Go ahead, Mr. Fisher.
    Mr. Fisher. Senator, it is realistic, and I think you have 
hit it right on the head. You are on the right track and we 
would love to work with you and your staff as we get smarter 
about what we are learning about the technology and what that 
gives us in terms of being able to report out those specific 
variables that you are talking about.
    Chairman Carper. Anybody else before I yield to Senator 
Levin?
    Mr. Alles. I was just going to make a comment, sir. I 
think, as Chief Fisher mentioned before, part of this, though, 
we are going to want to use the technology we have--VADER is an 
example, synthetic aperture radars or links are an example to 
help us characterize and decide where the investment makes 
sense.
    Chairman Carper. Yes.
    Mr. Alles. So to think that we are going to do it along the 
entire link, I mean, it would be fantastically expensive. So I 
think that would help us. I think that is an area we look at, 
as we talked before, about where it makes sense threat-wise.
    Chairman Carper. Good. As my dad always said, use some 
common sense and we will try to do that here.
    And I want to say again to Senator Levin, my heartfelt 
thanks for not just the great hospitality that you extended to 
me when I was up in Michigan along the Canadian border, but 
just to share your expertise and insights with me. It was a 
terrific visit. I really appreciate it.
    Senator Levin. Well, we appreciate your taking the time to 
come to the border with Canada, which is an amazing border in a 
lot of ways, and some of those ways you were able to personally 
witness, and we are just grateful that you would take the time 
to get kind of a hands-on experience of our borders, whatever 
borders there are.
    I want to just focus on the Northern border issue. This is 
what the GAO said in their report. A few years back, a number 
of us asked the GAO to report on border security, and this is 
some of what they said in their report. Historically, the 
United States has focused attention and resources primarily on 
the U.S. border with Mexico, which continues to experience 
significantly higher levels of drug trafficking and illegal 
immigration than the U.S.-Canadian border. However, the GAO 
says, the DHS reports that the terrorist threat on the Northern 
border is higher given the large expanse of area with limited 
law enforcement coverage. There is also a great deal of trade 
and travel across this border. While legal trade is 
predominant, DHS reports networks of illicit criminal activity 
and smuggling of drugs, currency, people, and weapons between 
the two countries.
    Now, there is a huge gap in terms of our resources that are 
allocated to the Northern border versus the Southwest border. 
There was growth, in the last 10 years, in the number of Border 
Patrol agents, which nearly doubled from 10,000 to 21,000--but 
that growth was concentrated at the Southwest border where 
almost all of the added agents were sent. So the added agents, 
10,600 went to the Southwest border.
    Now, there is a huge disparity there. We have tried to get 
into this at times. Despite the fact that the terrorist threat 
is greater at the Northern border than it is at the Southwest 
border, nonetheless, we see this huge gap in terms of 
resources, both the ones that began, were there before 2004, 
and the ones that have been added since.
    So, Mr. McAleenan, let me ask you, why is this? Given what 
the findings of DHS have been, that the terrorist threat is 
greater on the Northern border, the amount of trade is far 
greater--Canada is our No. 1 trading partner, and that means 
the risk to that trade is greater because there is more trade--
why this huge disparity? Why does it continue? In fact, why 
does it grow?
    Mr. McAleenan. Senator, thank you. I will let Chief Fisher 
speak to the significant percentage growth in Border Patrol 
agents on the Northern border in the past decade, but speaking 
for the ports of entry and the Office of Field Operations, you 
are correct. The encounters with terrorist watch listed 
individuals are higher on the Northern border than on the 
Southern border, but we are very focused on that threat. And 
our partnership with Canada has changed dramatically in the 
last 10 years, both in terms of our intelligence and 
information sharing, our benchmarking and our targeting 
approaches, and a whole series of programs in terms of joint 
Integrated Border Enforcement Teams that we participate on. We 
are co-located, working together. This is a serious focus for 
us, and I do not think at the ports of entry, for sure, the 
resource levels are in any way diminishing our ability to 
address our anti-terrorism mission.
    Senator Levin. OK. Mr. Fisher.
    Mr. Fisher. Senator, we had approximately 300 Border Patrol 
agents along the 4,000 miles in the Northern border prior to 
2011. We are at about 2,212 Border Patrol agents across that 
border. We maintain that level of staffing as our mandatory 
minimum staffing levels. And as Mr. McAleenan mentioned, our 
cooperation with Mexico, or, I beg your pardon, with Canada, 
has increased over the years, both in terms of our enforcement 
and intelligence sharing.
    But I will tell you, if we do have any specific 
intelligence on whatever that threat is which increases our 
capability between the ports of entry to respond accordingly to 
that threat, we will move Border Patrol agents from anywhere 
along the United States borders, whether it is North or South, 
to be able to mitigate and minimize the impact and risk that 
the threat may pose to this country.
    Senator Levin. So we rely basically on better intelligence 
cooperation between ourselves and Canada?
    Mr. Fisher. Senator, that is correct, not exclusively, but 
that is certainly a key indicator for us to be able to identify 
those threats, emerging threats, that may be coming toward our 
borders.
    Senator Levin. And we have better intelligence cooperation 
with Canada than we do with Mexico?
    Mr. Fisher. I would not necessarily qualify it as better. 
There are different programs that are set up independent of 
what our relationships are with those countries, things that 
are based on treaties, things that are based on what we can or 
cannot share. But I will tell you, what we do on the Northern 
border with Canada, although we may not do it in the same 
manner, we would certainly do that with our partners in Mexico, 
as well.
    Mr. Alles. Senator, I would just make the comment from my 
standpoint on the air side, we have a substantial air presence, 
but most of what I see security-wise up there really falls in 
our cooperation with ICE in terms of intelligence development, 
case development, and really targeted enforcement to provide 
security.
    Senator Levin. There are entry points. There are walking 
paths. There are boats. We have lakes up there that are huge 
where there is boating going on all the time. It seems to me 
that it is a much easier border to cross illegally than the 
Mexican border. We are building a fence where we have, what, 
seven or eight times as many agents there as we do on the 
Northern border. To say that the Northern border is porous is 
to exaggerate. The porosity, it is not porous, it is 
nonexistent in places. There are hills and mountains right 
along the border where people just walk across and back without 
any awareness of it.
    And what the GAO has found, and I think what the DHS has 
acknowledged, is that this border is a source of a greater 
terrorist threat than the Mexican border. It seems to me that 
this should be considered the No. 1 problem we have, more than 
illegal immigration, which we are acting on in so many other 
ways.
    My time is up. I do have a question that I will submit for 
the record, Mr. Chairman, about the so-called Administratively 
Uncontrolled Overtime (AUO). Has that been inquired about 
today? I will save that for the record, since we have 
apparently appropriated funds to continue that overtime, what 
the plans are of the agency in that regard. But, again, I will 
submit that. Thank you.
    Chairman Carper. Thank you, Senator Levin.
    Senator Baldwin, any other questions you would like to ask?
    Senator Baldwin. I will submit them for the record.
    Chairman Carper. OK. Thanks so much for joining us today 
and for your interest and participation.
    Senator Coburn, I have a couple more questions I am going 
to ask, but Dr. Coburn, do you have anything else you would 
like to add or take away?
    Senator Coburn. No.
    Chairman Carper. OK. Thank you.
    A few more and we will be out of here within 10 minutes, I 
promise.
    One of the things that struck me in the time I spent with 
Senator Levin up on the Canadian border was the work that we do 
with the Canadian Government, sharing resources, their ability 
to move across the border, Canadians into our country, us into 
theirs. They are working in a collaborative way in teams, the 
amount of intelligence that we share with one another. And we 
talk about force multipliers on the Southern border, on the 
Mexican border, what those might be. But one of the great force 
multipliers in this work that you all do is, obviously, 
intelligence. And if we are going to use the kind of VADER 
systems and other kind of air systems and marine systems to 
better allocate and deploy our ground forces on the border, one 
of the best ways to do that is intelligence.
    So I am going to ask you, if you can, to just compare for 
us the degree of helpfulness of information and intelligence 
sharing on the Northern border, compare that with what we have 
to work with on the Southern border. To the extent you can, 
compare and contrast. Is there anything we can learn for 
deploying our Southern resources on the Mexican border from 
what we are doing up North, sort of lessons learned? Please.
    Mr. McAleenan. I will start and defer to my colleagues for 
any additional response.
    I think what we are trying to do in terms of the ports of 
entry is really move our assessment of risk as far back in the 
travel cycle and supply chain as possible. So that involves 
getting intelligence from the intelligence community on the 
threat, the origin of the threat globally, how that threat 
might move toward us. And really, if you are looking at the 
Canada and Mexico collaboration, that is trying to understand 
who is trying to get into Canada and Mexico and to share 
information with them in terms of what we are seeing as the 
threat and to really benchmark what we call our targeting 
approaches. That is how we look at the data on people and 
things moving into the United States, similarly, into Canada 
and into Mexico, to try to pick out those people and goods that 
might present a risk.
    And so we are doing very similar things with both countries 
in terms of working together in their targeting centers with 
our National Targeting Center to share that information, to 
benchmark how we approach the threat, and to identify it. And 
that intelligence collaboration and sharing is going very well 
in both borders.
    Chairman Carper. Others, please.
    Mr. Fisher. Senator, thank you for the question. We 
continue to learn how important information and certainly 
intelligence is and our ability to protect this country. And as 
we learn things that we may have implemented on the Southern 
border in terms of collection or dissemination, we certainly 
try to apply that on the Northern border.
    But one of the most important characteristics, at least 
from our standpoint in implementing our strategy, is 
recognizing that, one, there is a convergence of transnational 
criminal organizations and terrorism. That is something that 
kind of changes the landscape in terms of how we have to 
continue to learn from DOD and others, the intelligence 
community, in terms of how they can support our ground agents 
on the field and being able to pre-deploy resources to be able 
to minimize risk. And one of the ways that we have understood 
how to do that better is to work with the intelligence 
community through our own Office of Intelligence and certainly 
through the Department and telling those analysts and 
collectors what is important to us.
    Historically, we never did that. We did not talk in terms 
of having priority intelligence requirements. Heck, we did not 
even have an intelligence cycle. So as we are starting to get 
smarter about that, we have identified what our intelligence 
are. And we took----
    Chairman Carper. So this reminds me of the old adage in 
business, ask your customer.
    Mr. Fisher. That is right. Yes.
    Chairman Carper. You are the customer.
    Mr. Fisher. Well, I think----
    Chairman Carper. One of them.
    Mr. Fisher. I grew up in an organization that I was always 
complaining as a Border Patrol agent that nobody is giving me 
any intelligence, right. And then when I got a little bit more, 
perhaps, wiser in my years and recognizing that nobody knew 
what I wanted because I never told them. And so this is kind of 
a common theme that was built within our new strategy that 
really says, OK, it is up to us to really understand what is it 
that we need.
    And, by the way, I cannot make the same mistakes that I did 
when I was running the Border Patrol Intelligence Division 
years ago, because when I found out--they said, hey, we need to 
know what your intelligence requirements are, I took a lot of 
smart people and we developed about a 30-pound binder and we 
handed them 247 intelligence requirements and then I sat back 
and waited, recognizing that this is not the way to do it, 
either.
    And so we are learning each and every day on how we work 
within the intelligence community, and we learn from our 
cooperation and efforts with the Department of Defense on how 
we can better do that. And we are, each and every day and each 
and every week, we are getting better about identifying what 
the intent and capability is of those individuals who wake up 
each and every day and think about nothing but to do harm to 
this country. That is our priority mission and we are getting 
better in that regard, sir, and I appreciate your leadership in 
helping us do that.
    Chairman Carper. Yes, you bet. Thank you. General Alles.
    Mr. Dinkins. Sir, I think you brought up a--I am going to 
jump in here, Randolph--but I think you brought up a really 
good point, because we have been talking a lot about the 
physical border and the security measures, and I can tell you, 
it has drastically changed, as you have seen. Like I said, I 
was in Detroit 10 years ago. If you had known that a person was 
going to cross with drugs, there was a good chance he was still 
going to get through because we did not have the resources or 
technology at the border to actually be able to run people's 
names. You might get the license plate run in time, and that 
was it. After 9/11, we shut it down by just running people's 
name. It caused a 12-hour back-up. Now, that same thing takes 
about 12 seconds. So that has changed.
    But, also, we have pushed the border out much farther with 
engaging our foreign counterparts and international partners so 
that we know the threat before they get here. Very shortly 
here, you will be able to--if somebody is sitting in a cave in 
a place that wants to do us harm hits ``enter'' on a visa 
security application--that is going to be vetted that night, 
and we will know the threat before we even schedule an 
interview at the consulate office. So technology has really 
changed a lot, as well as our international footprint which 
provides that intelligence. Because if I get investigative 
leads and I can tell Air and Marine about those leads; they are 
going to have better success at utilizing those limited 
resources and man hours to fly to make an interdiction.
    So, it is a continuous cycle that we create, and I think 
all four of us have dedicated 100 percent to it.
    Chairman Carper. OK. Do you want to add anything, General?
    Mr. Alles. I was just going to mention, we do share pretty 
heavily with the Mexican Government in terms of air tracks. We 
have Mexican officers in the Air and Marine Operations Center, 
so if we have nefarious tracks crossing either way, we 
coordinate interdictions on those tracks. So that is actually 
quite good cooperation.
    On the Northern side, it more falls to our links with 
Northern Command and the North American Air Defense Command.
    Chairman Carper. OK. This is a question that kind of flows 
from the work that Senator McCain and seven other Senators are 
doing, trying to lead the way to a thoughtful, comprehensive 
immigration reform proposal. A key requirement for us to be 
able to come to that kind of agreement is really based on what 
we are talking about here--our border is more secure. What is 
working? What is not working? What more can we do? You are our 
customer, in a sense, just like you are a customer of the 
intelligence agencies that you were talking about earlier.
    But my question, would comprehensive immigration reform 
make it easier to secure the border by creating some additional 
legal pathways for some--not all, but for some immigrants--thus 
making it a little easier to focus on the criminal threats? We 
think a lot about risk and trying to be sensitive to risk and 
deploying our resources where the risks are greatest, but how 
would you respond to that question? I do not care who goes 
first.
    Mr. McAleenan. I think, in a word, yes.
    Mr. Fisher. I agree, Senator. Yes.
    Chairman Carper. OK. General?
    Mr. Alles. Yes, sir. It certainly makes sense to me.
    Mr. Dinkins. Absolutely, sir.
    Chairman Carper. All right. OK. Let me just close with--
Tom, anything you want to say in closing?
    Senator Coburn. No. I want to talk to General Alles 
afterward.
    Chairman Carper. OK. All right. A thought or two in 
closing, just to, again, reiterate how much we appreciate your 
service and the service of those men and women with whom you 
work and lead. This is important work, important to our 
country. I believe we are making progress, and you have shown 
us some pictures that would certainly suggest that. The metrics 
that we are using, while they are imperfect, I think tend to be 
encouraging.
    I think one of the reasons why the apprehension is going up 
is the economy is stronger. Two, some folks who live to the 
South of us think that comprehensive immigration reform might 
just pass, and I think that is moving some people, as well.
    But in terms of the questions, are borders more secure than 
they have been in the past, I think it is clear that they are, 
and we have heard that again reiterated today. Are we doing 
everything that we can do? No. Are we doing everything that we 
should be doing? No. Are there a number of steps we can take to 
do an even better job? Yes, and you have given us some 
indication of what those might be.
    Do we have the ability to pay for them? Well, not really. 
We are running a budget deficit of $500 billion this year. The 
President's budget comes out today and it is designed to keep 
us on a path to rein in the deficit. But we need some 
additional revenues. We talked a little bit about how user fees 
might be helpful to enable us to deploy the resources that we 
discussed here today. And we had a chance to talk about what 
better intelligence and better use of intelligence can be 
helpful as a force multiplier.
    But I leave the hearing understanding the difficulty, the 
complexity of the challenges that we all face, not just you, 
but us, as well. But encouraged that we are learning. We are 
getting smarter and using pretty good common sense that will 
enable us to get us closer to the goal that we seek.
    One of my favorite sayings is, the road to improvement is 
always under construction, and that certainly applies here. But 
the road is improving, and we still have some work to do, and 
to the extent that we can work on it together, continue to work 
on it together, we are going to make a whole lot more 
improvement. And in doing so, I think we may lay the foundation 
for a thoughtful, comprehensive immigration policy that will 
actually reduce the desires and need for people to make these 
illegal entries into our country.
    With that having been said, the hearing record will remain 
open for 15 days for the submission of additional statements 
and questions. If you get some questions, and I am sure you 
will, please respond to them promptly and we will look forward 
to continuing to work with you.
    All right. With that, this hearing is adjourned. Again, 
thank you so much.
    [Whereupon, at 11:31 a.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 BORDER SECURITY: EXAMINING PROVISIONS IN THE BORDER SECURITY, ECONOMIC



        OPPORTUNITY, AND IMMIGRATION MODERNIZATION ACT (S. 744)

                              ----------                              


                          TUESDAY, MAY 7, 2013

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:30 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Committee, presiding.
    Present: Senators Carper, Landrieu, Baldwin, Heitkamp, 
Coburn, McCain, Johnson, Portman, and Paul.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. Good morning, everyone. The hearing will 
come to order. Dr. Coburn and I are delighted to welcome all of 
you today.
    This is the third of a series of hearings that this 
Committee is holding to examine the gains in security that have 
been made at our borders over the past decade and to review 
what impact immigration reform may have on those borders. 
During our two previous hearings, we heard testimony from 
experts, including some folks at this table today, and from 
frontline personnel about the dramatic improvements we have 
seen in portions of our southern border region since the last 
time that Congress debated immigration reform 7 years ago, in 
2006.
    In recent years, we have made substantial investments in 
border security. I believe those investments are for the most 
part paying off. In 2006, the Border Patrol was averaging more 
than 1 million arrests of unauthorized immigrants each year--1 
million per year--and the unauthorized population living in the 
United States had reached an all-time high of 12.5 million 
people.
    Since then, we have added more than 9,000 Border Patrol 
agents, bringing their overall staffing level to more than 
21,000. We have also constructed some 600 miles of new fencing 
and deployed sophisticated cameras, sensors, and radars across 
a good part of our border with Mexico. In part because of these 
investments, apprehensions of individuals attempting to cross 
our borders illegally are at a 40-year low, and the 
unauthorized population in our country has actually decreased 
by about a million people.
    Despite all these developments, we are still facing 
challenges. All too often, however, these challenges have deep 
roots in our own domestic policies and the socio-economic 
conditions of our neighbors. One of our witness noted that we 
look to the border to solve problems that do not originate 
there. I could not agree more. We need to focus on the 
underlying causes of illegal immigration and drug smuggling.
    The expert and frontline witnesses at our hearings earlier 
this year were all in agreement that passing immigration reform 
would make our borders more secure. It will do so by addressing 
several of the root causes of illegal immigration, providing 
workers and employers with legal avenues to fill the jobs that 
our economy needs to thrive, and allowing our border officials 
to focus their efforts on criminals rather than on economic 
migrants.
    I believe that the bill we are examining today represents a 
significant step toward achieving that goal. It will increase 
our security even as it provides a fair, practical, and tough 
path to citizenship for many--but not all--of the millions of 
people living in the shadows today. I want to commend eight of 
our colleagues--especially Senator John McCain, a Member of our 
Committee--who have worked tirelessly, and I think fearlessly, 
to craft the bill on which we are discussing today. I look 
forward to debating that bill on the Senate floor later this 
spring.
    The goal of today's hearing is to review the bill's border 
security provisions, which are in this Committee's 
jurisdiction. We have before us an excellent panel of witnesses 
from frontline agencies. We have asked the witnesses to give us 
their assessment of the bill, to tell us how they would 
implement the border provisions, and to let us know what they 
believe they may need--or that we may need to add or to change 
to that bill.
    There is an old Chinese proverb--and some of you have heard 
me say this before--that goes something like this: ``Tell me, I 
will forget. Show me, I may remember. Involve me, and I will 
understand.'' That is why I have tried to visit as much of the 
border region as I can. Three years ago I visited the 
California border--many of you have, too--and over the past 3 
months, I have been privileged to go down to the border in 
Arizona with Senator McCain, Representative Michael McCaul, who 
chairs the House Committee on Homeland Security, and with Janet 
Napolitano, our Secretary of the Department of Homeland 
Security (DHS). I have been up to the Canadian border with 
Senator Carl Levin. We have been over to Texas just in the last 
week checking out some of the area in the eastern portions of 
that country. We have a lot of people coming across the border 
that are not from Mexico. They are coming from places other 
than Mexico, as you know.
    But I have personally witnessed the challenges that our 
brave men and women working on the frontlines face every day. 
Some of you have, too. We have witnessed the terrain they are 
dealing with that varies widely along the border region, from 
the dense urban landscape of the border near San Diego, to the 
desolate and rugged desert and mountains of Arizona, to the 
lush vegetation and winding lengths of the Rio Grande Valley in 
Texas. We have some places along the border, on the Rio Grande, 
where we actually looked to the north was Mexico, and you 
looked to the south was Texas. A pretty amazing realization, 
and lush, almost hard to penetrate vegetation along much of 
that river.
    Based on what I have seen, I believe there is no one-size-
fits-all solution for securing our border. The high-tech radars 
that work so well in Arizona today will not penetrate much of 
the dense foliage along the Rio Grande in Texas that I saw last 
week. The drones that the Customs and Border Protection (CBP) 
flies work great in some areas, but can barely fly in others 
when the winds exceed 15 knots, which is often. Achieving the 
goal of persistent surveillance set by the bill we are 
examining today, then, will be challenging and costly. However, 
it is not impossible.
    There are, for example, a number of common-sense steps that 
we can take to get better results along our borders. One of 
them should be identifying and deploying what I call force 
multipliers that are appropriate for the different sectors 
along our border. In some parts of the border, these may be 
advanced radar systems on drones. In others, it may be camera 
towers or systems that are handheld or mounted on trucks. We 
need to systematically identify the best technologies with your 
help and those of your colleagues so that we will make our 
frontline agents more effective and provide them with the help 
that they need to be more successful in a cost-effective way.
    One specific thing I have seen firsthand is that an 
aircraft without an advanced radar sensor onboard to help 
detect illegal activity on the ground is of very little value. 
Far too many of the aircraft we deploy in support of the Border 
Patrol are not fitted with cameras or sensors that have been 
proven effective. In McAllen last week, where I visited, we are 
flying three different types of helicopters, but only one of 
them is outfitted with these kinds of technologies. The other 
two are largely ineffective. We have to be smarter than this.
    By comparison, in Arizona I saw an inexpensive single-
engine C206 airplane that had been fitted with an advanced 
infrared camera system, which had proven to be extremely 
effective and inexpensive to operate. However, the Border 
Patrol has 16 more of these C206 aircraft that do not have any 
advanced sensors on board and are barely used. In fact, they 
are almost worthless. We need to fix that. And it is not all 
that expensive. We also need to continue to develop and deploy 
cost-effective technologies, such as handheld devices that I 
have seen that allow Border Patrol agents to see in the dark or 
enable our officers at our ports of entry to more efficiently 
process travelers and goods.
    Investing in our ports of entry will also be an incredibly 
important part of improving border security and our economy as 
well. I am pleased, then, that the proposed legislation we are 
discussing would provide some 3,500 new officers at legal 
border crossings nationwide. These officers represent a 
worthwhile investment for the country, helping to secure our 
borders even as they facilitate the trade and travel that our 
economy so badly needs. These 3,500 new officers cost a fair 
amount of money, and we have an obligation to figure out how to 
pay for that. And I believe those who have been working on this 
legislation that is before us today have been working on that, 
and the Administration has, too. There are some good ideas. 
Hopefully we will implement those.
    However, there are some things that I believe may be 
missing from the immigration reform bill. I plan to work with 
all of our colleagues here in the Senate to address them. One 
of the largest issues we are facing today is growing 
unauthorized immigration from Central Americans who transit 
through Mexico. I want to hear from our witnesses about what we 
can do to address this issue, not just address the symptom of 
the problem, which I saw firsthand in a detention center with 
1,100 mostly Salvadorans, Guatemalans, and Hondurans, a few 
Mexicans, last week in Texas. One thing that we may need to 
explore is how to make it easier for our border officials to 
work with and train their Mexican counterparts in order to help 
Mexico secure its own borders.
    Finally, I also believe that the Department of Homeland 
Security needs to do a much better job of measuring its 
performance at our borders and that these performance measures 
must be made available to Congress and to the American people. 
If we have not heard anything else in these hearings before, we 
need to be able to measure what we are doing, what you are 
doing. We need to be able to do that in an objective way that 
people understand, that we understand, and that you understand.
    The bill we are discussing today would make one such 
measure--we call it the ``effectiveness rate''--public. And 
while this is a good first step, I believe there are a number 
of other metrics concerning our activities at and between the 
ports of entry that should also be made publicly available. I 
look forward to exploring these questions with our panel and 
believe our country stands to benefit enormously from the 
tough, practical, and fair policies laid out in this bill. I 
especially look forward to working with Dr. Coburn and all of 
our colleagues on this Committee.
    Dr. Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you. I want to welcome you all here. 
I am excited to hear the discussion and interchange between 
what our Inspector General (IG) has said are problems and the 
answers to those problems.
    I think the Immigration and Customs Enforcement (ICE) and 
Customs and Border Protection have a difficult job, oftentimes 
thankless, so I want to thank you now for what you do. It is 
hard.
    I am concerned with the immigration bill coming forward and 
the additional responsibilities that are going to be placed 
through that bill, if it were to become law, on the capability 
of the agencies to actually carry it out. And the reason I am 
concerned is because there are so many areas where we are not 
effective today. And although we have an immigration problem, 
what we really have is a border control problem and a visa 
problem and a guest worker problem. And it is important that we 
fix the real disease, not the symptoms. We do not have a secure 
border today, and we know that by the apprehensions. Even 
though they are less, it is still not secure. And I have a lot 
of concerns coming forward with the immigration bill. We will 
wait and see what happens in the markup. I think we made a 
mistake and we should have asked for sequential referral on it, 
because so much of it is going to impact the agency that is 
under the direction of this Committee.
    Nevertheless, I am very appreciative of the hard work of 
those giving testimony today, and I especially want to thank 
Anne Richards for her hard work and the outlining that she has 
done. We have some other concerns, especially on the drone 
program. We have inquired and not received adequate answers yet 
in terms of the privacy protections. We have had that letter in 
for, I think, over a month and have not gotten appropriate 
answers or satisfactory answers to those questions. And that is 
one of the things that has to be a part of any drone program.
    I look forward to your testimony. Again, I thank you for 
your efforts. And I think what Senator Carper has put forward 
is we really want to work as a Committee to help you accomplish 
your jobs, not throw up roadblocks but actually find out what 
the real problems are, what we can do about it, but also hold 
you accountable for the things that you can be doing that you 
are not doing today as outlined by the IG.
    So thank you, Senator, and I appreciate our panelists.
    Chairman Carper. Thank you.
    Let me just dovetail, before I introduce our witnesses, on 
what Dr. Coburn has just said. Some of you have heard me tell 
this story before, but most of you have not.
    About a year or two ago, I was walking into the Special 
Olympics basketball tournament in Delaware. We were having it 
at the University of Delaware Bob Carpenter Center. And I 
walked in with one of the best high school basketball coaches 
in our State. We were walking in and I said to him, ``Coach, 
you have been doing this for a long time, coaching basketball. 
Who are the best players? Who are the best players on the team? 
Is it the person who is the best shot, the best rebounder, the 
best dribbler, the best passer? Who in your mind is the most 
valuable player?''
    And he said, ``The most valuable player on every team I 
have ever coached are the players who make everybody else 
better.''
    Think about that. The most valuable player on every team he 
has ever coached are those who make everybody else on the team 
better.
    We do a lot of oversight on this Committee and I think we 
are pretty good at it, getting better. But part of our 
responsibility is to find out how we make you better and the 
people that work with you better, the thousands of people that 
are down on the Mexican border, from California all the way 
over to the Gulf of Mexico and all up on the northern border as 
well. How can we make those people, your colleagues, better? 
That is what we are about.
    All right. With that having been said, I am going to 
introduce our witnesses. Our first witness is the Hon. David 
Heyman, Assistant Secretary for Policy at the Department of 
Homeland Security. Nice to see you. As head of the Office of 
Policy, Mr. Heyman leads a team of experts to provide strategy 
and policy development for the Department. Prior to his 
appointment in 2009, Mr. Heyman served in a number of 
leadership positions in academia, government, and the private 
sector.
    Our second witness is Kevin McAleenan. Acting Deputy 
Commissioner of U.S. Customs and Border Protection. In this 
capacity, Deputy Commissioner McAleenan is the chief operating 
official of Customs and Border Protection. He previously served 
as the Acting Assistant Commissioner of the agency's Office of 
Field Operations, leading its port security and trade 
operations. Welcome.
    Our third witness is Michael Fisher--nice to see you, sir--
Chief of the U.S. Border Patrol. Chief Fisher is responsible 
for planning, coordinating, and directing enforcement efforts 
to secure our Nation's borders. Prior to his current position, 
Chief Fisher served in a number of leadership positions within 
the Border Patrol, which he first joined in 1987. The Chief is 
joining us today for questions and answers and will not be 
giving an oral statement.
    Our next witness is Daniel Ragsdale, Deputy Director and 
Chief Operating Officer for U.S. Immigration and Customs 
Enforcement. Prior to this assignment, Mr. Ragsdale served as 
Executive Associate Director for Management and Administration 
at the agency. Previously, Mr. Ragsdale worked at the former 
U.S. Immigration and Naturalization Service's Office of General 
Counsel and served as an attorney in New York and in Arizona.
    Our final witness is Anne Richards, Assistant Inspector 
General for Audits at the Office of the Inspector General 
within the Department of Homeland Security. She joined the 
Office of Inspector General in 2007. She was previously 
Assistant Inspector General for Audits at the U.S. Department 
of Interior from 2005 to 2007. And from 1984 to 1999, she 
worked with the U.S. Army Audit Agency.
    I want to thank all of our witnesses for being here, and we 
will now turn to Assistant Secretary Heyman for his opening 
statement. Please proceed. Your entire statement will be made 
part of the record, and we look forward to responding and 
asking questions. Thank you. Thanks for joining us.

 TESTIMONY OF HON. DAVID F. HEYMAN,\1\ ASSISTANT SECRETARY FOR 
          POLICY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Heyman. Thank you, Chairman Carper, Ranking Member 
Coburn, and Members of the Committee. It is my distinct 
pleasure to be here today, this morning, along with my 
colleagues from ICE and CBP and our Inspector General's Office. 
It is also almost 4 years exactly to the day since this 
Committee gave me the honor and privilege to serve our Nation 
here at the Department of Homeland Security. Thank you for your 
continued support.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Heyman appears in the Appendix on 
page 322.
---------------------------------------------------------------------------
    I would like to begin by commending the work of the 
bipartisan group of Senators who have put forward the current 
bill that we are discussing today. We all recognize that our 
immigration system is broken and that we can no longer ignore 
the problem. We need a system that meets the needs of law 
enforcement, businesses, immigrants, communities, and our 
economy. This legislation will attract skilled workers, 
encourage economic growth, and bring persons living unlawfully 
out of the shadows, making them right with the law, ensure that 
they pay penalties and back taxes and regularize their status. 
I applaud the Congress' efforts, and I look forward to 
continuing to work with you on this issue.
    The focus of this hearing is border security and how it 
relates to this bill. One of the principal missions of the 
Department of Homeland Security is to secure our Nation's 
borders, to prevent the illegal entry of people, drugs, 
weapons, and contraband while expediting legitimate trade and 
travel. I think it is important for the public to appreciate 
the extraordinary breadth and vitality of our U.S. borders and 
the work that DHS does every day securing them. So let me begin 
by describing an average day at our borders.
    On a daily basis, DHS processes over 1 million inbound 
travelers entering the United States by air, land, and sea. We 
pre-screen over 2 million passengers before they fly into, out 
of, within, or over the United States. We patrol over 3.4 
million square miles of U.S. waterways and 5,000 miles of 
diverse terrain on our northern and southern borders. We screen 
all cargo coming to and entering the United States. We manage a 
Trusted Traveler program with over 1 million individuals 
enrolled. We process well over 700 vessels in the maritime 
environment delivering goods to our businesses, homes, and 
communities. And we verify the identities and vet hundreds of 
thousands of visa applicants and individuals seeking to enter 
the United States every day.
    In the process of all of this work, ICE, CBP, and our U.S. 
Coast Guard will seize over 20,000 pounds of drugs at or near 
our ports of entry. We stop over half a million dollars daily 
of counterfeit currency from entering our financial system. Our 
Homeland Security Investigations (HSI) unit will arrest over 
100 individuals who have violated immigration or customs laws. 
And we will remove and return an average of 1,200 individuals 
daily who are unlawfully present. That is what we do daily, 24/
7, 365 days a year.
    It is essential to note, however, that the way we manage 
border security today has changed significantly over the past 
10 years. During the last 4 years in particular, the Obama 
Administration has made crucial investments in border security, 
adding personnel, improving technology and strengthening 
infrastructure.
    As Secretary Napolitano has previously stated, our borders 
have never been stronger.
    First, we have made our ports of entry much more efficient, 
facilitating lawful trade and travel.
    Second, we have expanded our partnerships with the Federal, 
State, and local partners and territorial law enforcement as 
well as with the private sector.
    Third, internationally we continue to improve partnerships 
to deter illegal smuggling and trafficking and improve 
intelligence and information sharing so that we can identify 
threats well before they reach our shores.
    The numbers speak for themselves. In 2004, the Department 
had a total of 10,000 Border Patrol agents. Today we count 
21,000. At the southwest border, we have increased our Border 
Patrol agents by nearly 94 percent. And in the northern border, 
we have 2,200 Border Patrol agents. We have increased the 
number of CBP officers (CBPOs) who secure the flow of people 
and goods into our Nation to over 21,000 officers, up from 
17,000 in 2003.
    As my colleagues with me today will tell you, these 
enhancements have resulted in greatly improved enforcement 
procedures, trade facilitation, and outcomes.
    In order to support a modern immigration system, the 
Department also understands that we must have the ability to 
effectively track not only who enters our country, but also how 
and when they exit. For two decades, the Federal Government has 
worked to obtain accurate and timely data on individuals who 
have overstayed their period of admission to the United States.
    However, the United States did not build its border, air, 
and immigration infrastructure with exit processing in mind. 
Airports do not have designated exit areas for departing 
passengers or specific checkpoints where a passenger's 
departure is recorded by an immigration officer, as you have 
seen in other countries. So it has been a challenge. Even so, 
over the past decade, DHS piloted various programs in 15 
airports to try to achieve such a system. We found that the 
limitations of existing technology plus the lack of 
infrastructure for departing passengers would drive the cost of 
a program to nearly $3 billion or more, while disrupting air 
travel for passengers and airlines alike.
    Secretary Napolitano found that to be unsatisfactory, and 
in 2010, she directed the Department to enhance the existing 
exit system to a level of fidelity equal to or nearly equal to 
a biometric system while continuing to pursue a more cost-
effective solution in the future.
    Over the past 3 years, I am pleased to say that the 
Department has taken steps to implement affordable measures to 
achieve those goals. Through enhancements to our current 
system, which electronically matches the information on an 
individual's passport at arrival and departure, DHS can now 
identify and target for enforcement those who have overstayed 
their period of admission and represent a public safety/
international security threat. We take action against those, 
and, moreover, we continue to move forward with building a 
biometric system and advance the requisite technologies to be 
integrated into the system when it is cost-effective and 
feasible to do so. This marks a significant step forward.
    Let me conclude by saying that over the past several years 
the Department has made substantial gains in border security. 
We have significantly reduced the flow of illegal immigration. 
We now have a historic opportunity to strengthen our economy, 
improve our security, and address illegal immigration. It is 
time for common-sense reform of our immigration system.
    I thank the Committee for their work on this today. I look 
forward to working with you and to answering your questions. 
Thank you.
    Chairman Carper. Thanks, Mr. Heyman. Mr. McAleenan.

TESTIMONY OF KEVIN K. MCALEENAN,\1\ ACTING DEPUTY COMMISSIONER, 
U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. McAleenan. Good morning, Chairman Carper, Ranking 
Member Coburn, and distinguished Members of the Committee. 
Thank you for the opportunity to be here today and appear 
before you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McAleenan appears in the Appendix 
on page 322.
---------------------------------------------------------------------------
    On behalf of the men and women of U.S. Customs and Border 
Protection, Chief Fisher and I appreciate the Committee's 
leadership and commitment to ensuring the security of the 
American people, and we look forward to discussing the progress 
we have made in strengthening the border and how comprehensive 
immigration reform will build on our successes and improve the 
security and safety of the United States.
    With your support, CBP has made historic investments in 
border security, adding more personnel, technology, and 
infrastructure; making our ports of entry more efficient to 
lawful travel and trade; deepening partnerships with Federal, 
State, tribal, local, and international law enforcement; 
improving intelligence and information sharing to identify 
threats sooner; and strengthening entry procedures to protect 
against the use of fraudulent documents. We have deployed 
proven, effective technology to the border, tailored to the 
operational needs of our agents on the ground, and strengthened 
our air and marine interdiction capabilities.
    Today, after 10 years of investments in training and 
equipment and improved information sharing, our border is more 
efficiently managed and stronger than ever before.
    The framework articulated in the comprehensive immigration 
reform bill has the potential to advance these efforts further. 
The bill would continue to strengthen security at our borders 
as well as it would hold employers more accountable if they 
knowingly hire undocumented workers. It would also modernize 
our legal immigration system, providing lawful pathways for 
important categories of workers for our economy. CBP will 
continue to work with Congress on these much-needed reforms 
that will help make our border more secure.
    We are now more capable than ever in our efforts to secure 
the border between ports of entry. We have doubled the number 
of Border Patrol agents; deployed surveillance systems, both 
static and mobile; we have improved intelligence collection and 
provided critical situational awareness in support of our 
agents and officers on the ground.
    Primary fence and vehicle barricades in strategic locations 
have limited the options available to smuggling organizations 
to operate, and aerial platforms with advanced technology have 
substantially increased situational awareness, enhancing the 
way we deploy our resources on the ground and leading to 
increased operational effectiveness on the southwest border.
    Additionally, over the past 2 years, advanced assessment of 
enforcement data has produced programs such as the Consequence 
Delivery System, which has allowed us to reduce the percentage 
of apprehensions that result in a voluntary return from 41 
percent in 2011 to 22 percent in 2012. Moreover, Consequence 
Delivery has contributed to the reduction in the overall rate 
of recidivism from a 6-year average of 24 percent to 12 percent 
today.
    At our ports of entry, we have increased the number of CBP 
officers facilitating the secure flow of people and goods into 
our Nation from approximately 17,000 customs and immigration 
inspectors in 2003 to more than 21,000 CBP officers and 2,300 
agricultural specialists today.
    In fiscal year (FY) 2012, CBP officers arrested 7,700 
people wanted for serious crimes, including murder, rape, 
assault, and robbery. Our officers also stopped nearly 145,000 
inadmissible aliens from entering the United States through our 
ports of entry.
    To build on these successes, the Administration's fiscal 
year 2014 budget includes a request for 3,477 new CBP officers. 
Of this amount, 1,600 are requested through appropriated 
funding, and legislative changes to user fee collections are 
recommended to fund an additional 1,877 officers. These new 
officers will support economic growth and promote the creation 
of new jobs.
    A recent study released by the Center for Risk and Economic 
Analysis of Terrorism Events at the University of Southern 
California has found that an increase in staffing at ports of 
entry has an impact on wait times and transaction costs and, 
therefore, on the U.S. economy. According to the study's 
results, the new CBP officers supported in the fiscal year 2014 
budget request could generate an estimated 115,000 new jobs 
each year and increase the gross domestic product (GDP) by up 
to $7 billion.
    To build on these successes, efforts to strengthen security 
at our borders must continue as threats evolve. This bill will 
enable CBP to continue to expand the use of proven 
technologies, to secure the land and maritime borders, 
strengthen and enhance capabilities at ports of entry, and 
combat illicit border activity. Immigration reform will allow 
us to build upon the progress we have already made and 
strengthen our ability to assure a safe and thriving border.
    Thank you once again for inviting us to appear today. Chief 
Fisher and I welcome the opportunity to discuss the significant 
progress that CBP has made in strengthening our Nation's 
borders and answering any questions you may have. Thank you.
    Chairman Carper. Thanks very much.
    Chief Fisher, I understand you are not here to testify. I 
would just ask: Do you approve this message?
    Mr. Fisher. Without reservation, Chairman.
    Chairman Carper. Thanks very much. OK, good.
    All right. Mr. Ragsdale, you are on. Thanks. Welcome. Glad 
you are here.

   TESTIMONY OF DANIEL H. RAGSDALE,\1\ DEPUTY DIRECTOR, U.S. 
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Ragsdale. Thank you. Good morning, Chairman Carper, 
Ranking Member Coburn, and Members of the Committee. Thank you 
for the opportunity to testify today on the ongoing efforts to 
adopt important reforms to our immigration system.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ragsdale appears in the Appendix 
on page 322.
---------------------------------------------------------------------------
    ICE is the largest investigative agency in DHS and the 
second largest in the Federal Government. The men and women at 
ICE every day play a critical role in securing the border and 
carrying out smart and effective immigration enforcement 
policies.
    Since its creation 10 years ago, ICE has made tremendous 
strides and realized considerable law enforcement results. For 
example, ICE's Homeland Security Investigations has made over 
34,000 criminal arrests in fiscal year 2012. This record number 
represents an increase of nearly 30 percent over 2009. Many of 
these convictions came in areas directly tied to our border and 
our Nation's immigration system, namely, document and identity 
fraud, customs violation, human smuggling, and trafficking.
    ICE HSI has also developed the Illicit Pathways Attack 
Strategy (IPAS). This initiative supports the Strategy to 
Combat Transnational Organized Crime by focusing on 
international organizations engaged in narcotics, weapons, 
human smuggling and trafficking, cyber crime, and illicit 
finance.
    ICE has also set records in our civil immigration 
enforcement. We have done this by setting and carrying out 
smart, clear priorities. For instance, this year ICE's 
enforcement and removal operations removed a record number of 
individuals from the country. Fifty-five percent of those 
individuals, more than 225,000, had been convicted of felonies 
or misdemeanors. Yet another record of 96 percent fell into our 
full priority categories. These successes could not be achieved 
without the implementation of smart and effective and efficient 
policies issued by Secretary Napolitano and Director Morton.
    We were also proud of our key partnerships across the 
Federal Government. For example, I note ICE's Office of 
Professional Responsibility's (OPR) ongoing and strong 
relationship with our colleagues at CBP. For example, in 2010, 
ICE and CBP entered into a Memorandum of Understanding (MOU) 
regarding investigations into CBP employee misconduct. This 
collaboration was not available before the MOU and has 
solidified ICE's commitment to fostering CBP's awareness and 
involvement into criminal investigations involving CBP 
employees. Our existing relationship has laid the groundwork 
for continued success in the critical area of ensuring the 
integrity of the workforce at the border. Maintaining this 
relationship will be critical following any reforms that 
involve increased staffing levels at the border.
    In addition, ICE plays an important role in investigating 
cases referred from CBP. Since fiscal year 2009, referrals have 
increased 4.1 percent at the ports of entry and 25 percent 
between the ports of entry. This relationship between our two 
agencies has made America safer.
    All of these successes are the result of reasonable 
immigration policies and priorities. Even at this time of 
budget uncertainty, we are using our resources in a smart, 
effective, and responsible manner. In order to build on these 
gains and further enhance national security, public safety, and 
border security, we must update our immigration laws.
    The adoption of reforms like those in the current bill will 
allow our agents and officers to better focus on those who 
threaten public safety, border security, and provide us the 
tools we need to crack down on those who cheat the system by 
hiring illegal labor.
    We at ICE look forward to working with you to modernize our 
immigration laws in a manner that strengthens the system. Thank 
you again for the opportunity to testify, and I look forward to 
answering any questions you have.
    Chairman Carper. Mr. Ragsdale, thanks very much.
    Ms. Richards, good to see you. Please proceed.

 TESTIMONY OF ANNE L. RICHARDS,\1\ ASSISTANT INSPECTOR GENERAL 
  FOR AUDITS, OFFICE OF INSPECTOR GENERAL, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. Richards. Good morning, Chairman Carper, Ranking Member 
Coburn, and Members of the Committee. Thank you for inviting me 
to testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Richards appears in the Appendix 
on page 328.
---------------------------------------------------------------------------
    You asked that we focus on the steps we believe the 
Department will need to take to ensure that the metrics in the 
Border Security, Economic Opportunity, and Immigration 
Modernization Act are verifiable and enforceable. In preparing 
our testimony, we reviewed the results of audits and 
inspections of both border security and immigration programs. I 
will highlight only a few of those reports in my statement this 
morning.
    In the last 10 years, DHS has made progress in coming 
together as a Department and in accomplishing its fundamental 
missions, including securing our borders. However, numerous 
challenges remain.
    To implement this proposed legislation, DHS will need to 
fully assess its current status, methodically identify needs 
and requirements, and meticulously plan and execute future 
acquisitions and operations. This effort will require both time 
and resources, but ultimately the Department should be able to 
master this challenge.
    Today I will highlight three overarching issues that we 
identified in our audits and inspections that the Department 
will need to address to achieve the goals and standards set 
forth in this act: data reliability, planning, and systems 
modernization.
    The first issue I would like to discuss is data 
reliability. To evaluate its performance and carry out certain 
actions in the proposed act, DHS will need complete, accurate, 
and up-to-date information. In our reviews, we identified many 
programs and systems that did not have complete and accurate 
data. We also identified instances in which DHS did not have 
data that it needed from other entities.
    For example, in a December 2011 report, we determined that 
ICE officers making decisions about detentions or release of 
criminal aliens did not always maintain accurate and up-to-date 
information in the case management system. Late last year, we 
reported that in the Systematic Alien Verification for 
Entitlements Program (SAVE), immigration status information was 
sometimes outdated and erroneous, so some people were 
mistakenly identified as having lawful immigration status when 
they did not have it. This could mean that some individuals 
would be given benefits that they were not entitled to receive.
    In our audit of the Free and Secure Trade (FAST), program, 
we found that CBP could not ensure that Mexican participants 
are low risk because Mexico does not share information to 
assist CBP in continuously vetting and monitoring participants' 
eligibility. Also, ineligible drivers may have continued to 
participate in the program because CBP used incomplete data for 
the continuous vetting process.
    The second overarching area the Department needs to address 
is planning. To fully accomplish the actions laid out in the 
act, such as increased surveillance on the southern border, the 
Department will need to have an effective planning process to 
identify operational requirements. For example, the act 
requires 24/7 monitoring of the border by unmanned aerial 
systems. The Department will need the operating requirements, 
including knowing the necessary quantity of aerial vehicles, 
ground support, maintenance, fuel, and where those resources 
will be needed. The Department has established directives and 
policies for planning, but does not yet have detailed plans 
completed for unmanned aerial systems.
    Last, the Department will need to address some longstanding 
business and information technology (IT) systems challenges and 
continue to pursue additional technologies to address border 
security issues. Although DHS is taking steps to upgrade and 
integrate its business and IT systems, including those related 
to immigration, it has not yet succeeded in fully transforming 
them.
    For example, in a report issued in late 2011, we noted that 
the U.S. Citizenship and Immigration Services (USCIS)' 
transformation has been delayed and that it continues to rely 
on a paper-based process to support its mission.
    In addition, DHS needs to seek out and adopt new 
technologies that will take into account the needs of various 
components and enhance its ability to secure our borders. Last 
year, in reviewing CBP's Strategy to Address Illicit Cross-
Border Tunnels, we concluded that it had not been able to 
identify any existing effective tunnel detection technology. 
CBP is actively working to identify new solutions for tunnel 
detection.
    We have identified a number of challenges that DHS must 
overcome to secure our borders and establish effective 
immigration policies and processes. Some of these challenges 
are a result of differing legacy systems and programs that need 
to be integrated and coordinated among the components and with 
stakeholders outside of the Department. Other challenges are 
related to inadequate strategic planning, performance measures, 
and data and information that cannot be relied on to make sound 
decisions.
    Based on the Department's and the components' responses to 
our numerous reports, it is clear that they are diligently 
working to address these issues. However, it takes time to 
correct the underlying conditions. Competing and changing 
priorities and funding uncertainties also affect the 
Department's ability to address these issues. For these 
reasons, overcoming these challenges will take considerable 
effort. But we believe that the Department will continue to 
improve and achieve its goals. The Office of Inspector General 
will continue to work with DHS and Congress on these issues. 
Our goal remains the same: to develop solutions that strike a 
balance between protecting the integrity of mission 
accomplishment and fostering innovation that increases the 
Department's transparency, efficiency, and effectiveness.
    Mr. Chairman, this concludes my prepared remarks. I welcome 
any questions that you or the Members may have.
    Chairman Carper. Ms. Richards, that was very helpful 
testimony. Thank you. Thank you all.
    I want to just go back. I think Dr. Coburn mentioned the 
words ``underlying illness,'' not just the need for us to 
address symptoms of problems, folks that are undocumented 
coming across our borders, but coming here documented and 
staying beyond their legal limits. We need to focus while we 
work on the symptoms, which are more visible and which we talk 
about a whole lot, but think about the underlying causes. And 
we are part of the problem.
    I do not remember what it was that the Project on 
Government Oversight (POGO) used to say, but POGO used to say 
something like, ``We have seen the problem, and it is us.'' And 
in no small way, we are the problem. We have a huge trade in 
illegal drugs in this country, and they have to come from some 
place, and we cannot shut them down internally. We try to, but 
part of the number of those come across our borders from the 
south, some from the north, some comes across with people 
getting across a river, some across deserts, others on 
airplanes, on ships, on boats, you name it. The drugs come 
north, the guns go south. And that is a big part of the 
problem. We have a couple of former Attorney Generals (AGs) 
here, and they know of what I speak.
    The second thing is we have employers in this country who 
are knowingly hiring illegal aliens, and in some cases they try 
to hire Americans to do a certain kind of work. Americans do 
not want to do it. And one of the things we need to do is to do 
a better job, an ever better job of making sure that those that 
are knowingly hiring illegal aliens are stopped. And to the 
extent that we can punish them severely, identify them and 
punish them severely, we need to do that. We need to send a 
message.
    The other thing that we need to do is do a better job 
working with intelligence, not just from the north but 
certainly from the south, and countries, too, Mexico and in 
Central America to better be able to deploy our forces along 
the border. So those are some of the--almost like symptoms that 
I will say--those are really some of the underlying causes. 
Some of the underlying causes. People I met with in the 
detention center in McAllen last week, most of them are the age 
of my boys, early 20s, late teens. They are just looking for a 
better way of life. We squeeze the balloon in northern Mexico 
for the drug cartels, and when we squeeze a balloon, it pops 
out someplace else, and it is popping out in places like El 
Salvador, places like Honduras, and places like Guatemala, and 
a lot of the people that are streaming north are coming because 
of the mayhem, the murder and mayhem in their countries now, 
and we are part of that problem. So I just think it is 
important to have that as a predicate for what we need to do.
    My story earlier about the basketball coach who said the 
best players are the ones that make everybody else better? Now 
I want to ask you to tell us how we can make you better. All 
right. A couple of examples. I am an old Navy OP-3 mission 
commander, spent about 23 years active and reserve in the 
airplane. Our job was to hunt for Red October in all the oceans 
in the world, throughout the cold war, and we still do that, 
not in just OP-3s today but in OP-8s, a new airplane. And I am 
going to talk about the C206s that we are sending out, or other 
aircraft or helicopters we are sending out, without any 
surveillance equipment. It just defies belief. The aircraft 
that I flew in all those years, we would go out, if we were 
tracking a diesel submarine, we would have the ability to, one, 
detect them when they came up with our radar, detect their 
scopes or detect them on the surface. We had the ability to 
detect their emissions if they were running their diesels. We 
had the ability to hear them. We had the ability to listen for 
their acoustic signature, to look at it visually. If they 
turned up their radars, came up to make sure that it was clear, 
then we could pick that up as well. We had any number of ways 
that we could find and track the Russian subs.
    When we send out a C206 and we have a pilot and we do not 
have an observer on board and we do not have anything that is 
looking down, any kind of this sophisticated equipment, that is 
crazy. And to say that we have more than a dozen of them that 
are down on the southern border of Texas with no surveillance 
equipment, I do not get it. And we have the same problem with 
our helicopters. We have these drones, we have four of them 
that we heard about when I was down with Senator McCain in 
Arizona, and we were told that of the four drones we have, we 
do not resource them. They can fly, two of them--during the 
course of a week, they fly 16 hours a day, 5 days a week, and 
if the winds are over 15 knots, we do not fly them at all. That 
just does not make any sense.
    Senator McCain. And the bad guys are aware of the schedule.
    Chairman Carper. And they have spotters on the top of 
mountains, hills, in America. I mean, if they were on a 
mountain in Afghanistan or if they were on a mountain in Iraq 
or something like that, we would take them out. And for some 
reason, we cannot take them out in our own country. It just 
defies belief.
    We are going to have a lot of money, thanks in no small 
part to this guy right here, to try to make sure that we have 
the resources, you have the resources to do some of the things 
that I have just been saying. All right. You are going to get 
this money. What are you going to do with it? Mr. Heyman. Along 
the lines of some of what I just said, what are you going to do 
with it?
    Mr. Heyman. Thank you, Senator. I think you have identified 
a number of issues that are reason for the need for 
legislation. And if you look at the work that we have been 
doing particularly over the last 4 years, what you see in the 
trend lines is that we are moving in the right direction.
    One of the things the bill does is it builds on the 
continuing deployment of proven and effective technologies that 
help address the drug trafficking and the illegal immigration 
issues. With the resources and the provisions in the bill, we 
will be able to do more of that, and the border will be more 
secure.
    You mentioned the challenges in the workforce. That is 
absolutely true. The workforce issues present, in fact, a 
magnet for illegal immigrants to come here, and we need to 
develop a system where employees check to see if somebody is 
lawfully present. We have that. It is called E-Verify. It is a 
priority of the Administration to make workforce validation 
universal, and that is in the legislation. That will be helpful 
as well.
    And so I think if you look at the very specific issues that 
you have addressed, you will find provisions within the bill 
that help us get to that direction.
    On the specific issues of the Unmanned Aircraft Systems 
(UAS) and the----
    Chairman Carper. C206.
    Mr. Heyman. Let me turn to my chief over here.
    Chairman Carper. Chief Fisher, go ahead. Take about 1 
minute, and then I am going to yield to Dr. Coburn.
    Mr. Fisher. Yes, Mr. Chairman. Specifically with the 206--
and I know I am speaking for General Alles as we work hand in 
glove in terms of what our requirements are on the ground, and 
the Assistant Commissioner for the Air and Marine Operations 
is, in fact, taking a look at current capability that we have 
from the air platforms and shifting those into other platforms 
where, one, they would work and, two, we could operate those at 
a lower cost. They are currently looking, both in terms of 
safety and in terms of flight readiness, to be able to do that 
testing and to get those deployed immediately.
    Chairman Carper. All right. Dr. Coburn, thanks.
    Senator Coburn. Ms. Richards, how would you characterize 
DHS's track record in planning and executing major 
sophisticated border security programs?
    Ms. Richards. The Department has concentrated a lot of time 
and effort recently on taking some significant steps to improve 
their acquisition and program management processes. I would 
have to say that, based on our work and the Government 
Accountability Office (GAOs) work, their track record has been 
admittedly lackluster to date. Again, however, I would say that 
they have put a lot of time and effort into putting the 
skeleton in place so that they can make major improvements on 
this process. We have not yet had an opportunity to audit an 
acquisition that has been through the entire process.
    I would also like to say that part of the problem is the 
perception that the process is not as important as the end 
result. We have had program managers tell us things like life-
cycle cost estimates just gather dust once we have completed 
them because the information is not used as the program is 
ongoing for things like budgeting or obtaining money to 
continue to run the program.
    So because those intricate, difficult-to-complete planning 
documents are not viewed as valuable over the life of the 
program, they might be getting less attention than they should.
    Senator Coburn. Well, that is a question of leadership. In 
terms of your findings on current border operations, what 
challenges do you anticipate that DHS will have in terms of the 
new responsibilities and the execution of new strategies with 
this current proposed bill?
    Ms. Richards. The additional requirements do put additional 
responsibilities on an already stressed organization. As I said 
in my testimony, they have the capabilities, but they need to 
take the steps carefully and in order. They need to make the 
plans of what they are going to use the equipment they are 
purchasing for and then purchase the right equipment and make 
sure that they have it properly outfitted and that they have 
the support in place for it.
    Senator Coburn. So going back to what Senator Carper said, 
we have these 202s, I think you----
    Chairman Carper. 206s.
    Senator Coburn. 206s. One of them has mounted technology. 
Why is there one with mounted technology and the others with 
none? And why is it, in terms of the answer we just heard, we 
are looking at that when, in fact, what we already know is the 
answer? Is it a monetary problem? Is it an execution problem? 
Is it a management problem? And if they cannot do that, how are 
they going to handle the new requirements coming to them in a 
new immigration bill?
    Ms. Richards. Sir, we have not looked at that program 
specifically. In some of the other programs that we have looked 
at, there does sometimes seem to be--quick to follow the letter 
of what they have been asked to do, get some drones, so we get 
some drones, without really thinking about what it is going to 
take to be able to operate those drones in the current 
environments. And it is a planning issue as well as a 
management issue, sir.
    Senator Coburn. OK. According to your office, DHS has 
failed to close out 47 separate recommendations of recent 
reports by the IG related to border security work. That comes 
from a table listing all your recent audits and open 
recommendations. Can you run through the closeout numbers for 
the Committee? How many recommendations have they closed? How 
many have they not closed on border security?
    Ms. Richards. Sure. Thank you. That table had a total of 16 
reports with 47 open recommendations. There was a total of 51 
reports that we identified that had recommendations for border 
security and immigration processes. There was a total of 259 
recommendations in total, so you can see that a great number of 
the recommendations have been not only agreed to but 
successfully implemented. I do not have the percentage myself.
    Senator Coburn. Of these 47, what are the major ones that 
you would put as a priority for this Committee, so we know that 
you think these should be done first, second, third? And you 
can answer that later if you would rather, if that is too 
difficult for right now.
    Ms. Richards. Sure. I cannot go through all of the 47. I 
would say that we are particularly concerned about the 
recommendation on the unmanned aerial vehicles (UAVs). We also 
have concerns about the recommendations on the FAST Program, 
the one to develop a process to assess the effect of the FAST 
Program on the security issues at the ports of entry.
    We have other recommendations that were not strictly on 
border security, but that were on a wider view, such as our 
recommendations on interoperable communications that we also 
think are very important for the Department to act on as part 
of this process.
    Senator Coburn. So if you were to create a to-do list for 
the agency, what would be No. 1, what would be No. 2, what 
would be No. 3?
    Ms. Richards. In the terms of this proposed legislation, 
completing the planning process for the UAVs would be No. 1 
from our recommendations that stand already. Looking at the 
legislation in its entirety, there is a lot of money to be 
spent or planned to be spent to increase technology at the 
border, and I would like to see them do a good job of planning 
all of that before they spend the money.
    Senator Coburn. OK. Director Heyman, what do you think 
about that in terms of especially the comments on UAVs? This 
country has a lot of technology that we have invested through 
our experiences overseas in terms of UAVs. Why is it difficult 
to get to the point where we actually have good technology 
associated with them? Why is it hard to get to where we need to 
go? Is it financial? What is it?
    Mr. Heyman. Thank you, Senator. There are a couple things I 
would comment on. One is that Border Patrol has put together 
for each of the sectors a technology plan, and within that 
technology plan, they have to consider not only what their 
strategic objectives are and how they accomplish them in the 
unique environments of each of the different sectors; they have 
to figure out what technologies match it, the procurement, the 
deployment schedules, and all of those things. And I would 
commend Mr. McAleenan's discussion on that because this is 
exactly what the IG is interested in. They want to make sure 
that we are planning, that it is unique to the sector, that we 
have oversight on that. And in the last year, I think there has 
been significant progress on that front.
    In terms of the UAVs in particular, we have actually stood 
up a UAV working group within the Department. It includes not 
just the operators but also the policy folks, the privacy 
folks, the civil rights and civil liberties. We are making sure 
that the integration of the technology meets our interests both 
from a policy and a privacy perspective.
    Senator Coburn. All right. My time has expired, Senator 
Carper.
    Chairman Carper. Senator Johnson please proceed. Thank you.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman.
    Secretary Heyman, you mentioned our exit policy. Before I 
get into other border security issues, I would like to just 
talk a little bit about the Boston city bomber. As best I can 
understand, we have a system that should be tracking that and 
should be pinging, and we have the Treasury Enforcement 
Communication (TEC) system, where suspect No. 1, I guess, was 
pinged and that information came in to an individual in the 
Department of Homeland Security. Can you just describe that 
process to me?
    Mr. Heyman. Sure. What you have is an IT system that in 
advance of a person's departure or arrival to or from the 
United States, usually somewhere around 72 hours in advance of 
that, sends a message called the Hot List, if there is an 
individual to take a look at or take a second look at. This is 
all done by CBP and the customs officials. In that case, if 
there is an active case or something that deserves an 
additional look from the Federal Bureau of Investigations 
(FBI), for example, it is sent to the specific Joint Terrorism 
Task Force that is overseeing that, and that is what happened.
    Senator Johnson. OK. Now, in this specific case, Tamerlan 
Tsarnaev was actually pinged, and somebody in the Department of 
Homeland Security did receive that information, correct? An 
individual?
    Mr. Heyman. Correct.
    Senator Johnson. Did that information get disseminated 
anywhere, or did that just dead-end right there?
    Mr. Heyman. I do not have the specifics on that, but that 
individual serves in the FBI Joint Terrorism Task Force so the 
process is basically that they all share that information. When 
you are serving on it, you are sitting next to each other, and 
you are all working together.
    Senator Johnson. So has the Department really evaluated 
what happened there? Do you have an answer on that? I mean, can 
you provide that to our office?
    Mr. Heyman. There is a briefing for you and your staff on 
Friday, a classified briefing. They will go into all those 
details, yes.
    Senator Johnson. OK. Thank you.
    Let me just talk in general, the history of border 
security. I think we have really made a pretty long attempt 
here, since the mid-70s, mid-80s, to try and secure the border, 
apparently with some progress. But we continue to say, well, we 
need more resources. I think in one of our first hearings with 
Secretary Napolitano, I asked her, ``Well, how much would it 
cost to secure the border?'' And her response was, ``We have 
enough resources.''
    I think this bill is going to be spending another $4.5 
billion. What do we spend per year on border security right 
now, approximately? Does anybody know?
    Mr. McAleenan. I think if you combine the CBP and ICE 
budgets--that is a number I have seen before--it is upwards of 
$15 billion.
    Senator Johnson. OK. Do you think another $4.5 billion is 
going to make any further impact on that? I mean, are we just 
going to continue to throw resources at the problem?
    Mr. McAleenan. I do not think so. I think the framework 
laid out in the immigration reform bill targets some of the key 
areas, some additional capabilities with technology for 
surveillance between ports of entry and the southwest border, 
additional officers at ports of entry, which is an area where 
we have seen tremendous growth in trade and travel in all 
environments that we need to keep up with to make sure we can 
secure and facilitate it appropriately; and addressing legal 
immigration pathways as well as employers in the interior. I 
think those are investments that will advance border security 
and move us forward.
    Senator Johnson. I know the bill lays out a process where 
the Department, I guess, lays out another plan for securing the 
border. Do we not have that plan? Do we have to do this again? 
I mean, how many times have we developed a plan for trying to 
secure our border?
    Mr. McAleenan. I do think we have a good foundation for 
that plan, as Secretary Napolitano has stated. I think in the 
context of the bill, providing a specific road map that can be 
measured against and evaluated seems like an important aspect.
    Senator Johnson. Are we just doing more of the same, Ms. 
Richards? I mean, you talked about planning. We hear this all 
the time. I have been here now a little more than 2 years, and 
I hear the same bureaucratic answers over and over again: 
``Well, we have to plan, we have to execute, and, of course, we 
always need more resources.'' But it does not seem like we have 
made all that much--we certainly have not secured the border. 
Maybe we are making progress. But we always hear we are making 
progress. Are we really?
    Ms. Richards. Well, I would like to differentiate between 
the plan to secure the border that you are talking about and 
the planning that I was talking about in my testimony, which is 
much more detailed, having to do with the equipment and the 
personnel and getting to the nitty-gritty, where the rubber 
meets the road resources to the right spot on the border when 
they need it. The planning that I am talking about is if you 
are going to buy a certain kind of aircraft, what does it need 
to be on the aircraft and how many do we need and how many 
pilots do we need and how many mechanics do we need? That is 
the kind of detailed planning that I would like to see the 
Department do before they spend the money that is identified in 
this legislation to implement the broader plan of securing the 
border through greater surveillance and technology.
    Senator Johnson. So the Department spends approximately $50 
billion per year. We are not doing that planning now with the 
$50 billion we are already spending?
    Ms. Richards. I, of course, can only speak to the programs 
that we have audited, and in those programs we find that they 
are not doing a good job of doing those detailed plans before 
they spend the money.
    Senator Johnson. I have sat through hearings now for a 
couple years, and we continue to hear about spotters on 
mountains. Why don't we take those people out? Why do we 
continue to have spotters for the drug lords in America sitting 
on top of mountains providing that information? What prevents 
us from taking them out?
    Mr. Fisher. Senator, I will take that question. First of 
all, the environments in which we operate within our mission 
space is a law enforcement environment, very much different in 
terms of rules of engagement and what we can or cannot do in 
the comparative that the Chairman talked about in places like 
Afghanistan and Iraq. The rules of engagement, what we call our 
use of force, applies to individuals on the street or whether 
they are up on mountaintops. So it makes it a little bit more 
difficult in terms of what we actually do once we have 
identified them to actually get to them. We have plans in 
place. We, in fact, have removed many of those spotters. We are 
continuing to degrade the capability of those organizations 
that utilize spotters up on those mountains. But it continues 
to be a significant threat and a continued persistent on our 
part to be able to mitigate that.
    Senator Johnson. Just a quick estimate, how many spotters 
are there? How many have you taken out?
    Mr. Fisher. I do not have that number off the top of my 
head.
    Senator Johnson. How many have you taken out? I mean, you 
say you have taken some out.
    Mr. Fisher. A dozen, sir.
    Senator Johnson. OK. Thanks, Mr. Chairman.
    Chairman Carper. Thank you.
    Next to question, in order of arrival, is Senator Landrieu, 
who may be back; Senator Baldwin will be next, followed by 
Senator Heitkamp, Senator McCain, and Senator Paul. Senator 
Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman. And I want to 
start by thanking the men and women who serve in our Department 
of Homeland Security, some risking their lives at times on very 
dangerous terrain to keep our borders secure.
    I am encouraged to see the bipartisan product of S. 744. 
There are some encouraging provisions of the bill. It addresses 
border security, family reunification, employment verification, 
high-skilled workers, farm and guest workers, and pathways to 
legal citizenship for undocumented individuals. If done right, 
immigration reform will create jobs, strengthen businesses, 
bolster security at our borders, and keep more Wisconsin 
families together. Our responsibility is now to ensure that we 
keep America both safe and as promising as it ever has been.
    My question is about the trigger mechanism in this bill, 
and I would like to hear from any of you who wish to comment. 
As I understand it, the first sections of S. 744 require a plan 
to establish ``effective control'' of the border, and until it 
is operationalized, other major parts of this bill will never 
come into effect.
    To be deemed as having ``effective control,'' the 
Department of Homeland Security must have to establish 
persistent surveillance and pull together a plan with an 
effectiveness rate of 90 percent or higher and 100 percent 
monitoring.
    Can you please flesh out for me as much as you are able how 
likely it is that we will be able to operationalize this plan 
given the resources allocated and the massive scope of this 
job? And are the timelines contemplated in the bill long enough 
to formalize a plan of this magnitude?
    Mr. McAleenan. I will start and then ask my colleague Chief 
Fisher to engage as well.
    We think the bill is a significant advance to border 
security across the board with the investments proposed, and we 
do believe that we can operationally execute the bill with the 
standards incorporated in it.
    I think Chief Fisher can elaborate on persistent 
surveillance and the 90 percent effectiveness, but we do intend 
to accomplish those goals.
    Mr. Fisher. Thank you, Senator. First, let me take your 
first part on the persistent surveillance, and I will kind of 
walk through, and if I miss any, please let me know.
    On the persistent surveillance, it is very similar to how 
we operationalize today. So I think of it in two terms. One is 
in areas where we need eyes on all the time, and so there are 
sections along the border where our field commanders and agents 
have assessed that there is always going to be a vulnerability, 
think in terms of urban areas or even in the fringes, where we 
know that if a person is not there or if a camera is not there, 
people are going to exploit those areas. So we have identified 
those areas over time that we do, in fact, need in a true sense 
persistent surveillance in either technology or Border Patrol 
deployments.
    In other areas, a vast majority of those other areas where 
we know based on intelligence, where we know based on agents 
patrolling those areas, that the activity is so low, persistent 
surveillance for us takes a form of situational awareness, and 
the way that we measure that right now and capture that is a 
whole host of things. I will just give you a couple of 
examples.
    One would be Border Patrol agents doing periodic tracking 
on the ground on those areas, Border Patrol agents that are 
very adept and experts over time at trying to identify who is 
coming into the country. We have tens of thousands of untended 
ground sensors that tell us basically what activity is 
happening in that area, and we aggregate that information and 
do analysis over time to see if, in fact, the shifts in traffic 
are moving in the different areas. And there are other things 
both in terms of the unattended--not the unattended ground 
sensors, but the unmanned aerial systems, utilizing synthetic 
aperture radar to do what we call ``change detection,'' in 
other areas where we have just recently, as of the beginning of 
March, started utilizing--and, again, we are really in our 
infancy of understanding this from others within the 
Government--geospatial intelligence. So we are looking at to be 
able to cover in a persistent surveillance either areas where 
we have high degree in eyes-on deployments of personnel and 
technology, which will always need to be there 24/7, and what 
other areas where we do and utilize technology in the air to be 
able to identify those areas.
    The second piece, as it relates to the effectiveness rate, 
the way that we calculate effectiveness is quite simply the 
following: it is the number of apprehensions plus the number of 
turnbacks. So these are individuals, the turnbacks are 
individuals that have made an entry and have turned around and 
gone back to the country from where they came. You take the 
apprehensions plus the turnbacks, and you divide that by the 
overarching entries, the total amount of entries that actually 
come in. That is our effectiveness rate.
    So three things generally happen when somebody enters in 
between the ports of entry, and two are good. We apprehend them 
or they turn around and go back. The third one, which is not so 
good, which we always try to minimize, is the amount of got-
aways, people that have made the entry, we have detected them 
either through technology or through agent observation, and we 
try to continue to work that traffic, and in some cases they 
either load out or get away from us, and they are not either 
apprehended or turned back. That counts as a got-away. And so 
our ability is to make sure that effectiveness is higher in all 
areas, and we believe that at or above 90 percent is an area 
within those corridors that we should set the goal at 90 
percent.
    The last point on the timeliness, is the timeliness in 
terms of the implementation sufficient? And I believe it is.
    Senator Baldwin. Thank you.
    Chairman Carper. Thanks, Senator Baldwin.
    Senator Heitkamp is next when she returns. Senator McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you, Mr. Chairman. I especially want 
to thank you and the Ranking Member for taking the time out of 
your schedule to come to the border. I invite my colleagues on 
the Committee to take the time to visit the Arizona border or 
the Texas border, whatever border of our southern border they 
choose to. I think it is the best way to make anyone aware of 
the immensity of the problem and the difficulty and the 
challenges that, frankly, our brave men and women who are 
serving on the border go through. And I want to thank both of 
you, and I invite my colleagues as well.
    Mr. Fisher, apprehensions are up this year for the first 
time in a long time. I think you testified before 13 percent?
    Mr. Fisher. Yes, Senator, that is correct.
    Senator McCain. Which means that the economy has something 
to do with people's desire to come across the border. Is that a 
valid assumption?
    Mr. Fisher. In part it is, sir, yes.
    Senator McCain. And part of it is the word has gotten south 
that sequestration has reduced our ability to surveil and there 
may be comprehensive immigration reform. Is that true?
    Mr. Fisher. Yes, sir. There are many motives for 
individuals still coming across the border.
    Senator McCain. But for the first time in years, it is up.
    Mr. Fisher. Yes, sir, approximately 13 percent.
    Senator McCain. And we should be very cognizant of that.
    I do not mean to be parochial, but I think you would agree, 
especially for drug smuggling and other areas, especially the 
Tucson Sector is the most trafficked and most difficult and 
least secure part of the entire border. Would you agree with 
that, Mr. Fisher?
    Mr. Fisher. Yes, sir; South Texas being a close second.
    Senator McCain. And in our bill, by the way, for my 
colleagues, there is a provision to prosecute--criminal 
prosecution for anyone who transmits information--i.e., these 
people on the mountaintops--to facilitate the drug traffickers.
    I want to talk to you for a minute about technology, Mr. 
Fisher. When you are down on the border and it is 120 degrees 
and you are sitting in a vehicle next to a fence, your 
efficiency drops rather significantly in a relatively short 
period of time, which is why so many of us emphasized the need 
for technology and sensors, and, of course, the Stuxnet, I 
guess it was called--no, the Boeing fiasco is such a disgrace, 
the loss of $787 million in an effort to provide sensors across 
the border. And I hope we learned lessons from that, I say.
    And there is a new radar called the vehicle dismount and 
exploitation radar (VADER) that was developed in Iraq to detect 
people who plant the improvised explosive devices (IEDs). It 
even tracks people back. How are you doing on that radar?
    Mr. Fisher. Senator, we are still learning every day. As 
you well know--and you probably had the briefing down there, so 
I do not want to be redundant--the VADER system was relatively 
new to our fleet in terms of technology and giving us the 
capability that we have not seen before along the border, at 
least in my 26 years. And we are still learning the best way to 
implement that system.
    Senator McCain. Well, we have recommended--and I think it 
is language in the bill--that you consult with the army people 
who went through the whole evolution of this radar and how to 
use it most effectively. And that is not to kill people, but 
surveillance and detection--it is a marvelous advance in 
technology, which brings me to the UAVs. We have problems with 
the UAVs not only as far as numbers are concerned, but also 
interference with airspace that is being used by the military. 
How are we doing on that? Maybe I should ask Mr. McAleenan.
    Mr. McAleenan. I will check on the interface with the 
Department of Defense (DOD). I mean, we----
    Senator McCain. But you know it is a problem. The airspace 
being used by both the Border Patrol and the military has 
caused significant difficulties in getting clearance for the 
UAVs. Is that not true?
    Mr. McAleenan. Well, deploying new unmanned technology 
domestically has had some challenges. We work closely with the 
Federal Aviation Administration (FAA) and DOD to----
    Senator McCain. But this is about specifically the ranges 
that are being used by the military aircraft, which complicates 
it a lot more. I hope you will report to us on that.
    Ms. Richards, you say other challenges related to 
inadequate strategic planning, a dearth of performance 
measures. Would you give us, the Committee, perhaps in writing, 
what ideas and thoughts that you have about how we can improve 
the performance measures on the border? There is a lot of 
concern about that.
    Ms. Richards. I would be happy to, sir.
    Senator McCain. Thank you.
    On the issue also, Mr. McAleenan, there is a problem with 
the Native Americans because of tribal sovereignty. Would you 
agree, Mr. Fisher, on that issue, especially the Indian 
reservation on the border?
    Mr. Fisher. Senator, it does, like many communities, take 
an ongoing dialogue to be able to make sure that when we are 
operating in those environments, along with those communities, 
that there is an ongoing collaboration, integration, and 
certainly communication, and we continue to----
    Senator McCain. But up until now it has been a real 
problem.
    Mr. Fisher. It has been challenging in terms of being able 
to deploy technology, that is for certain, yes, sir.
    Senator McCain. Mr. Heyman, $4.5 billion is a lot of money, 
and there is also a provision in the bill that if after 5 years 
we do not have this effective control, another $2 billion will 
be spent. How confident are you that after the expenditure of 
the funds that are authorized and appropriated in this 
legislation, we will be able to take the measures necessary to 
assure the American people that never again will there be a 
third wave--never will there be a third wave?
    Mr. Heyman. Senator, I think that the legislation provides 
a number of different tools and devices as well as the 
appropriations. The reason it is called ``comprehensive'' is 
because it addresses a number of areas having to do with 
immigration reform. As a consequence of that, I think because 
of the worksite enforcement, because of the technology 
deployment, because of the streamlining of immigration laws, if 
you put all of that together, our ability to have better 
control of the borders I think will also improve. And so we are 
confident that it is the right formula.
    Senator McCain. Well, in conclusion, Mr. Heyman, Senator 
Johnson pointed out that there are some obvious areas, 
particularly on student visas and humanitarian visas, that need 
to be looked at. I think it would be appropriate, I would say 
to Senator Johnson, for this to be part of the amending process 
if--it is either existing laws are not being enforced correctly 
or we need new legislation and regulations to prevent the kind 
of occurrence where people can leave the country and only one 
agency detects it and then he comes back and nobody is alerted. 
Hearings are going to be held on this, but I believe it would 
be appropriate, Mr. Chairman, as we go through the 
comprehensive immigration bill, that we look at the errors that 
were made in the Boston situation and, most importantly, the 
areas that may require--and I emphasize ``may''--additional 
legislation to prevent that reoccurrence.
    Thank you, Mr. Chairman.
    Chairman Carper. Sure, and I thank you for that suggestion.
    Senator Heitkamp has rejoined us, and you are recognized. 
And next I think would be Senator Paul.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you so much, Mr. Chairman, and 
thank you all for the work that you do and thank your staffs 
for the work that they do under very difficult situations, and 
on tough terrain, as Senator Baldwin said.
    We will not get comprehensive immigration reform unless the 
public has confidence in what you do--unless the public 
honestly believes that this will be a sea change; that they 
will, in fact, see competent technology deployed, competent 
personnel deployed; and that they will see an absolute 
commitment to making sure that this happens, that this is not 
just something that we do because it is going to make us feel 
good that we do it. And we know that typically on borders there 
are two types of people who are crossing: those who come to 
work, those who come to pursue a better life, maybe join 
relatives; and then there is the criminal element. And we 
cannot downplay the criminal element because we see it 
certainly on the southern border, but we also have a great deal 
of concern on the northern border.
    And so I want to, just for a minute, in the small amount of 
time that I have, focus a little bit on the northern border. 
Because one of my concerns in looking at this, even though I am 
anxious to see your plans and anxious to make sure that this 
works, I am concerned about redeploying assets that we 
currently have on the northern border to the southern border, 
and what that means in terms of the impacts on protection in 
the northern border. And we know that at least one, maybe two 
of the September 11, 2001 bombers did not come in through the 
southern border. They came in through the northern border.
    And so explain to me, I think, Chief Fisher, you are the 
person that I understand the best because I am a former AG in 
North Dakota and worked very closely with Border Patrol. I 
always had a great relationship with them and felt like the 
collaboration that we had really kept people in my State much 
safer.
    Explain to me what the plans are in terms of maintaining 
security on the northern border and deployment of resources so 
that we do not lose focus of what is happening to the north.
    Mr. Fisher. Thank you for the question, Senator, and first 
and foremost, to your earlier point, I am committed to border 
security and protecting this country, so whatever the bill ends 
up being and passed, we will implement that and we will make 
sure that our commitment to protect this country is not 
changed, regardless of what happens. So I wanted to make sure 
that I made that point, and I am speaking on behalf of the 
21,000 men and women who do that each and every day. And thank 
you for that compliment, by the way.
    To your second point--and it is really interesting, and I 
am glad you brought up the northern border, because so many 
people think that the border is only the southern border. And 
earlier, before my first deployment to the northern border, 
which was in Detroit many years ago, it was different 
challenges, as you well know.
    It is a constant evaluation, whether you are looking at the 
southern border or the northern border. Threats are always 
dynamic. They are going to constantly change, and our ability 
not just every year to come up with a new plan or an 
implementation, we are constantly assessing all threats each 
and every day, and we are lifting and shifting resources along 
the northern border and the southern border against those 
threats. The whole idea of our strategy is to put our greatest 
capability against those greatest risks.
    Specifically on the northern border, over the last few 
years--and you will recall, prior to 2000, we had approximately 
300 Border Patrol agents to cover about 4,000 miles of border. 
That is a very daunting task if you are the only Border Patrol 
agent in many locations and you have to patrol hundreds of 
miles. And we leverage that by continuing to work with State 
and locals. We do the integrated border enforcement teams with 
the Royal Canadian Mounted Police (RCMP) and State and locals. 
We use that as a force multiplier and in a lot of locations, we 
do not need thousands of Border Patrol agents. We leverage the 
information. We do integrated planning and execution, and then 
we increase our ability to do two things: flexibility, which is 
the key in any implementation on this bill; and the second 
piece is for us to be able to rapidly respond to those emerging 
threats in advance, and our ability to do that on the northern 
border is in some cases more critical than it is on the 
southern border.
    Senator Heitkamp. Mr. Fisher not to ignore the rest of you, 
but I think I am most familiar with the work that you do, and 
obviously, in North Dakota, we consistently have intel meetings 
where we share--the Royal Canadian Mounted Police come down, 
and we spend a lot of time talking about what do you know, what 
is coming across, where do you think the gaps are. And I think 
you raised a very important part, a very important issue, which 
is: How do we collaborate? How do we expand our opportunities 
by including local, State, and maybe other governments' police 
forces, other governments' efforts in a collaboration so that 
we can leverage all of these resources?
    And so I hope as you move forward with these plans that we 
do not just look at it from the standpoint of high-tech 
technology, because we know that there are two ways we can do 
intel: One is from the sky and the other is just listening on 
the ground and what is moving.
    And so I am very interested in finding out what the plans 
are related to collaboration with local and State officials and 
law enforcement.
    Mr. Fisher. Yes, Senator, and I was recently in Grand Forks 
and got a briefing, went out with the agents. I am not the 
expert there, but I would love to work and give you and your 
staff a briefing, a little bit more detailed briefing about our 
deployment strategies and methodologies specifically in that 
area.
    Senator Heitkamp. Yes, and my point in all of this, as we 
look at immigration reform, I think it is always the look is to 
the south.
    Mr. Fisher. Understood.
    Senator Heitkamp. And I want to make sure that, in that 
very important work looking to the south, we do not forget to 
pay attention to what is happening at the northern border.
    Mr. McAleenan. And if I might add very briefly, Senator, on 
the northern border the CBP officers that are specified in this 
bill as well as in the Administration's fiscal year 2014 
budget, a number of those would go to ports of entry on the 
northern border. They are deployed based on our workload 
staffing model where the greatest need is, both in terms of 
traffic and threat.
    Mr. Heyman. And I might also add, the opportunity here to 
talk about our partnership with Canada, you mentioned State and 
local, but we have an extraordinary partnership with Canada 
that the President put forward in his Beyond the Border 
Initiative that has allowed for a sea change in how we work 
with them. There is a 34-point plan that we are working 
through--increased infrastructure investments, joint 
operations, shared information that is allowing us to be a 
force multiplier, in effect, for what Canada is doing.
    Senator Heitkamp. And just very quickly, I am familiar with 
Beyond the Border. I am familiar with the attempt to not logjam 
commerce in the interest of law enforcement, and all that needs 
to be balanced. But, again, we are very concerned in North 
Dakota and all across the northern border that we not lose some 
focus that we have had on the northern border.
    Mr. Ragsdale. And if I could just add also, the Border 
Enforcement Security Task Forces, our operational platform that 
we work with our State and local partners, is a critical piece 
of the strategic, not only on the southern border but also on 
the northern border.
    Senator Heitkamp. Thank you so much.
    Chairman Carper. We appreciate your getting our focus back 
up to the northern border, Senator Heitkamp.
    If you look at the membership of this Committee, it 
includes a number of Senators whose States do border Canada. It 
includes Senator Levin from Michigan, Senator Tester from 
Montana, Senator Baldwin from Wisconsin, Senator Johnson from 
Wisconsin, of course, Senator Heitkamp, and also Kelly Ayotte 
from New Hampshire. There is no shortage of people who are 
going to be interested in making sure we do not forget about 
that northern border.
    Senator Paul, good to see you. Please proceed.
    Senator Paul. Mr. Chairman, thank you for bringing this 
distinguished panel here. I for one am for immigration reform. 
I think we should embrace immigrants as assets, people who want 
to come and find the American Dream. If you want to work and 
you come to our country, I think we can find a place for you.
    That being said, I am worried that the bill before us will 
not pass. It may pass the Senate, it may not pass the House. I 
want to be constructive in making the bill strong enough that 
conservatives, myself included, conservative Republicans in the 
House will vote for this, because I think immigration reform is 
something we should do.
    In this bill, I am worried, though--and this is similar to 
what Senator Johnson said--that it says, well, you have to have 
a plan to build a fence, but you do not have to build a fence. 
And if you do not have a plan to build a fence, then you get a 
commission. I do not know what happens if the commission does 
not do anything. That is the story of Washington around here.
    To me, it is a little bit like Obamacare, and I hate to 
bring that up, but 1,800 references to the Secretary shall at a 
later date decide things, we do not write bills around here. We 
should write the bill. We should write the plan. We should do 
these things to secure the border. Whether it be fence, entry-
exit, we should write it, not delegate it, because what is 
going to happen in 5 years, if they do not do their job--it may 
not even be them. It may be somebody else who does not do their 
job in 5 years, and the border is not secure, we will be blamed 
for the next 10 million people who come here illegally.
    The work visa program has to work. We have to make it work. 
That is where the illegal immigration is coming from because 
people are not getting their work visas.
    With national security, I sent a letter earlier this week, 
and I do not know if you have had a chance to look at it, 
Senator Carper, but in that letter, I asked that we mark this 
up. National security is a big part of immigration, and it is a 
separate part, and we should go through detail after detail, 
but then vote on amendments in our Committee to add to the 
immigration bill.
    And some say, ``Oh, you are doing this just to kill the 
bill or slow it down.'' No. I want the bill to be better so we 
can pass it. I think the stronger this bill is, the better 
chance we have of passing it. My goal is to pass the bill.
    I am concerned about two things in particular: refugees and 
student visas. Student visas, as was mentioned, had to do with 
some of the September 11, 2001 hijackers. Right after September 
11, 2001, we passed a program called National Security Entry-
Exit Registration (NSEERS) program, and we had it for about 10 
years. It has been defunded now and no longer exists. We looked 
at 25 countries more carefully, and we were absolute about it, 
and thousands of people were sent home who were not in school, 
who were not doing the right thing, who were not obeying the 
rules we had set up.
    I am disturbed really that the FBI investigated this young 
man, this Tsarnaev boy, and then they did not know he was 
leaving the country. He was on a Central Intelligence Agency 
(CIA) list. We said all the billions and trillions we spent on 
homeland security was so the FBI would talk to the CIA. And I 
am concerned that--I do not know if they were talking, but for 
some reason, it does not appear as if we knew he was leaving 
the country. Once he left to Chechnya, he needed another 
interview. And I do not fault them for interviewing him and 
maybe not catching him the first time, but how many people did 
Russia refer to us? Was it 50,000 people that they wanted us to 
look at or was it 10? If it was 10, we should have spent a lot 
of time with those 10, and we should have been monitoring them 
just because Russia thought they were a problem on them 
leaving. I would do it with a judge's warrant because I believe 
in due process, but I still would do it.
    So I would have hearings, and my purpose of this is to 
specifically ask Senator Carper and Senator Coburn to consider 
having hearings where we actually physically take control of a 
part of the bill and do national security hearings, have 
amendments, not to defeat the bill but to make it stronger, to 
look at how many refugees we can process. And if we are 
bringing in 200,000 refugees, maybe we need to bring in 100,000 
or 50,000. Maybe the number has to be smaller so we can manage 
it.
    In my town of Bowling Green, two refugees came in, and 
their fingerprints were on an IED. They immediately started 
buying Stinger missiles. Fortunately, it was from the FBI and 
we caught them, but they got into the country even though their 
fingerprints were on a bomb.
    I think too many people are coming in too quickly without 
enough review and that we need to target the review to the 
countries that seem to have hotbeds of people who hate us.
    But I would like to see an orderly fashion where we do not 
just say, oh, come up with a plan, if you do not have a plan, 
we get a commission. That is where I see it now. If it is not 
any stronger than this, I do not see it getting through the 
House.
    So I would only beseech the Chairman to consider whether or 
not we could actually have here--and I would welcome a comment 
if you would like to make a comment with that regard.
    Chairman Carper. Thanks very much for your question and 
really for, I think, the good intent that you bring to these 
issues.
    First of all, on the issue of sequential referral, I have 
asked our staffs about this. Senator Coburn said earlier today 
that he would like to see a sequential referral of the bill to 
our Committee. And my staff advises me today that, in order for 
us to do that, we have to ask unanimous consent--the 
parliamentarian has made the decision that the bill be referred 
to another Committee. We have to ask for unanimous consent in 
order for it to be referred to us sequentially. We are going to 
explore that. We will explore that with the Democratic and 
Republican leadership.
    As you know, yesterday we tried to get unanimous consent 
just to go to conference and to take the House-passed budget 
resolution and the Senate-passed budget resolution, go to 
conference and try to figure out a compromise to get our 
deficit headed in the right direction. We could not get that 
done. One person was able to object and to kill that. So we 
need to find out for sure what the situation is there.
    On the second issue, there are--let me just say with 
respect to the tragedy that occurred in Boston, as much as we 
mourn the death of three people and the mayhem that has touched 
the lives of 250 other people who have been injured, a lot of 
good was done by the FBI, by the CIA, by Homeland Security, by 
the State and local police. We have asked a bunch of questions, 
Senator Coburn and I asked page after page after page of 
questions of the Secretary of the Department of Homeland 
Security that relate specifically to that. We are going to get 
those responses. We are going to get them in a timely way. And 
when we do, at an appropriate time, working together, we will 
figure out when to hold hearings, with your input and others, 
in some cases maybe classified hearings, in other cases 
unclassified hearings. But the idea there is to, as I said 
earlier, figure out what we can do to help, whether it is the 
situation on the northern border, the southern border, 
situations like in Kentucky, Boston, what can we do to make 
more effective, better leverage the assets, human and other 
assets, that we have. But I like your spirit, and we want to 
work with you and with our other colleagues to figure out how 
we can play the constructive role that I know we all want to 
play.
    We are going to have a vote here at noon, and I talked with 
Dr. Coburn, and I think I am going to stay here and keep things 
rolling. If we start the vote, he is going to go vote, come 
back, and then I will vote and return. If anyone wants to ask a 
second round of questions, we will have that opportunity, and I 
would invite you to do that.
    Let me just start my second round by acknowledging--we have 
already talked about this--the job that is done along our 
southern borders and our northern borders to try to slow, stop 
the movement of people illegally, the movement of drugs and 
contraband illegally, it is not easy. I was down there in 
pretty good weather, but as Senator McCain says, sometimes the 
temperature is 120 degrees. Sometimes it rains. Sometimes it is 
cold, especially up on the northern border. Sometimes people 
are taking shots at you. Sometimes people are throwing rocks at 
you. This is not an easy job for folks.
    And I will say this: The people that I have met, both on 
the northern border that are doing this work for us and the 
people on the southern border, for the most part they are 
enthusiastic, they are proud of the work they do. They are 
intent on doing it better. They want us to figure out how to 
make it more effective, and that is a big part of what we are 
doing. So we applaud their service.
    I want to come back, if I can, to the issue of technology 
deployed along our borders to help, to serve as a force 
multiplier. And we have talked about the VADER system. We have 
four drones. One of them has a VADER system installed. It is a 
borrowed system--a borrowed system from a private company. We 
have a dozen or so--more than a dozen C206 single-engine 
aircraft. I believe one of them is outfitted for surveillance, 
to do sophisticated surveillance work. That is like my OP-3 
airplane going out there without the ability to acoustically 
detect submarines, visually submarines--well, maybe visually we 
could--without radar, without intercepts. I mean, it is like 
going out with binoculars looking for a submarine. And that is 
what we are doing with our C206s, and too often it is what we 
are doing with the drones that do not have the VADER system on 
them.
    We have deployed in places, I think in Afghanistan, 
lighter-than-air, I will call them ``dirigibles,'' lighter-
than-air assets, blimps. Some of them can carry sophisticated 
surveillance equipment; maybe some cannot. And we have the 
ability to deploy land-based systems, whether they happen to be 
handheld radars or handheld surveillance or truck-mounted where 
you can elevate them or just ground-mount them. I think there 
is something called the Tethered Aerostat Radar (TAR) system 
which we have some of the ground-mounted, elevated radars and 
observation posts. Any one of these by itself is not going to 
work everywhere, and part of what we need to do is figure out 
where the highest risk is and go after those first.
    And, second, of the kind of technology and the assets that 
are available to complement our ground forces, figuring out, 
one, where is the greatest risk and which particular technology 
is most appropriate in a given area of our border. It ain't 
rocket science. And in the past we have had the real problem of 
not having the resources. We are going to have the resources. 
We have to fill this sense of urgency and providing those 
resources and making sure that you have thought through, with 
our input and certainly with the input of our appropriators, 
led by Senator Landrieu, to make sure--and I think--it is Dan 
Coats? Senator Coats, who are the Chair and Ranking Member of 
the Appropriations Subcommittee.
    The other thing I am going to say, and then I am going to 
ask a question. Somehow we have to do a better job of conveying 
not just to the folks in Mexico that want to come to our 
country to work, but the people in El Salvador, Honduras, 
Guatemala, and other countries where their lives are not very 
pleasant right now, and it is because of squeezing that bubble, 
squeezing that balloon, we are seeing a lot of the work, the 
cartels heading south and making lives in those countries 
miserable. And they are looking for a way to get out, and 
Mexicans do not want them to stay in their country, so they 
just come through Mexico, come on across our borders in places 
that are tough to detect them.
    Somehow we have to do a better job conveying to people in 
those countries where people are still coming out, the other-
than-Mexicans, that it is a tough journey, there is a good 
chance you will get caught. If we catch you, the experience you 
are going to have in this country is not pleasant. And if you 
come back again, it is going to be even less pleasant if we 
catch you. We have to make sure that our employers know that if 
you are trying to hire illegal aliens, you are doing it 
knowingly, we are going to find you out and we are going to 
punish you. We are going to find you and imprison you if it is 
a repeat kind of occurrence.
    And the other thing we need to do, we need to do a better 
job of conveying to the folks that live in these countries 
where they are coming north the risks that they face--the risk 
that they will not get through, the risk that if they do, it 
will not be a pleasant experience, the risk that they will be 
shot, murdered, drowned, raped. We have to do a much better job 
of conveying what it is really like. It is kind of like a 
``Scared Straight'' approach for those countries, and we have 
to be smart about the way that we do it.
    Chief Fisher, right now what is our effectiveness rate in 
high-risk border sectors as defined by the bill that Senator 
McCain and others have worked on? Let me just ask you that. 
What is our effectiveness rate in the high-risk border sectors 
as defined by the bill?
    Mr. Fisher. It is approximately between 80 and 85 percent, 
sir.
    Chairman Carper. All right. And just to make this simple 
for people to understand, let us say we are at the border, we 
are looking for people who try to get through, and what we 
really need to make this work, I think, is the ability to--it 
is almost like a quarterback coming out of the huddle. You can 
look at the defense, and you see the whole field. But it is the 
ability to see the whole field, and that is folks coming to our 
border, and to be able to almost count them, almost have the 
ability to count them. And we will say on a good day you can 
see 100 people coming. And we need to know not only how many 
are coming to cross our borders; we need to know how many are 
going to be turned back, and that is not easy to do, but it is 
not impossible. We need to know how many we have apprehended. 
And then the rest are those that are got-aways. But we need to 
measure better three things: one, how many people are trying to 
get across the border; two, how many people are turned back; 
and the rest sort of takes care of itself.
    And part of our challenge is to figure out how to measure 
those that are trying to get across and those that turn back. 
The rest we can figure out. But I think some of the technology 
we are talking about can do that.
    Let me followup on my question, Chief, by asking this: How 
close do you think we are to achieving persistent surveillance 
in some of those sectors?
    Mr. Fisher. Along the southern border, taking into 
consideration both the eyes-on 24/7 and some of those areas in 
the urban areas, and with situational awareness, it is going to 
take probably at least another year or two as we continue to 
mature both in terms of systems that we have, optimizing that 
capability, and continuing to see and leverage geospatial 
intelligence to try to understand how that may help us in the 
situational awareness area.
    And if I could, Mr. Chairman, I want to qualify my earlier 
statement in terms of--I was trying to reconcile the way you 
asked the question in terms of the way the bill is identified 
in those high-risk areas. There is one area in South Texas 
specifically that is not within that range that I stated 
previously, that 80-85 percent----
    Chairman Carper. Which one?
    Mr. Fisher. South Texas, which basically takes into 
consideration the area, I believe, that you recently saw down 
in Rio Grande Valley.
    Chairman Carper. Rio Grande, yes.
    Mr. Fisher. That one is actually below 80. It is about 78, 
79 percent. So I do not want to be misleading in my earlier 
statement.
    Chairman Carper. All right. Thanks.
    Dr. Coburn, I am going to run and vote. I will be back.
    Senator Coburn. [Presiding.] Let me go back to you, Chief, 
for a minute. How do you come up with the denominator? You told 
us how you calculate an effectiveness rate--where is the 
character quality of the denominator?
    Mr. Fisher. The denominator----
    Senator Coburn. You do not have that, actually, do you? You 
do not know every attempted crossing into this country.
    Mr. Fisher. I do not.
    Senator Coburn. That is right. So, therefore, the 
denominator is meaningless if you do not know the numbers.
    Mr. Fisher. The entries, which is the denominator, sir, is 
basically the apprehensions plus the turnbacks plus the got-
aways. In areas where we have dense deployments, both in terms 
of personnel and technology, we have a better accounting of 
what the flow is at any given time.
    Senator Coburn. Well, but wait a minute. That is the 
apprehensions, the turnbacks, and the got-aways. That has 
nothing to do with the ones you do not know.
    Mr. Fisher. Yes, sir, and that is where the geospatial 
intelligence, utilizing our organic resources, helps us 
understand.
    Senator Coburn. I know, but here is the point I want to 
make----
    Mr. Fisher. Yes, sir.
    Senator Coburn. If that legislation is going to pass, that 
denominator is going to have to be determined in finite terms 
and that is where the geospatial is going to help you, right?
    Mr. Fisher. It will, Senator. It is my belief that it will, 
yes.
    Senator Coburn. And do you not agree, if you have a varying 
denominator, then you are not going to have a constant look at 
what your percentage is going to be? So you have to know what 
that denominator is. For 90 percent to mean something, that 
means the denominator has to mean something, and it has to be 
real. And it cannot just be what you know. It has to include 
what you do not know today in terms of crossings. Correct?
    Mr. Fisher. Senator, I do understand your point. First of 
all, the denominator always fluctuates. It fluctuates on a 
daily basis, and it fluctuates depending upon the section of 
the border.
    Senator Coburn. But you are missing my whole point. You do 
not really know the denominator.
    Mr. Fisher. Across 4,000 miles to the north and 2,000 
miles----
    Senator Coburn. No, you do not know.
    Mr. Fisher. I do not know.
    Senator Coburn. OK.
    Mr. Fisher. I stated that.
    Senator Coburn. So my point is, if the American public 
listens to this, we are going to determine the border is secure 
on a number that you do not know. You are going to give us a 
number, a percent, but the bottom number is--you are not going 
to know it. And that is a hole in terms of the requirements of 
this bill, and that is going to have to be addressed before 
this bill is going to be able to pass.
    Mr. Heyman. Senator, if I may, one of the things that the 
bill I think intends to do is to put great investments in some 
of the technologies the chief was talking about. We do have 
some fidelity over that number right now. The technology 
development and deployment that will be envisioned by the bill 
will build us greater capability for surveillance and detection 
for the----
    Senator Coburn. I understand----
    Mr. Heyman [continuing]. Greater fidelity. You never have 
100 percent fidelity----
    Senator Coburn [continuing]. But, remember, the emotion on 
immigration has nothing to do with race. It has to do with the 
rule of law. And first of all, where did we come up with 90 
percent says your border is controlled? Where did that come 
from? Why do we think that 90 percent says the border is 
controlled if 10 percent is not?
    Mr. Heyman. Senator, one of the things that I know 
Secretary Napolitano has said it is important not to just focus 
on one number. As a general practice, we have looked at the 
border from a number of different factors, whether it is 
apprehension, crime rates, or otherwise. And I think in some 
sense it is like the economy. We do not use just one number to 
measure how good our economy is. You do not just look at GDP. 
You look at consumer confidence, consumer spending. You look at 
jobs rates and things like that.
    I think as we are looking at the borders, as a general 
principle we should also be looking at----
    Senator Coburn. I know, but that is not what the American 
people are expecting. We are considering creating a path to 
citizenship in this bill, and it is based on the fact that the 
border is going to be controlled. That is the thing that is 
going to certify the ability to move forward on those other 
areas. And if, in fact, the American people cannot trust that 
the border is controlled, you are not going to be able to pass 
this bill. So you are going to have to help us figure out how 
to do it.
    And I would disagree. GDP measures our economy. It is the 
final result of consumer confidence, employment, investment, 
and everything else. We do look at GDP because that is the 
factor, that is the ultimate number. First of all, why is 90 
percent considered effective control of the border? I would 
like for somebody to explain to me why 90 percent is effective 
control of the border. And, No. 2, how are you going to come up 
with an effective denominator? Because you are not going to 
sell the vast majority of Americans on immigration reform until 
you sell them the confidence that we have it under control and 
that the number does not vary; and if it does vary, we know 
that number is an actual number, a real number, not a 
guesstimate.
    Mr. Fisher. Senator, I will answer, take a stab at your two 
questions.
    First, the 90 percent, when I was with the staff developing 
the implementation for our new strategy, we were setting 
strategic objectives, and one of the measures against the 
strategic objectives specifically about being able to protect 
this country, is we stated at or in excess of 90 percent. It 
was not 90 percent. In other words, we were setting a strategic 
goal to be able to take the capabilities that we have had over 
the last few years and how do we optimize that capability and 
how do we measure that. That has been an effort, an ongoing 
effort for the last 3 years. It is not the only metric. It is 
taken with a whole host of other measures that we look at to 
assess risk. It is not just about 90 percent. So 90 percent was 
the minimum, and when I was asked the question previously--
actually, my staff asked the question, ``Well, Chief, why is it 
at or in excess of 90 percent?'' And I said, ``Basically, it is 
because it is an A.'' It is an A. If you are going to set a 
goal for border security and national security, anything less 
than, at a minimum, 90 percent would be untenable in terms of a 
goal.
    Senator Coburn. Why 90 percent? Why not 98 percent? In 
other words, here is my point. If we are going to get 
immigration reform through, if you are going to get it through 
the House, we are going to have to do a whole lot more on what 
is the definition of a controlled border than what is in this 
bill.
    Mr. Fisher. I agree with you there, Senator, yes.
    Senator Coburn. Or we are not going to get it. It is not 
going to happen. You are not going to have the votes for it. So 
if, in fact, we really want this to happen, we have to start 
addressing this now. And you cannot have any false observations 
on this.
    The political reality is the American people want to know 
the border is controlled, and when we say 90 percent it is 
controlled, they are saying, well, that means 10 percent of it 
is not. That is the first thing that goes through most 
Oklahomans' heads, so why is 90 percent the number?
    So I do not know that the number means that much. I agree 
with you. The fact is why don't we have a secure border. And 
what is a secure border, and how do you measure that? And that 
is one of the questions Senator McCain asked the Secretary. 
What does it mean? What is a secure border? And how do we 
demonstrate that? Where are the metrics that actually show 
that? I will not spend any more time on it.
    Mr. Heyman, let me ask you, you said in your opening 
statement--and I do not think you meant this, but you said it. 
``We screen all cargo.'' Did you mean to say we screen all 
cargo?
    Mr. Heyman. Yes, Senator. Screening has to do with our--we 
take a look at all cargo coming into the United States. We 
evaluate it for its risk, and we make a judgment at that point 
what is the next step. Some of the cargo that is high risk we 
will then----
    Senator Coburn. Screen.
    Mr. Heyman [continuing]. Scan. And then there is 
terminology here, so screening has to do with the vetting in 
effect of all of the cargo that comes to the United States----
    Senator Coburn. Well, that is a very different meaning than 
what your testimony actually implied, because the American 
people need to know right now we are not screening all cargo.
    Mr. Heyman. We screen all cargo. We do not scan all cargo.
    Senator Coburn. We make a judgment about whether or not it 
should be scanned, and that is what you are calling 
``screening.'' And that is very much different--because there 
is no assurance there. It is an assurance on the judgment of 
somebody--of whether or not the cargo should have been scanned 
and should have been investigated more. I just want to be real 
clear because I do not want the American people--as a matter of 
fact, Congresswoman Hahn is very concerned about that, and we 
are working with her on it in terms of screening cargo and port 
security related to that. So I just wanted to clear----
    Mr. Heyman. Yes, we do----
    Senator Coburn [continuing]. The nomenclature up. I 
understood what you meant, but the American people will not. 
When you say we screen all cargo, they are thinking all the 
cargo has been checked to make sure that there is no problem 
with it.
    Mr. Heyman. We do have a risk-based approach where we make 
sure to evaluate all cargo against potential risks, and we 
triage that to say which ones do we need to inspect, which ones 
do we need to open, and we do that for all the cargo coming 
into the United States.
    I just wanted to make another point on--I know we finished 
the discussion on metrics. I might want to just add one other 
point on that.
    Senator Coburn. OK.
    Mr. Heyman. Because if you look at one of the things we are 
doing, where we are today after years of work and investments 
on border security, we do have, in effect, a net zero 
immigration flow, which is another net metric that people could 
look at. And I think one of the things that is really 
important, as I was saying, is that there are a lot of things 
that are important as we talk about border security, whether it 
is the border crime rate, whether it is seizures at the border, 
whether it is immigration flows. And we will work with you on 
this because it is important.
    Senator Coburn. Well, they are all better, and I 
congratulate you, because I think all the agencies have done a 
much better job. We have better numbers than what we have ever 
had before. I do not disagree with it. The question is whether 
or not it is adequate, because if we had 98 percent control, 
and the 2 percent control were terrorists, we would not think 
that was control. So it is not just the number. It is who is in 
that number that got away that we did not catch that could 
actually cause us harm.
    So it is important you help us refine this as this goes 
through the legislative process so that we can actually build 
that assurance in there.
    Mr. Heyman. We will work with you, sir. This is too 
important not to.
    Senator Coburn. I have one other question. When somebody 
leaves the country that is here on a visa, that is pinged back 
to a list, correct? Everybody that is leaving this country on 
an outgoing visa.
    Mr. Heyman. Yes.
    Mr. McAleenan. That is correct.
    Senator Coburn. So why is the entry-exit visa so 
problematic in terms of cost that when we are already having 
this going to a central computer, why--explain the technologic 
problems and the cost problems that you said in your opening 
statement? Because I do not get it. If we are already capturing 
the data but we are just not using it on the exit visa program, 
why not?
    Mr. Heyman. Thank you, Senator. I appreciate the 
opportunity to elaborate on that.
    What I was describing in my opening statement is the 
congressional requirement post-9/11 which asks for a 
biometrically based system, which is one which uses either 
fingerprints or iris scans and things like that. That is what 
is costly. The ability to deploy that, where you deploy it in 
the airport and how you deploy it and the labor cost is where 
that $3 billion cost comes from.
    That is where Secretary Napolitano said, well, we have to 
have something in place now. We cannot wait for the costs to go 
down, although we should continue to research that, and we are.
    Senator Coburn. Right.
    Mr. Heyman. And so she directed us to do an electronic 
entry-exit system based upon the current biographical 
information. So we take your information from your passport 
when you enter. It goes into the database. And when you depart 
the country, that is matched. A match indicates that somebody 
has left. A non-match past the duration of one's visa 
requirements means that you are an overstay or a potential 
overstay, and we have to look into that.
    Up until a couple years ago, the systems that do all of 
that, which there are many across the Department, and that look 
at resolving whether somebody is, in fact, an overstay, that 
was all done manually. And we have in the last 2 years 
automated that process, linked up the databases to do the 
vetting for national security and public safety, moved that 
into a place right now, as of April of this year, where near 
real time now we are sending on a daily basis to ICE for action 
the folks who have----
    Senator Coburn. Overstayed.
    Mr. Heyman [continuing]. Likely overstayed. So that is a 
much more cost-effective way of doing it.
    Senator Coburn. I agree.
    Mr. Heyman. It is electronically based, and it is in place 
today. We will be improving it over the next year.
    Senator Coburn. Thanks for clarifying that. Senator 
Johnson.
    Senator Johnson. [Presiding.] Thank you, Senator Coburn.
    First of all, I truly want to thank you for your service. I 
realize these are enormous challenges, extremely difficult. And 
I also agree with Senator Paul. The purpose here is we need to 
fix our legal immigration system. We need to solve this 
problem. I want to see an immigration bill pass. But certainly, 
as I talk to members of the public, there is a high degree of 
skepticism about securing the border, and I am concerned about 
this particular bill where it is more focused on a process or 
more focused on who is going to certify whether the border is 
secure as opposed to actually passing a bill that secures the 
border. So I would kind of like to go back to where I started 
my questioning in terms of the history of trying to secure the 
border. We have been trying to do this now for 30 or 40 years. 
We obviously have not succeeded, and, again, I am sure it is 
because we have not tried, but what is the enormity of the 
challenge? Have we simply not put the resources toward it? Is 
it just too big a problem we will never be able to solve? And I 
would kind of like to just go down the panel. Why haven't we 
been able to? And, really, what are the prospects of actually 
being able to secure the border in the next 5 or 10 years? 
Secretary Heyman.
    Mr. Heyman. Yes, thank you, Senator, and thank you for your 
support of this legislation and the reform that will go 
forward.
    One of the things that this bill does which has not been 
done in 30 years is it takes a comprehensive approach. You have 
to address the number of things that are broken in the system, 
and you cannot just address one of them.
    To begin with, you have a magnet of jobs in the U.S. 
economy that attracts individuals. These are jobs that are, in 
effect, off the books because illegitimate travelers coming to 
the United States who are not lawfully present can go to 
businesses that are gaming the system by hiring people who are 
legally present. The bill addresses that through----
    Senator Johnson. But let me just stop you, because part of 
the concern--I totally agree with you. You have really got two 
demands here. You have the drug trafficking. You have the 
workers that are required. Does this bill even come close to 
providing enough temporary work visas to fulfill that demand?
    Mr. Heyman. So there are a number of different ways you are 
addressing this in the bill. One is to streamline our visa 
opportunities for individuals to come here, whether it is 
agricultural visitors, guest workers as it were, whether it is 
high-tech employment or otherwise. That is one way of 
satisfying it.
    The other way is to take away the demand signal by saying 
it is illegal to do that and every business be required to do 
an E-Verify check to verify lawful presence in the United 
States. So if you are coming here and you are trying to get a 
job, you better make sure you are lawfully present.
    Senator Johnson. What happens when people verify employment 
and then businesses still cannot fill the positions? What 
happens at that point with this law?
    Mr. Heyman. When businesses cannot fill positions----
    Senator Johnson. By the way, that is a common thread when I 
am traveling around Wisconsin and I talk to employers. They 
simply cannot fill good-paying jobs in the manufacturing sector 
today. Even with high levels of unemployment, we are not 
filling those.
    Mr. Heyman. Yes, these are levels that are set in law. This 
is a continuous debate and discussion year to year as 
businesses continue to compete for the best labor that they can 
get.
    One of the things that I think we need to continue to do is 
to invest in our own resources at home, our own labor at home, 
particularly on the high-tech jobs, investing in science and 
education that allows us to grow our own citizenry's skill sets 
so that we can fulfill those jobs in the absence of 
immigration.
    Senator Johnson. OK. Let me move down the panel and just 
kind of go back to my original question. What has prevented us 
and what are the prospects moving forward?
    Mr. McAleenan. First, I agree with the Assistant Secretary 
on the need for a comprehensive solution. In terms of your 
question, Senator, on the enormity of the problem, just to give 
you a quick vignette that I think highlights the overall 
picture, 225 million people are crossing our land border each 
year, critical to our North American economy, our partnership 
with Canada and Mexico. Prior to the creation of CBP, about 5 
percent of those people were actually queried and checked in 
the law enforcement system. They could cross with up to 6,000 
different types of documents--State IDs, birth certificates, 
you name it.
    In 2007, 2008, and 2009, the Department of Homeland 
Security implemented the Western Hemisphere Travel Initiative. 
The first step was a policy decision that only five documents 
would be acceptable for crossing the international border. The 
second part was implementing technology that would enable us to 
check those documents quickly and make sure that somebody was 
secure as they crossed the border. That is license plate 
readers, radio frequency identification (RFID) technology, and 
new primary systems.
    The implementation of that took hundreds of millions of 
dollars and several years but has dramatically changed the 
border. We now query well over 98 percent of all people 
crossing the land border. We have reduced fraudulent document 
attempts. We have increased arrests and increased security 
without slowing down that traffic. That is the kind of thing we 
have to do.
    Senator Johnson. Let me quickly move on, because I just 
wanted to ask one more basic question. Again, when Secretary 
Napolitano was before us very early, 2 years ago, I asked her: 
``Do you have enough resources? What would it cost to secure 
the border?'' And she said she had enough resources.
    I am not quite sure of that, so I do not know. Is it a 
matter of resources? And then, second, have you ever been 
tasked with the job of saying this is what we need to do to 
secure the border, actually come up with the plan? I mean, if 
we need more fence, this is how many miles of fence we have to 
build, this is how high it needs to be, this is how it has to 
be constructed. If we need more boots on the ground, this is 
how many boots we need on the ground.
    Have you ever been tasked with that? And if not, is that 
your understanding of what is going to be required with this 
bill? Finally come up with that plan which I guess I would be 
kind of scratching my head if we have been trying to do this 
for 30, 40 years, why don't we have that plan in place right 
now?
    Mr. Fisher. Senator Johnson, I came back to Washington, DC, 
to serve again at the headquarters component 3 years ago, and 
over the last 3 years--and it was something that Senator Coburn 
mentioned, and really probably within the last 6 months, 
specific hearings on asking the very question that even the 
Chairman had mentioned: What does it mean to have a secure 
border?
    Now, we have defined that because, as we were transitioning 
our strategy, we identified what that meant to us in our 
implementation, and we will be able to adjust to that, 
depending upon what the end state looks like. Within our own 
strategy, when we look at the implementation, what is the end 
state, it is not a static position. It is not something that on 
1 day it is secure and the next day it is not. It is more 
predicated on evolving threats and what that risk is at any 
given time to this country.
    And so the next question I was asked was: ``Chief, tell us 
when the border is going to be secured.'' And my general 
response to that is: ``When there are no more bad people 
looking to come into this country illegally between the ports 
of entry.'' That is the only time that I would feel comfortable 
to come before this Committee and others and suggest that the 
border is definitively secured. It is not an easy process. I do 
not offer it even in the context of an effectiveness ratio, 
that somehow this is a scientific method and that I can assure 
the Chairman and this Committee or the American people that at 
any given time we will be able--on 4,000 miles on the northern 
border and 2,000 miles on the southern border, be able to say 
with 100 percent certainty the amount of people that enter, and 
of that number, how many people we apprehend. The terrain does 
not allow it. The vastness within our borders does not allow 
us. However, that does not mean we cannot accomplish that.
    Senator Johnson. But, again, I understand that, but have 
you ever been tasked with the challenge of laying out a plan? I 
mean, basically a dream list----
    Mr. Fisher. Yes.
    Senator Johnson. And do we already have that in place? Can 
we review that?
    Mr. Fisher. Yes, sir. Our Strategic Plan of 2012-16 was 
published last May when the first year of implementation--it is 
certainly available to you and your staff, and I would love to 
give you a personal briefing on that if you are interested, 
sir, and to give you insight into what implementation looks 
like to include the measures that we have been putting together 
over this past year.
    Senator Johnson. So if that is already in place, why are we 
looking at this bill to develop another plan? I mean, why 
aren't we looking at that and implementing that with this piece 
of legislation?
    Mr. Fisher. Our strategy, just to be clear, only takes into 
consideration between the ports of entry. We are working within 
both the CBP and the Department's strategic plan and the 
guiding principles that are set forth in the Quadrennial 
Homeland Security Review (QHSR). Those are all nested together. 
That is why in the earlier question I felt comfortable that the 
timelines within the current draft bill suggest that 
implementation is doable, because a lot of that work is done. 
It is just a matter of integrating those and then identifying 
the definitive end state that defines whether or not the border 
is secure or not and what those parameters or what those 
indicators are to help us gauge whether, in fact, we do need 
more resources, whether we have to shift resources from one 
area to the other.
    Senator Johnson. OK. Thank you.
    Thank you, Mr. Chairman.
    Chairman Carper. [Presiding.] Those are all good questions. 
I just want to say thank you so much for coming early and 
staying late yet again--as we all are.
    One of the things that I am just going to walk back in time 
a little bit with you, if I could, before I ask another 
question or two, during the 8 years I was privileged to be 
Governor of Delaware, I would submit an operating capital 
budget to the legislature, and my Cabinet was expected to 
defend the budget. And if they went to a hearing and said, 
well, Secretary X, Y, or Z, this is what Governor Carper has 
suggested be allocated to your department, and for them to sit 
there and say, ``Oh, no, that is not right. This is what we 
really need,'' we would have been looking for new cabinet 
secretaries. And for every President I have seen here since 
Ronald Reagan right up through President Obama, there is a 
similar kind of discipline at work. And if you have a chance as 
a Cabinet Secretary to say, ``These are the resources we would 
like to have, financial, human and otherwise,'' and when the 
President submits the budget, you are expected to defend the 
budget, whether it is a Democrat or Republican President. And 
part of our job is to ask tough questions so that we can 
actually ferret out where the real resources should be 
allocated.
    The fortunate thing here, we are going to have some money. 
We are going to have some real money. We are going to collect 
fees. There are a number of fees called for in the proposal by 
the Gang of Eight, fees proposed by the President. We are going 
to have some resources. And the key is for us to allocate those 
resources where the risk is the greatest, where the payoff is 
the best; and, second, to make sure that we are looking to see 
what works and what is appropriate for a particular sector and 
do more of that and find out what does not work and do less of 
that.
    Senator Johnson. If I could request, though, as long as 
this plan is already in place, I think it would be an extremely 
interesting hearing to have a hearing simply on that. Let us 
take a look at the current plan that the Border Patrol actually 
has in place, and let us evaluate that and see if we cannot 
throw that into the bill.
    Chairman Carper. And, actually, if you look at what is in 
the Gang of Eight suggestions and the Administration, one of 
the things that is in the plan for the Department is do not 
just look at the areas between ports of entry, the big ports of 
entry. Put some resources in the ports of entry, where you have 
thousands of trucks, cars, vehicles, people, pedestrians coming 
through, and so that is part of their plan, and actually I 
think that is one of the things that we will do. But you are 
right. This is a shared responsibility, shared by the 
Administration, hopefully enlightened by our experiences, our 
visits, our backgrounds and so forth, our staff, and I am 
encouraged that we are going to do some really smart things.
    Will it ever be 100 percent? I do not think so. Can it be 
perfect? Probably not. But can we do a better job? You bet we 
can. And our goal, I think, is if it is not perfect, make it 
better. And we are getting a lot of good ideas here, and I 
think there is just a good spirit here. I am encouraged with 
what I am hearing and from both sides of this dais.
    I have a couple of questions I want to ask, and, Senator 
Johnson, you are welcome to stay longer if you would like. It 
is your call.
    I want to go look at the issue of visa overstays. Most of 
us, most people you ask, most people in this country, do you 
think--how serious a problem is it when people come to this 
country, they are legal, they are here on a student visa, a 
tourist visa, maybe a worker visa or whatever, and they simply 
overstay, not just their welcome, but their legal limit? And as 
it turns out, there are a bunch of people that fall in that 
category, and my understanding is that number is rising. It is 
not like 5, 10, or 20 percent of those that are here illegally. 
We could be talking about as many as 30 or 40 percent.
    Can anybody try to give me a number on that? Again, we are 
calling them visa overstays. How significant a problem is it? 
Go ahead.
    Mr. Heyman. I will take that and, Dan, if you want to 
comment, too.
    Senator, you ask a great question. It is a question that 
people have asked going back 20, 30 years, which is there an 
interest in the Federal Government in publishing visa overstay 
numbers, and we talked a little earlier--you may have been out 
at a vote--about how we do identify and track overstays, what 
is the system for doing it. It is basically matching an entry 
and an exit record electronically and then running it against 
some databases to ensure that the person has either left the 
country or still resides in the United States.
    That process for identifying and tracking overstays has 
been one that has been long coming, and there have been a 
number of requests by Congress to identify that system, to 
develop that system. And it has only been within the last 2\1/
2\ years probably that we have actually been able to build a 
system that allows us to have the fidelity of that data so that 
we can actually publish it. It has not been published yet. We 
have committed to getting those numbers out by the end of this 
year for the first time in the government's history. We have 
done that by an entire Department working together to automate 
the system of tracking entries and exits, linking up the 
databases, improving our matching algorithms, and we will be 
able to publish that information later this year.
    Chairman Carper. It would be nice if you could give us some 
insights on that question before the end of this year.
    Mr. Ragsdale, do you want to add something?
    Mr. Ragsdale. I would just like to add, one of the 
advantages of a comprehensive immigration reform perspective is 
matching visa categories with the demand, having a worksite 
enforcement regime where there is tough enforcement, so there 
is not a magnet for folks to overstay, and then a codification 
of priorities that, when folks overstay, we will be able to 
quickly identify and remove them. So it is the balance that 
this bill posits that we think could be effective going 
forward.
    Chairman Carper. OK. Are these overstays--here is an idea, 
and Senator Johnson and I may have discussed this before, but I 
just want to share it with you all here again today. In my old 
job as Governor of Delaware, we used to start parenting 
training literally when a newborn baby came into this world in 
a hospital. We did followup parenting training in thousands of 
homes, sending out parenting trainers to those homes, 
especially in high-risk situations, to make sure moms and dads 
had the skills that they needed. We provide I will call it, a 
5-year calendar, like a Cliff Notes on how to raise your baby 
in terms of checkups, immunizations, food, diet, all kinds of 
things for the first 5 years, sort of like 5 years Cliff Notes 
for raising your newborn baby.
    We have much smarter ways to do this sort of thing now. 
Johnson & Johnson has come up with something called ``Text for 
Baby,'' and it is the ability to send to a new mom or dad on 
their phone, using texting, reminders: You have a doctor's 
checkup coming up in 2 weeks. Or you have a doctor's checkup 
coming up tomorrow. Immunization, your baby should be getting 
this immunization today, tomorrow, next week, next month. Just 
all kinds of things using Text for Baby. Almost everybody, 
especially younger people, have cell phones. They do a lot of 
texting anyway. This is just a good tool, a very cost-
effective--sort of like a digital solution or digital successor 
to what we were doing with paper 15 years ago.
    One of the ideas that I heard when I was down on the border 
somewhere on this was an idea that why don't we do a similar 
thing with people who are here legally but not forever. They 
are not here on permanent status. They are a student, they are 
a visitor, they are a tourist, they are a worker. And just send 
them a reminder, text them: You have a month to go on your 
visa. You have 2 weeks to go. You have a week to go. You have a 
day to go. And the idea that people know that we know that they 
are here, we know that their time is running out, and we are 
watching them, and that could probably do something positive. 
We are talking about a lot of technology, of stuff up in the 
air. There is one that might use the airwaves, but in a 
different kind of way.
    On ports of entry, we have already talked a little bit 
about that. But we are talking about 3,500 new officers at 
ports of entry. What can you all tell us about how those 
officers might be deployed and what concrete improvements we 
could expect to see in border security and legal trade and 
travel? For instance, where are some of the longest crossing 
delays on the southwest border? And how much could we hope to 
reduce those times? Who would like to take a shot at that? Yes?
    Mr. McAleenan. Thank you, Chairman. I will take a shot at 
that. As a former Acting Assistant Commissioner for Field 
Operations, and to Senator Johnson's question, have we ever 
been asked what do we need resource-wise to secure and 
facilitate legitimate trade and travel, that was the question 
that we were asked with the workload staffing model and the 
resource optimization strategy that we submitted with the 
fiscal year 2014 budget. It identifies the need for 3,477 
officers at ports of entry, and they would be deployed based on 
the greatest need. That is determined by the workload, by the 
enforcement results, and by growth of facilities, and also 
risk. So it is a combined formula that is incorporated in the 
model, and we have some significant wait time challenges, as 
you noted, Mr. Chairman. In the air environment, we have seen 
air traffic grow 4 percent a year for 3 years in a row. It is 
expected to hit that mark again. We are going to see over 100 
million international air travelers. And the wait times have 
grown commensurate with that, even non-linearly above the 
traffic growth. So we need to keep pace. We have available 
booths, we have infrastructure at the airports, and we want to 
put additional staff there to lower the wait times.
    The sequestration experience gave us an example of what 
happens if we cut staff. The wait times have gone up 
dramatically in many of our major airports during peak periods, 
and we would like to counterbalance that, not only getting back 
to our current level but to go beyond that with the proposals 
in the 2014 budget.
    On the land border, being able to staff all booths at our 
key crossings, not only during the peak period but leading up 
to that peak and extending beyond it, will balance out our 
ability to process that traffic, reduce wait times, like we are 
seeing at San Ysidro, up to 4 hours right now on certain high-
traffic days. We need to get those down as we commit to our 
trusted travelers getting a shorter crossing of 15 minutes or 
less.
    Chairman Carper. OK. In terms of best bang for the buck, 
let me just followup on your response. Anybody else is welcome 
to answer this. But in terms of best bang for the buck, force 
multipliers, investments in whether it is in technology or 
infrastructure at the ports of entry, best bang for the buck. 
We saw gamma ray devices. We saw portable handhelds, that they 
are able to--literally, as the truck came through, made the 
entry of somebody sent to the officer who was going to later 
talk to the driver. They literally had in their handheld pretty 
much the history of the vehicle, their visits to the border, 
the driver's visits to the border. Really impressive stuff. But 
let me just say, just some of the ideas, technology ideas, it 
could be handhelds, it could be others, the ability to detect 
radiation in really smart ways, but what are some of the best 
force multipliers with the technology and infrastructure that 
we are looking at these ports of entry?
    Mr. McAleenan. Well, you hit on two of them right there, 
Senator: The mobile technology, we have a proposal in the 2014 
budget for increased mobile technology. That takes our system 
and support right to where the officer is doing the work, not 
chaining them to a fixed terminal.
    Additionally, the improved non-intrusive inspection (NII) 
equipment, like our Z-portals where we can run vehicles through 
at very low levels, but still be able to detect any anomalies.
    And then the third thing that is in the budget that is 
critical is the concept of pedestrian re-engineering, using 
kiosks so that when a pedestrian approaches our officer, they 
have already had their documents checked, they have already had 
their system checks run, so we can process them about 30 
percent faster, shorten those lines and get people moving more 
quickly with advanced technology.
    Chairman Carper. I would just say to Senator Johnson, my 
time has expired, and I am going to yield back to you. But in 
terms of your point earlier, we want the Department, if you 
will, to tell us what their plans are. And I think what we are 
hearing is something that actually makes sense to me, seems 
intuitive, and it looks like we will have some resources. They 
have a plan. A lot of this meets the common-sense test, so I 
think we might be on to something here. Senator Johnson.
    Senator Johnson. I just have a quick question, and I have 
not been down on the border with you, but that was one of the 
first trips I did make, down to Nogales, and my impression was, 
first of all, inadequate fencing. I could not believe--and we 
did not have exactly the high ground there, either. But, we saw 
the beautiful port of entry that was being constructed, but 
certainly the input from the agents was, OK, we have the 
infrastructure, we do not have the manpower. So just very 
quickly to you in terms of your plan, you say you wanted 
close--was it 3,400? Where are we at right now?
    Mr. McAleenan. Our total staffing nationally is 21,775. 
That is the----
    Senator Johnson. But in terms of port of entry. You were 
talking about a plan that you needed thirty-four--what, 3,474? 
I cannot remember the exact number.
    Mr. McAleenan. Yes, the numbers are very similar between 
Border Patrol agents and CBP officers. It is 21,370 for Border 
Patrol agents, 21,775 for CBP officers. So it would be a 
significant increase, about 17, 18 percent of our staff.
    Senator Johnson. OK, and that you think would actually 
accomplish the objective?
    Mr. McAleenan. That would help us catch up with the 
tremendous growth in trade and travel and secure that in a much 
more effective and efficient way.
    Senator Johnson. So without percentages, just numbers, how 
many additional agents do we need in the actual ports of entry 
on the one hand and then in terms of controlling the borders in 
between the ports of entry? Can you give me just numbers, what 
do you think we need, versus where we are today?
    Mr. McAleenan. Versus where we are today, we need an 
increase of roughly 3,500 CBP officers.
    Senator Johnson. OK, total. And that is ports of entry?
    Mr. McAleenan. That is for ports of entry.
    Senator Johnson. And what about in terms of in between the 
ports of entry?
    Mr. Fisher. Senator, a lot of that has to do with the 
amount of technology that is going to be online here in 
September--I am sorry, in the spring and in the fall, both in 
terms of mobile video surveillance systems, we have the 
integrated fixed towers coming online, scheduled for fall; we 
have replacements for the remote video surveillance systems on 
previous pulls on the border. So a lot of that, once we start 
taking a look at getting that technology, then we take a look 
at what is the response requirement going to be in terms of 
Border Patrol agents. Once we have that last lay down on the 
technology, we will be able to assess where we have those 
Border Patrol agents.
    And the other piece, which is really critical, is the 
Deputy Commissioner mentioned the Border Patrol agent staffing 
right now is 21,370. What is more important than just whether 
that is the right number is do we have those agents in the 
right locations given our risk assessment, and the answer to 
that is no. I want to be able to have the flexibility and 
mobility with those agents to move Border Patrol agents in 
areas that we have already identified as low risk, and I think 
given the measures in some of those areas like El Paso Sector 
and Yuma Sector, be able to move Border Patrol agents from one 
location to the other, which may not require an additional 
increase of 21,370, but a re-evaluation of if we have those 
Border Patrol agents in the right location.
    Senator Johnson. So why do you not have the flexibility 
now. Why not?
    Mr. Fisher. For a couple of reasons. One is the money that 
is required to move Border Patrol agents en masse. I am talking 
hundreds of Border Patrol agents from one location to the 
other. It was not available in 2013, and it does not look like 
at this point it is going to be available in 2014. The other 
thing is----
    Senator Johnson. So it is a resource issue as opposed to 
policy issue.
    Mr. Fisher. Well, part of it is a resource issue. The other 
piece, too, because the vast majority of Border Patrol agents 
that I would want to move from one location to the other are 
part of the bargaining unit, so it would require bargaining 
unit negotiations. And the other piece also is that we just do 
not have the ability overnight to move wholesale all of those 
Border Patrol agents into those locations and maintain them in 
that location for a long period of time. These would be 
permanent moves as opposed to just a short 30-to 60-day 
temporary assignment, which we do currently.
    Senator Johnson. Now, I certainly understand when I ask 
questions, do you have enough resources and people needed to 
defend budgets, I mean, I get that. But I will still try 
again--not in terms of dollars but manpower. I am just trying 
to get some sort of sense if we have in total 42,000 agents 
that we are talking about, right? 21 and 21. You need another 
3,500 in the ports of entry. I mean, are we talking about just 
thousands of additional agents? Or if we are going to really 
secure the border--again, realistically--because my concern is 
the American people have no faith that we will ever secure the 
border. I am just trying to get to the point, how many boots on 
the ground will it really take? Is it going to be 42,000? Is it 
going to be 50,000? Is it going to be 100,000? Can you just 
give me some sort of ballpark sense and actually kind of give 
the American people a ballpark sense of what it is going to 
really take to finally once and for all--and, again, it is 
never going to be perfect, I understand, but basically to get 
total operational control of the border, how many people will 
it take?
    Mr. Fisher. Senator, it is very difficult for me to answer 
that question directly because it really depends on what do you 
mean by ``truly securing the border'' and ``significantly 
securing the border''? That has been, I think, a lot of----
    Senator Johnson. Where you would be satisfied, where the 
American people would be satisfied, so we are not looking at 
another 10 million illegal immigrants 10 years down the road or 
we are not going to be looking at another wave.
    Mr. Fisher. Right, but I am going to go back to identifying 
what the end state is going to be, and there is basically--let 
me show you at least the pendulum in the discussion that I have 
been involved with over the last couple of years, having come 
back. One is those that when they talk about securing the 
border, in their mind, right?--and I am not talking about 
committees, by the way. I am talking about community members 
that I have talked to, I have talked to Border Patrol agents, 
and trying to get an assessment to be able to implement the 
strategy and what the end state is going to be.
    There are those that would suggest that we have to 100 
percent with certitude stop and prevent everybody coming across 
the border. If that is the end state and that is people's minds 
of operational control of border security, I have no idea what 
the boots requirements are going to be and the technology 
requirement, not to mention the financial impact to be able to 
achieve that end state. And even with unencumbered or 
unrestrained resources, even with certitude, it is going to be 
very----
    Senator Johnson. How about with the goal laid out in this 
bill, in terms of what we are talking about there? With that 
goal, how many people?
    Mr. Fisher. Right. My staff has actually been looking at 
trying to identify what the requirements are going to be under 
some of the draft legislation. Assuming that we look at, at a 
minimum, 90 percent or greater in high-risk areas and giving 
the flexibility to the Border Patrol and within CBP, to 
reallocate those resources that we already have, and to make 
sure that we optimize the capability that we have, whether it 
is technology in the air, whether it is the integration of all 
the technology, I would be at a better position to answer that 
question once that is done. But I do not have that answer right 
now, Senator, and quite frankly, I do not think it is just a 
matter of another 4,000 Border Patrol agents and, therefore, 
undefined we would be able to achieve the end state.
    Senator Johnson. OK. I understand, but I appreciate your 
working with me on this one.
    Mr. Fisher. Yes, sir.
    Senator Johnson. Thank you, Mr. Chairman.
    Chairman Carper. I am going to just followup here real 
briefly on Senator Johnson's question, and I want you to be 
thinking about this. Sometimes when we hold hearings, our 
witnesses have an opportunity to give an opening statement, and 
sometimes I like to give them a chance to give a closing 
statement. We normally give you about 5 minutes for an opening 
statement. I will give you about a minute, each of you, for 
just a closing statement. It could be kind of a reflection back 
on some of the questions we have asked you, some of what you 
have heard said or not said that you would like to just--and, 
Chief Fisher, I will ask you to join us in doing this. This 
would be an audible for you, but you are pretty good at that.
    Going back to the very good line of questioning from 
Senator Johnson, I do not know that there is one number for a 
number of human bodies, personnel. I just do not know that 
there is a good number. And I do not know that there is any one 
technology, whether it happens to be a handheld, whether it 
happens to be these detectors, these gamma rays that enable us 
to look into trucks, big trucks, or whether it is our ability 
to measure radiation coming out of vehicles.
    I do not know that it is lighter than air. I do not know if 
it is drones or C206 aircraft. I do not know that it is just 
flexibility. I do not know if it is just money. It is all the 
above. And we have an opportunity here to do an all-of-the-
above policy, and in a budget-constrained world, but in this 
case we are going to have some resources here, and to ask this 
question: What works? What do we need to do more of? Maybe what 
do we need to do a little less of?
    Part of the answer here is some of the flexibility, and one 
of the things that is tough about it, if you think about it, if 
you want to move folks who are on--the Border Patrol people 
from the eastern part of Texas over to Yuma in Arizona, they 
have families, most of them have families, and what is 
difficult is you just cannot say, ``OK, we are going to move 
you here from eastern Texas and put you over here in Yuma for 
the next 2 years. And, by the way, I know you have two or three 
kids and a spouse, but that is too bad.'' We just cannot do 
that. So there is the human-side sort of factors in here as 
well.
    So those are just a couple of comments, but I thought it 
was a very good line of questioning, and I appreciate your 
bringing it up.
    One last question I will ask, before I ask you to help me 
give the benediction, and this goes back to metrics. There has 
been a lot of discussion of metrics here, and I will not 
belabor that, but I do have a question. Based on the data that 
you have available, can you answer the question our expert 
witness posed, namely, where are the vulnerabilities for 
increased illegal immigration the largest: at the ports of 
entry, between the ports, or through visa overstays? And maybe 
if you can say of those three--ports of entry, between the 
ports, or those who came here legally but are no longer in a 
legal status--maybe give us some idea of which should be our 
top priority in terms of vulnerability, maybe No. 2, maybe No. 
3. And I do not know, Ms. Richards, it may not be a fair 
question to ask of you. If you feel like you would like to give 
it a shot, go ahead, but this is not why we brought you here.
    Ms. Richards. Yes, I think I would defer to my colleagues.
    Chairman Carper. Fair enough. Mr. Ragsdale.
    Mr. Ragsdale. Just putting it into terms of risk, obviously 
the people we know the least about would be sort of our 
greatest concern for law enforcement, so I would imagine the 
folks between the port of entry--we have certainly heard some 
conversation about folks we know very little about, so 
certainly that. At the port of entry, they obviously are 
inspected and admitted, so we know more about those folks. 
Similarly, with the folks that overstay and who was coming 
through a port of entry. So I suppose if I had to rank them--
and, again, very difficult to talk in absolutes, but that is 
probably the ranking.
    Chairman Carper. OK. Good. Thanks. Chief.
    Mr. Fisher. Mr. Chairman, with respect, I think I would 
have the Deputy Commissioner talk in terms of CBP lest I show 
my parochial answer and say it is in between the ports of 
entry. [Laughter.]
    Chairman Carper. OK. Mr. McAleenan.
    Mr. McAleenan. To that point, Mr. Chairman, I think Deputy 
Director Ragsdale laid out the different considerations and 
different environments. Between the ports of entry is obviously 
vast and uncontrolled, and we very much appreciate your visits 
to the border and your engagement with our mission and our 
personnel there. At the point of entry (POEs), it is a 
controlled environment where we do have an opportunity to 
question and query travelers entering so we know more about 
them and more about their admissibility or not.
    Obviously, I think Assistant Secretary Heyman has laid out 
the efforts on the overstays along with Deputy Director 
Ragsdale that are critical. That is why the bill attacking this 
from all angles is the best way to move forward because it 
needs to be a comprehensive solution.
    Chairman Carper. Mr. Secretary, just very briefly, please.
    Mr. Heyman. You have a choice between ports of entry or not 
ports of entry, because people who have visas do come through 
the ports of entry. And in the last few years, we have made 
significant improvement in tracking, identifying, and 
sanctioning those who are overstays, and we will continue to 
make progress on that. We have real-time ability to revoke 
visas, to put lookouts out, and to go after folks for law 
enforcement purposes. So it is the people between the ports of 
entry who are unlawfully present and who are willing to break 
the law that we have the most concern about, and that is where 
I would put my concern there.
    Chairman Carper. All right. Thanks.
    Ms. Richards, I am going to come back to you, and this is a 
chance for you to give a closing statement, if you wish. And we 
have not had the opportunity to ask you as many questions, so 
you can take a minute or two, if you would like. But, again, we 
very much appreciate your being here.
    Ms. Richards. Thank you, sir. I think in closing I would 
reiterate some of the points that I made earlier. The gentlemen 
on the panel all talked about the various policies and 
procedures and things that they are putting into place, the new 
technologies, the strategic plan, the determination that they 
are making on the number of agents that they need between the 
ports and at the ports. And I go back to the necessity of doing 
those plans very carefully and in full detail.
    I think that is the way to success, for the Department to 
think through what they are doing before they spend the money, 
before they make a commitment to hire a certain number or have 
drones versus manned aircraft, I think they need to really go 
through the whole planning process very carefully first. And I 
think that they will.
    Chairman Carper. OK. Thanks. Mr. Ragsdale.
    Mr. Ragsdale. Thank you. I would just note that the 
comprehensive approach is a sensible way to go. We certainly 
understand that bringing folks into earned status will be 
helpful for the very reasons we just talked about in terms of 
finding out who they are. Certainly a worksite enforcement 
strategy that has penalties that are updated, as we see in this 
bill, as well as some criminal and civil penalties that really 
deter illegal conduct. And certainly also just the overall 
balance of sort of the labor and the visas, not only the high-
tech but also the low-skilled so that magnet is diminished.
    And then, finally, just making sure that the balance in 
terms of resources and staffing for special agents in the 
criminal investigative area as well as the civil immigration 
enforcement side is all balanced so we take a comprehensive 
approach.
    Chairman Carper. All right. Thank you. Chief.
    Mr. Fisher. Mr. Chairman, I would like to answer the first 
question you posed at the beginning of the hearing, and that 
was what would you do, how would you implement with the money 
that would be perhaps attached both in the authorization and 
the appropriations process. But before I answer that, I think 
it would be fair to tell you what our end State vision is in 
terms of our strategy.
    One is when you look at Secure Border, what does it mean in 
our current operation? It is one that reduces the likelihood of 
attack to this country; and, second, provides safety and 
security to the public.
    Within that broad context, there would be three things that 
we would continue to build within our implementation plan with 
this bill. First and foremost, it would be our ability to 
increase our detection capability, more so in the mobile 
systems as opposed to the static systems. And we are also 
leveraging with the Defense Department, with a Memorandum of 
Understanding that was recently signed last year and starting 
to get equipment that was previously purchased by the taxpayers 
that we intend to use and test for our border security mission, 
augmenting those things that we have already received within 
the Department and deployed along with long-term detection 
capability. That would be the first thing.
    The second thing--and I would just like to reiterate it--is 
flexibility to deploy and what type of technology and how we 
deploy that in different areas. We have to have that 
flexibility built in because it is not a static state.
    And the third, let us talk about capability that we within 
the Border Patrol have to get better at, and it may not be so 
much in terms of dollars but proficiency, is our ability to 
increase our analytical capability about what all the measures 
mean and how do we take all the stuff that we collect and 
leveraging both in terms of what the Department has in 
experience and what CBP has, but building greater capability to 
understand the analytical framework in which we design and 
implement our operations to really understand what the measures 
mean at the end state. But thank you for the opportunity, sir.
    Chairman Carper. Thanks for coming back and joining us 
today. Thanks so much. Mr. McAleenan.
    Mr. McAleenan. Mr. Chairman, thank you. I would like to 
agree with you first that I think we are on the right track, 
that we have many of the fundamental foundational elements in 
place across the different pieces of this, and this immigration 
reform approach gives us a chance to bring it together in a 
comprehensive way. And that is really what we need to do next.
    I appreciate again your leadership and engagement with our 
mission. I think Chief Fisher has very well covered the between 
the ports of entry aspects of what we need to do next. Thank 
you for the opportunity that you gave me to talk about the 
ports of entry. We have just got to continue to transform our 
processes there, be as efficient as possible. And we identified 
our staffing needs. We need to apply them appropriately and 
really between the ports implement that risk-based approach 
with the flexibility that Chief Fisher spoke about. I look 
forward to continuing to work with you and your Committee.
    Chairman Carper. Yes, sir. Thank you. Mr. Secretary.
    Mr. Heyman. Mr. Chairman, thank you on behalf of the 
Department for holding this hearing and giving us an 
opportunity to put forward what I think is a good story about 
our border and our ability to secure it. We have made 
substantial gains in border security over the last decade, and 
particularly the last 3 or 4 years. We see that apprehensions 
are at historic lows, 49 percent down in the last 4 years, 
seizures at record highs, border crime significantly decreased 
in border communities, and by all accounts, that is a good 
story, and we should continue to move in that direction.
    I think, look, the border is a living, breathing, permeable 
membrane that allows us both to sustain our daily lives through 
the goods and things that come through and the business 
transaction, but also to protect us against those who would do 
harm. We want to be able to expedite lawful trade and travel, 
and we want to be able to interdict threats at the earliest 
opportunity.
    The Department of Homeland Security makes that a principal 
mission. There is no single solution that is going to allow for 
that complex and important mission to be accomplished. But I 
think this comprehensive immigration reform bill provides the 
best opportunity. Because there is no single solution, you need 
a comprehensive approach. You need to address the magnet that 
attracts people here for illegitimate work. We need to address 
the visas that are perhaps out of line and have been for a 
number of years. And we need to address the security and 
continue to build on, as we have talked about here, the 
technology deployment, the resources to secure the border. I 
think this bill does that. It is comprehensive. If it were 
easy, we would have done it 20 years ago, 10 years ago, today. 
It is not, but this provides us the best path forward, and this 
Administration supports it and will work with you to get it 
done. Thank you.
    Chairman Carper. Thank you very much for that statement.
    I believe, in a closing comment of my own, I am reminded 
that a couple months from now it is going to be blazing hot 
down on the border. It will be 120 degrees. The sun will be 
bearing down, and the men and women who are serving us will be 
there to do their jobs. During times this year when we had 
monsoon rains, very hard rains, they had a lot of drought down 
there. But when it is raining hard or even hailing or whatever, 
they will be there doing their jobs. If rocks are being thrown 
at them, people taking shots at them, they will be there. Good 
weather, bad weather, day and night. And we need to keep that 
in mind and just to again express through you our appreciation 
for the very good work that is being done, and sometimes in 
very difficult circumstances, and for the most part done in a 
very good spirit. People take pride in their work. I have been 
really very favorably impressed, very encouraged just by the 
spirit of the men and women that I have talked to, whether it 
is California, Arizona, Texas, or up on the Canadian border. 
Very encouraged.
    We aspire--I know you do, too--to be nearly perfect in the 
work that we do. That is probably not achievable here. I was in 
places along the Rio Grande River last week where you could put 
a Border Patrol officer every 50 yards, every 100 yards, and it 
would be tough to be able to stop everybody from getting 
through. Does that mean we do not try? No. We have to be smart, 
think smart, figure out where the risks are, where the risks 
are highest, allocate the resources that make the most sense 
there.
    We have an obligation here to ask tough questions. We are 
stewards of the resources of our people in this country, the 
taxpayers, and the good news is we are going to have some extra 
resources. And the question is: How are we going to use those 
resources? Where are we going to invest them? You can help us 
decide how to do that, and you have given some great answers in 
previous exchanges and, frankly, a number of other good ones 
here today.
    So as we close, let me just say I am not discouraged. I am 
encouraged. And there is a very good spirit here in this 
Committee, and I hear from the responses here that there is 
actually the makings of a pretty good comprehensive, all-hands-
on-deck approach, all-of-the-above kind of approach that makes 
a whole lot of sense.
    The last thing I will say, I might be wrong, but I think 
the people who say that if we had a smart, comprehensive 
immigration policy in place, one that actually allowed people 
to legally go from Mexico into to the United States to work for 
a while and then go back, to go back home where a lot of them 
want to go, anyway, that would be helpful.
    To the extent that we had a situation where somebody comes 
to this country to go to school, go to college, get a degree, 
maybe an advanced degree, maybe in one of the science, 
technology, engineering, math (STEM) subjects--and they 
actually had the opportunity with an undergraduate degree or an 
advanced degree, had a chance to stay here, the idea of 
stapling that green card to their diploma, that is going to 
help a little bit, too, in terms of those folks that overstay 
their visas.
    But I want to thank you all for joining us today. Thanks 
for the work you do, and a special thanks to Anne Richards, the 
real Anne Richards. I served as Governor with former Governor 
Richards and had great affection for her, and we are delighted 
that you could be here, and your presence reminds me of the 
great service she provided for the folks in Texas and our 
country.
    I understand that the hearing record will remain open for 
another 15 days, that is, until May 22 at 5 p.m., for the 
submission of statements and questions for the record.
    With that, we are going to adjourn this hearing. Thank you 
all very much.
    [Whereupon, at 1:05 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
